<html>
<title> - STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
       STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION ACT
=======================================================================




                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              June 8, 2002

                               __________

                           Serial No. 107-124

                               __________

           Printed for the use of the Committee on Resources








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov










                           U.S. GOVERNMENT PRINTING OFFICE
80-117                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 8, 2002.....................................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon, Prepared statement of.....................     6
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................     1
        Prepared statement of....................................     3
    Smith, Hon. Gordon H., a United States Senator from the State 
      of Oregon, Prepared statement of...........................     5
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     3

Statement of Witnesses:
    Davies, Stacy L., Manager, Roaring Springs Ranch, Grazing 
      Permit Holder, Steens Mountain Advisory Council, 
      Frenchglen, Oregon.........................................    52
        Prepared statement of....................................    54
    Marlett, Bill, Executive Director, Oregon Natural Desert 
      Association, Bend, Oregon..................................    39
        Prepared statement of....................................    41
    Otley, Fred I., Vice-President and Resource Manager, Otley 
      Brothers Inc., Grazing Permittee, Diamond, Oregon..........    62
        Prepared statement of....................................    63
    Sutherland, Jerry J., Oregon Chapter, Sierra Club, Portland, 
      Oregon.....................................................    57
        Prepared statement of....................................    59
    Wassinger, Chuck, Oregon Associate State Director, Bureau of 
      Land Management, Portland, Oregon..........................     7
        Prepared statement of....................................     8
    Witzel, Cynthia K., Co-Owner, Steens Mountain Packers, and 
      Special Recreation Permit Holder Representative, Steens 
      Mountain Advisory Council, Frenchglen, Oregon..............    42
        Prepared statement of....................................    44
    Yriarte, Harland, Director, Steens Mountain Running Camp, 
      Eugene, Oregon.............................................    20
        Prepared statement of....................................    22

Additional materials supplied:
    Burns Paiute Tribe, Burns, Oregon, Statement submitted for 
      the record.................................................    81
    Ekker, TinaMarie, Policy Director, Wilderness Watch, 
      Missoula, Montana, Statement submitted for the record......    87
    Finlayson, Stephen and Stephanie, Burns, Oregon, Letter 
      submitted for the record...................................    90
    Newspaper article ``Running school unlikely to present any 
      danger to Steens environment'' submitted for the record....    91
    Runnels, Pete, Burns, Oregon, Letter submitted for the record    92
    Workman, Jill M., Chair, Steens-Alvord Coalition, Statement 
      submitted for the record by The Honorable Greg Walden......    93
















 OVERSIGHT FIELD HEARING ON THE STEENS MOUNTAIN COOPERATIVE MANAGEMENT 
                           AND PROTECTION ACT

                              ----------                              


                         Saturday, June 8, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                           Frenchglen, Oregon

                              ----------                              

    The Subcommittee met, pursuant to call, at 12:40 p.m., at 
Frenchglen School, Highway 205, Frenchglen, Oregon 97336, Hon. 
Michael K. Simpson presiding.

   STATEMENT OF HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Good afternoon. Subcommittee on National 
Parks, Recreation and Public Lands, will come to order.
    I appreciate being invited back to this beautiful country, 
in this area with the Steens Mountain and all that's gone on 
here. And I have spent 3 days here, last summer, with Fred 
Otley and Stacy Davies--even met with Bill Marlett--to discuss 
what you did here. And I was very impressed. It was my first 
trip here, and it is beautiful country.
    This afternoon, the Subcommittee will conduct an oversight 
hearing on: (1) the ongoing implementation of the Steens 
Mountain Cooperative Management and Protection Act, and any 
problems the Bureau of Land Management has been having in 
executing some of the more unique features of this Act; (2) any 
concerns regarding the traditional access to the private 
inholdings within the Steens Mountain Management Area; and, (3) 
the process for issuing special-use permits for historical 
recreational uses within the special area.
    At this point, I would like to add that this is not about 
additional legislation, which may be introduced or being talked 
about. This is about the implementation of the legislation that 
is currently on the books, relative to the Steens Mountain--
Steens Mountain Cooperative Management Protection Act.
    As many of you know, Congressman Walden led the Oregon 
Delegation's efforts, with Governor Kitzhaber, the Department 
of the Interior, and various user groups, to establish this 
multifaceted Steens Mountain Cooperative Management and 
Protection Act. For those of you that are members of the Steens 
Mountain's Advisory Committee, you know, firsthand, just how 
truly unique and complicated the management of the special area 
is, and how unprecedented the concept was, when it was being 
developed back in 1999 and 2000. When you are faced with 
managing an area that includes Federal, state, and private 
lands, as well as a wilderness area, a no-grazing area, and a 
cooperative management area, it takes time to make things work 
out.
    This hearing is of interest to me personally, as I'm 
currently working on resolving conflicts in the Boulder-White 
Clouds region of South Central Idaho. What I learn today will 
have a bearing on how I proceed in trying to work through 
issues that are very similar to the ones that you were facing 
when this legislation was developed. I believe that people are 
watching what is going on here, and that the future of 
wilderness legislation is going to depend a great deal on how 
the Steens Mountain Wilderness Area and Cooperative Management 
Plan is implemented. I have not seen a more collaborative piece 
of legislation than the Steens, and if it doesn't work here, 
it's hard to imagine one that will work.
    If the intent of this legislation is not carried out, or is 
co-opted by rulemaking or by agencies or individuals or 
lawsuits, it's going to be difficult to get people to the table 
in other states. In sum, promises made to those who work on 
cooperative agreements such as this, must be kept. It they are 
not, future wilderness proposals and corporative agreements 
will be in jeopardy.
    I have just one housekeeping item that I must take care of, 
before we have today's witnesses. First, I'd like to say that 
this is not a town hall meeting. And, unlike a town hall 
meeting, where we just have people come up and testify, the 
people who are testifying today have been invited to testify. 
This is an official hearing of the Subcommittee. Each of the 
witnesses will see a box on the witness table with three lights 
on it. Each witness will have 5 minutes for their oral 
testimony. Your entire written statement will be placed in the 
record. The green light will illuminate when you begin your 
testimony. The yellow will illuminate when you have 1 minute 
left. And the red light will illuminate when your 5 minutes are 
ended. I would also say that we will keep this hearing record 
open for 30 days, and that the Subcommittee may be submitting 
questions to those who testified, that we would appreciate 
responses to.
    At today's hearing, we will hear from Chuck Wassinger, the 
Oregon Associate State Director for the Bureau of Land 
Management, regarding the ongoing decisionmaking process that 
the Bureau is utilizing to further implement the Steens 
Mountain Cooperative Management Plan. In addition, we will hear 
from ranchers, some of whom are members of the Steens Mountain 
Advisory Commission, and representatives from the recreational 
and environmental community. Congressman Walden and I look 
forward to the testimony and any ideas that our witnesses may 
have on ways to reduce any conflict between managers and users 
of the Steens. I now yield my opening statement to my good 
friend from Oregon, Mr. Walden, for his opening statement.
    [The prepared statement of Mr. Simpson follows:]

  Statement of The Honorable Michael K. Simpson, a Representative in 
                    Congress from the State of Idaho

    Good afternoon. The Subcommittee on National Parks, Recreation, and 
Public Lands will come to order.
    This afternoon, the Subcommittee will conduct an oversight hearing 
on: (1) the ongoing implementation of the Steens Mountain Cooperative 
Management and Protection Act and any problems the Bureau of Land 
Management has been having in executing some of the more unique 
features of the Act; (2) any concerns regarding traditional access to 
private inholdings within the Steen Mountain Management Area, and (3) 
the process for issuing special use permits for historical recreational 
uses within this special area.
    As many of you know, Congressman Walden led the Oregon Delegation's 
efforts with Governor Kitzhaber, the Department of Interior and various 
user groups to establish the multifaceted Steens Mountain Cooperative 
Management and Protection Act. For those of you that are members of the 
Steens Mountain Advisory Committee, you know first-hand just how truly 
unique and complicated the management of this special area is, and how 
unprecedented the concept was when it was being developed back in 1999 
and 2000. When you are faced with managing an area that includes 
Federal, state and private lands as well as a wilderness area, a no-
grazing area and a cooperative management area, it takes time to make 
things work.
    This hearing is of interest to me as I am currently working on 
resolving conflicts in the Boulder-White Clouds region of South Central 
Idaho. What I learn today will have a bearing on how I proceed in 
trying to work through issues that are very similar to the ones that 
you were facing when this legislation was developed.
    I believe that people are watching what is going on here and that 
the future of wilderness legislation is going to depend a great deal on 
how the Steens Mountain Wilderness Area and Cooperative Management Plan 
is implemented. I have not seen a more collaborative piece of 
wilderness legislation than the Steens and if it doesn't work, it's 
hard to imagine one that will.
    If the intent of this legislation is not carried out or is co-opted 
by rulemaking, lawsuits or other agencies/individuals or lawsuits, it's 
going to be difficult to get people to the table in other states. In 
sum, promises made to those who work on a cooperative agreement such as 
this, must be kept. If they are not, future wilderness proposals and 
cooperative agreements will be in jeopardy.
    I have one housecleaning item for today's witnesses. You will see a 
box on the witness table with three lights on it. Each witness will 
have five minutes for their oral testimony. Your entire written 
statement will be placed in the record. The green will illuminate when 
you begin your testimony; the yellow will illuminate when you have one 
minute left and the red light will illuminate when your five minutes 
has ended.
    At today's hearing, we will hear from Chuck Wassinger, the Oregon 
Associate State Director for the Bureau of Land Management, regarding 
the ongoing decision making process that the Bureau is utilizing to 
further implement the Steens Mountain Cooperative Management Plan. In 
addition, we will hear from ranchers, some of whom are members of the 
Steens Mountain Advisory Commission, and representatives from the 
recreational and the environmental community. Congressman Walden and I 
look forward to the testimony and any ideas that our witnesses may have 
on ways to reduce any conflict between managers and users of the 
Steens.
    I now yield for an opening statement to my good friend from Oregon, 
Mr. Walden, for his opening statement.
                                 ______
                                 

  STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. I want to thank you, 
Mike, for making the trip out here today. I want to apologize 
to the audience, too, for our delay in getting started. The 
plane that was sent to get us, from Bend, had a mechanical on 
the way to Portland to pick all of us up, and returned to its 
original landing strip. I prefer, when planes have mechanicals, 
that they have them without us on board, which was the case 
today. But it became very difficult to find a replacement 
plane, to be able to fly down. Eventually, we were able to 
charter one out of Wenatchee, to come and get us. So, my 
apologies for the start.
    But I want to thank Congressman Simpson, who represents the 
Second District of Idaho, and is a member of the Subcommittee, 
for chairing this hearing and for attending. I also want to 
recognize that we will be inserting, in the record, a statement 
from my colleague Congressman DeFazio, as well as a statement 
from Senator Smith. Both Senator Smith and Senator Wyden, I 
believe, have staff here, in attendance today. And we want to 
welcome David Blair. We want to welcome Martin Doern and Rich 
Krikiva. I also want to thank the gentlemen seated behind me--
both Paul Griffin, on my staff, and Lindsay Slater, who is 
familiar to many of you, who is now Chief of Staff to Mike 
Simpson. Lindsay spent the better part of the year as 
Legislative Director on my staff, negotiating the Steens 
Mountain legislation. That wore him out, and he had to move to 
Idaho.
    [Laughter.]
    It was about 3 years ago, in the front yard of this school, 
that we gathered to talk about whether or not we should proceed 
with a legislative alternative to a proposal being put forth by 
the Clinton Administration--and, specifically, Secretary 
Babbitt--to declare the Steens Mountain a national monument. 
And I remember, very vividly, a barbecue we had out here, and 
had that discussion. And, at that time, made the decision, 
together, that we could proceed with legislation and do our 
part to try and help craft something that would be better than 
a national monument. And I think we succeeded in crafting that 
legislation. The real challenge that's ahead of us is to make 
sure that what we thought we agreed to, and the intent of that 
legislation, gets implemented here on the ground, both by the 
Steens Mountain Advisory Committee Council, as well as by the 
agencies involved, and that the commitments that were made by 
various groups along the way, as that was hammered out, are 
followed.
    I am troubled, frankly, and concerned by some of the access 
issues that are being raised, especially as it relates to 
private land holders and the rights of private land holders to 
be able to access their property without having to go through 
some sort of formal NEPA process and EA process. Certainly, 
that was never the thought I had in mind, nor do I think it was 
the intent of the legislation.
    There are lots of other questions involving the 
recreational uses on the mountains. There were just too many 
times that we had meetings and discussions where we said, ``The 
thrust of this legislation is different than the thrust of 
other wilderness legislation.'' Throughout the entire debate on 
this bill, we talked about doing it differently here--creating 
a cooperative management strategy here, that fully recognized 
the historical uses on this mountain. Economic, social, 
environmental--all of them. Ranching and recreational. And that 
we had an opportunity to write a law that was different than 
laws that had been written before. And I'm fully, fully aware 
that that was the discussion that we had, and that that was the 
intent of the law that we wrote. And so, as we begin to work 
through these issues, I want to commend the dedicated members 
of the SMAC for tackling a lot of these issues. But it appears 
to me that there are some very serious concerns that are out 
there about access, and I hope we can get to the bottom of 
those today. There are issues about where we may go from here, 
in terms of making sure this Act gets implemented with the 
intent that those of us who wrote it had.
    So, I want to thank our witnesses for making the trip out 
to this special part of Oregon, and those of you who are local 
here, I appreciate your willingness to join us today. I also 
want to thank those individuals who made this hearing a 
possibility today. Obviously, the people involved in Frenchglen 
School--Thank you for opening the gymnasium to us. Earlyna 
Hammond, Rob Howarth, from our Resources Committee. Both the 
communities of Diamond and Frenchglen for putting together a 
barbecue that will occur afterwards. And I would also like to 
thank the various staff members from our delegation that I 
already mentioned, who are with us today. I'd also like to 
notice Commissioner Dan Nichols, and Judge Steve Grasty, and 
Commissioner Jack Drinkwater, and all the elected officials--
state and local--for their efforts in working with the Federal 
agencies to ensure that this landmark legislation is enacted as 
smoothly as possible. Finally, I'd like to wish Hoyt Wilson a 
speedy recovery from his most recent surgery. He was originally 
scheduled to testify today, but his shoes will be ably filled 
by Fred Otley.
    So, with that, Mr. Chairman, I appreciate, again, your 
willingness to hold this hearing, and willingness of our 
overall Chairman, Congressman Hansen, to allow us to come out 
and have an official Resources Committee hearing here. By the 
way, I believe we are setting history today, and I think we can 
safely say it's the first time the House Resources Committee 
has held a hearing in Frenchglen.
    So, we're delighted you're with us. We're delighted to be 
here. This is where it happens.
    Mr. Simpson. Thank you, Congressman Walden. I am pleased to 
be here in Frenchglen. If any of you wonder why I'm smiling 
when I say ``Frenchglen,'' it's because we have--Some of the 
staff just lost a bet. I kept thinking--My wife's basketball 
hero, Larry Bird, is from a place called ``French Lick, 
Indiana,'' and I kept saying ``French Lick,'' and they kept 
saying, ``No, it's Frenchglen.'' And so, they made a bet 
whether I would say ``French Lick'' or ``Frenchglen.'' So, I 
got it right, but if I screw up during the hearing, at any 
given time, please forgive me now.
    [Laughter.]
    So, I appreciate it.
    [The prepared statement of Mr. Smith follows:]

  Statement of The Honorable Gordon H. Smith, a United States Senator 
                        from the State of Oregon

    Thank you, Mr. Chairman, for holding today's important field 
hearing on the implementation of the Steens Mountain Cooperative 
Management and Protection Act of 2000.
    In the 106th Congress, faced with a potential national monument 
designation for the Steens Mountain area, you and I worked with our 
colleagues in the Oregon delegation and interested stakeholders to 
create the Steens Mountain Cooperative Management and Protection Act of 
2000. Our goal in this process was to ensure historic ranching and 
recreational uses of the area continued, even as we enhanced 
protections for the unique natural treasure that is Steens Mountain. It 
took us over one year to negotiate out the provisions of the bill 
between Members of Congress, the Secretary of the Interior, the 
Governor of Oregon, the local ranching community, local outfitters, and 
environmental organizations.
    It was clear at the time that we were trying to establish a new, 
innovative approach to cooperative management of the area between the 
Federal Government and the local landowners. We believed that 
Oregonians, as leaders in environmental stewardship, could craft a new, 
locally supported approach that did not attempt to impose on this 
management area an existing land management classification. We also 
created a Steens Mountain Advisory Council, composed of a diverse group 
of stakeholders who are to provide ongoing input concerning the 
management of the area to the Bureau of Land Management.
    I am concerned, however, about ensuring continued access for 
ranchers to grazing allotments and non-federal lands on the mountain, 
as well as efforts to disrupt the operations of the Steens Mountain 
Running Camp. The running camp is an excellent facility that has 
trained thousands of runners and has operated on the mountain for the 
past quarter century. It was clearly congressional intent that historic 
uses of the mountain be allowed to continue under this Act. In fact, 
one of the objectives of the Area, as identified in the statute, is 
``to promote grazing, recreation, historic and other uses that are 
sustainable.'' In addition, the House report language states that the 
Act ``is intended to enhance statutory protections for the area while 
maintaining the viability of historic ranching and recreational 
operations in the Steens Mountain area.''
    I am committed to ensuring that the long-term management plan for 
the area fulfills congressional intent, as well as the commitments made 
to the residents of Harney County. I want to thank those stakeholders 
who are working in good faith to achieve this same result.
    Mr. Chairman, I commend you for your steadfast leadership to find a 
balanced approach to difficult land management issues. I look forward 
to reviewing the testimony from today's field hearing in Frenchglen and 
continuing to work with you to find consensus-based solutions to public 
lands management issues in the region.
                                 ______
                                 
    [The prepared statement of Mr. DeFazio follows:]

Statement of The Honorable Peter DeFazio, a Representative in Congress 
                        from the State of Oregon

    I would like thank Congressman Walden for asking for this oversight 
hearing, and his continued interest in resolving management issues on 
the Steens to ensure the best protection possible for this unique and 
majestic ecosystem.
    Through a joint effort involving former Secretary of Interior, 
Bruce Babbitt, local residents and interest groups, environmentalists, 
and Oregon's congressional delegation, we were able to craft unique 
legislation that hopefully can be used as a model for managing our 
public lands treasures. The final compromise bill was well received. It 
was supported by the Clinton Administration, Governor Kitzhaber, and 
the entire Oregon congressional delegation. The legislation was 
approved by voice vote, without objection, when it came before the full 
House of Representatives.
    Since the passage of this historic legislation, controversy over 
the management plan has developed and continued to fester. As you all 
know, the controversy primarily involves issues of access to private 
property, and appropriate recreational uses of the wilderness.
    Most prominent among these issues is the use of the wilderness by 
young athletes attending the Steens Mountain Running Camp. The Bureau 
of Land Management (BLM) has done the required Environmental Analysis 
(EA) of the ecological impact the camp would have on the wilderness. 
The EA concluded that the impact of the camp would be negligible. It's 
my opinion that there should be no question as to whether the camp 
participants should be allowed to hike and run in the Steens 
wilderness. I don't believe the camp's activities violate the spirit or 
intent of the wilderness portion of the legislation, or of the 1964 
Wilderness Act.
    That said, I strongly encourage all parties to come to the table 
and work together to develop a reasonable option for the camp in an 
effort to avoid divisive legal action. The legislation that created the 
Steens wilderness was only possible through cooperation and non-
partisan compromise. It is in this spirit that I hope the camp's 
management and environmentalists can come together to resolve their 
differences, and find a workable solution that allows the camp to use 
the wilderness in a responsible manner.
    It's been over a year and a half since the Steens bill was approved 
by Congress. Many recreation and access issues remain controversial and 
unresolved because the BLM has yet to release a comprehensive 
management plan for the area, as required by the Steens legislation. A 
BLM management plan would provide the framework to resolve 
controversial issues. I am pleased that the scoping process is now 
complete, but I encourage the BLM to move forward as quickly as 
possible to develop and release a management plan for the Steens.
    Again, I'd like to thank Mr. Walden for holding this field hearing, 
and commend him for his interest in resolving difficult issues on the 
Steens.
                                 ______
                                 
    Mr. Simpson. Our first panel is Mr. Chuck Wassinger, the 
Associate State Director for the Bureau of Land Management, for 
Portland, Oregon. Chuck, welcome to today's hearing. We look 
forward to hearing your testimony.

STATEMENT OF CHUCK WASSINGER, ASSOCIATE STATE DIRECTOR, BUREAU 
              OF LAND MANAGEMENT, PORTLAND, OREGON

    Mr. Wassinger. Thank you, Mr. Chairman. Before I get 
started, I would like to request that our district manager, Tom 
Dyer, and our field manager, Miles Brown, join me at the table, 
if possible. They may be able to respond to some of specific 
questions.
    Mr. Simpson. Certainly, we would like to have those two 
join you at the table. And, before you begin your testimony, 
I'll ask unanimous consent that Congressman DeFazio and Senator 
Smith's statements appear in the opening record. And I am, 
also--since this is his district and so forth, I'm going to 
turn the Chair of this hearing over to Congressman Walden.
    Mr. Wassinger. Thank you for the opportunity to testify, 
regarding the Bureau of Land Management's experience in 
implementing the Steens Mountain Cooperative Management and 
Protection Act of 2000. We appreciate the continuing interest 
you and the entire Oregon Congressional Delegation have shown 
in the implementation of the Steens Act. Many in this room have 
lived here for decades and generations, and it is your wise 
stewardship and examples that we look to in our management of 
public lands within the Steens.
    Secretary Norton talks about the ``4Cs''--consultation, 
cooperation, and communication, all in the service of 
conservation. The Steens Act is an excellent example of her 
guiding principles put into action. The wide array of natural 
characteristics, communities and desires, and competing 
interests, provides for many complex challenges and rewarding 
opportunities.
    The 12-member Steens Mountain Advisory Council was 
appointed by the Secretary of the Interior on August 14, 2001, 
pursuant to the Steens Act. Steens Mountain Advisory Council 
has met four times since the first meeting in October of last 
year. Four additional meetings are scheduled for the remainder 
of 2002. Issues--including recreation, access, education, 
grazing, wilderness, and firefighting in the Steens--have all 
been addressed with the Council this year.
    The Steens Act requires that we develop a comprehensive 
management plan within 4 years of the passage of the Act, to 
set long-term management direction for the area. We're working 
in close collaboration with the Steens Mountain Advisory 
Council, Southeast Oregon Resource Advisory Council, other 
Federal and state agencies, local governments, tribes, and with 
the public, to identify future management direction for the 
entire planning area. A draft management plan and environmental 
impact statement are expected to be available for a 90-day 
public review period, in the spring of 2003. The proposed plan 
and final EIS are, then, anticipated by the winter of 2003-
2004.
    Title VI of the Exchange Act mandates five land acquisition 
exchanges. Those exchanges have been a major focus of BLM's 
efforts over the last year, and the final exchange was 
completed in early April. In addition, two Land and Water 
Conservation Fund purchases, involving inholdings within the 
wilderness, have been completed since the passage of the Act. 
$25 million for additional land acquisitions and conservation 
easements is authorized through the Land and Water Conservation 
Fund by the Steens Act. As we receive appropriations for such 
acquisitions, we will work cooperatively with the Steens 
Mountain Advisory Council and local landowners to maximize the 
use of such monies.
    Access to wilderness inholdings and private inholdings is 
governed by Section 112(e) of the Steens Act and by the 
Wilderness Act of 1964. Both require reasonable and adequate 
access, while minimizing impacts on designated wilderness. We 
are committed to addressing this issue. The Steens Act requires 
that grazing within the wilderness shall be administered in 
accordance with the Wilderness Act and the guidelines 
established by Congress in 1990. The BLM intends to fully 
comply with this direction and is preparing environmental 
analyses to analyze the potential use of motorized vehicles and 
equipment, and practical alternatives that may exist for this 
purpose.
    For as long as people have settled in southeastern Oregon, 
they have used the Steens Mountain area for recreational 
purposes. Those uses are both individual and commercial. For 
many of the commercial activities, the BLM is required to issue 
special recreation permits. The BLM Burns District staff is 
preparing environmental analyses to analyze the impacts of 
current permitted recreational activities on public land within 
the Steens Mountain area, and, in particular, the Steens 
Mountain wilderness area. The EA's will identify impacts to 
resources and uses, while providing for streamlined 
administrative processes, for permitting to be more responsive 
to our commercial recreation-service partners. We are deeply 
aware of the importance of recreational issues to the local 
public. We will continue to work closely with the Steens 
Mountain Advisory Council and all users, whether recreational 
or commercial, to find ways to best address their needs in the 
context of the Steens Act and other applicable laws and 
regulations.
    In conclusion, as we continue to move forward on planning 
and implementation of the Steens Act, I want to give you my 
assurance that we will continue to involve all interested 
parties who live in, recreate on, derive their livelihood from, 
and love Steens Mountain. We have learned much from those who 
call Steens ``home,'' and we will continue to look for them for 
advice and guidance. That completes my initial comments.
    [The prepared statement of Mr. Wassinger follows:]

 Statement of Chuck Wassinger, Oregon Associate State Director, Bureau 
                           of Land Management

    Thank you for the opportunity to testify regarding the Bureau of 
Land Management's (BLM) experience in implementing the Steens Mountain 
Cooperative Management and Protection Act of 2000, Public Law 106-399. 
We appreciate the continuing interest you and the entire Oregon 
Congressional delegation have shown in the implementation of the Steens 
Act.
    Steens Mountain offers exceptional natural and geologic diversity. 
The mountain provides visitors and residents with spectacular views of 
deep, glacial gorges, stunning colorful alpine wildflower meadows, high 
desert plant communities and the opportunity to see pronghorn antelope, 
elk, mule deer, wild horses, bighorn sheep, and raptors. The 52-mile 
Steens Mountain Backcountry Byway offers access to four campgrounds on 
the mountain and affords remarkable views of Kiger Gorge, the east rim, 
and wild horse overlooks.
    None of this is news to the many people here today who love the 
Steens. Many of you have lived here for decades and generations and it 
is your wise stewardship and example that we look to in our management 
of the public lands within the Steens.
    Secretary Norton talks about the ``4Cs''--consultation, 
cooperation, and communication all in the service of conservation. The 
Steens Act is a stunning example of her guiding principles put
    into action. Passage of the Act was a culmination of a cooperative 
effort at the local level. This was not a top-down Washington-driven 
proposal. Rather, it was the result of the hard work of the Oregon 
Congressional Delegation, Governor Kitzhaber, local land owners, users 
of the land, and local conservation organizations, to provide for long-
term protection of the cultural, economic, ecological, and social 
health of this area.
    The wide array of natural characteristics, community needs and 
desires, and competing interests, provides for many complex challenges 
and rewarding opportunities. I'd like to address some of the steps we 
have taken toward implementation, as well as some of the challenges 
that lie ahead of us.
Steens Mountain Advisory Council
    The 12-member Steens Mountain Advisory Council was appointed by the 
Secretary of the Interior on August 14, 2001--pursuant to the Steens 
Act. Under the provisions of Subtitle D of the Steens Act, the Advisory 
Council is charged with advising the Secretary in the management of the 
Steens Area and in promoting cooperative management. In addition, the 
Secretary is charged with consulting with the advisory committee on the 
preparation and implementation of the management plan for the area. The 
Steens Mountain Advisory Council has met four times since their first 
meeting in October of last year. Four additional meetings are scheduled 
for the remainder of 2002. Issues including recreation, access, 
education, grazing, wilderness, and firefighting in the Steens have 
been addressed by the Council this year.
Steens Mountain Planning Efforts
    The Steens Act requires that we develop a comprehensive management 
plan within four years of the passage of the Act to set long-term 
management direction for the area. In accordance with that planning 
process, in late February and early March of this year, the BLM held a 
series of meetings to enlist citizen help in identifying planning 
issues. The planning area consists of approximately 1.7 million acres 
of Federal land including the Steens Mountain Cooperative Management 
and Protection Area. We are working in close collaboration with the 
Steens Mountain Advisory Council, the Southeast Oregon Resource 
Advisory Council, other Federal and State agencies, local governments, 
Tribes, and with the public, to identify future management direction 
for the entire planning area.
    The information that we have gathered at the four scoping meetings, 
and through written comments, has been used to pinpoint issues and 
develop planning criteria and alternatives for the management of the 
area. The public comment period ended on April 15. After the comment 
period ended, we assessed comments, finalized planning criteria and 
worked on fine tuning draft alternatives. A document entitled ``Summary 
of the Analysis of the Management Situation'' was published this 
earlier spring to allow further public review of management 
opportunities. A draft management plan and Environmental Impact 
Statement (EIS) are expected to be available for a 90-day public review 
period in the Spring of 2003. The proposed plan and final EIS are then 
anticipated by Winter 2003/2004.
Exchanges and Acquisitions
    Title VI of the Steens Act mandates five land acquisition/
exchanges. The Act authorized, and Congress subsequently appropriated, 
over $5 million to complete these acquisitions. Those exchanges have 
been a major focus of BLM's efforts over the last year and the final 
exchange was completed in early April. In addition, two Land and Water 
Conservation Fund purchases, involving inholdings within the 
wilderness, have been completed since passage of the Act.
    Twenty-five million dollars for additional land acquisitions and 
conservation easements is authorized through the Land and Water 
Conservation Fund by the Steens Act. As we receive appropriations for 
such acquisitions we will work cooperatively with the Steens Mountain 
Advisory Council, and local landowners to maximize the use of such 
monies. We recognize that acquisitions and conservation easements are 
an important part of successfully implementing the Steens Act, and to 
that end we will continue to work with you, Governor Kitzhaber, the 
entire Congressional delegation, and all interested stakeholders and 
publics.
Access
    Access to wilderness inholdings and private inholdings is governed 
by Section 112(e) of the Steens Act and by the Wilderness Act of 1964. 
Both require reasonable and adequate access while minimizing impacts on 
designated wilderness. We are committed to addressing this issue. Both 
the Steens Act and the Wilderness Act provide some flexibility for 
allowing access to private inholdings. Both recognize the importance of 
providing the access and protecting wilderness values. We are presently 
investigating access options, and through an open dialogue with the 
public will provide for an analysis, disclosure of impacts, and 
discussion of the various options. Two access options currently under 
consideration are either a cooperative management agreement, or the 
more traditional permitting process.
    The BLM intends to provide reasonable access to inholders in a 
manner that protects wilderness characteristics. The BLM Burns District 
is presently preparing the required Environmental Assessment (EA) to 
address inholding access needs in the Steens Wilderness in conformance 
with the Steens Act, the Wilderness Act, and BLM's Wilderness 
Management Regulations.
Livestock Grazing Permittees
    The Steens Act requires that grazing within wilderness shall be 
administered in accordance with the Wilderness Act and the guidelines 
established by Congress in 1990. Those guidelines provide direction and 
examples of appropriate use of motorized vehicles and motorized 
equipment where practical alternatives do not exist. They also require 
that any occasional use of motorized equipment be authorized within the 
grazing permits for the area involved. The BLM intends to fully comply 
with this direction, and is preparing an EA to analyze the potential 
use of motorized vehicles and equipment, and practical alternatives 
that may exist for this purpose.
Recreational Use
    For as long as people have settled in southeast Oregon, they have 
used the Steens Mountain area for recreational purposes. Those uses are 
both individual and commercial. For many of the commercial activities 
the BLM is required to issue special recreation permits. The BLM Burns 
District staff are preparing EAs to analyze the impacts of current 
permitted recreational activities on public land within the Steens 
Mountain Area and, in particular, the Steens Mountain Wilderness Area. 
These EAs will identify impacts to resources and uses, while providing 
for streamlined administrative processes for permitting to be more 
responsive to our commercial recreation service partners. The National 
Environmental Policy Act process will analyze all options, current 
policy and the comments from the public and partners. BLM will work 
with the Steens Mountain Advisory Council before a final decision is 
made.
    The BLM Burns District is also working with off-highway vehicle 
users to help them better understand their responsibilities under the 
Steens Act. Section 112 (b)(1) of the Act clearly prohibits the off-
road use of motorized or mechanized vehicles on Federal lands, limiting 
their use to designated roads and trails as determined in the 
forthcoming management plan.
    We are deeply aware of the importance of recreation issues to our 
local publics. We will continue to work closely with the Steens 
Mountain Advisory Council and all users, whether recreational or 
commercial, to find ways to best address their needs in the context of 
the Steens Act and other applicable laws and regulations.
Conclusion
    As we continue to move forward on planning and implementation of 
the Steens Act, I give you my personal assurance that we will continue 
to involve all the interested parties who live in, recreate on, derive 
their livelihood from and love Steens Mountain. We have learned much 
from those who call the Steens home and we will continue to look to 
them for advice and guidance.
                                 ______
                                 
    Mr. Walden. Thank you very much, Mr. Wassinger. We 
appreciate your being here today. I know I have several 
questions I would like to propose to you, and certainly the 
gentlemen on either side can certainly assist in answering 
these. And then, Congressman Simpson probably has some, as 
well.
    I guess the first problem--the one that draws us here 
today--is, after reading a number of the witness's testimony, 
there seems to be a singular message that comes out, and that 
relates specifically to historical access that was assured to 
those involved in the development of the legislation. And 
there's a sense that that is now been seriously threatened or 
impeded, or, perhaps, will be.
    For example, Stacy Davies, manager of the Oregon Springs 
Ranch, states in his testimony, ``Historic and reasonable 
access is guaranteed in Section 4, under the Steens Act, as 
well as under the Wilderness Act.'' Yet, the Bureau has 
verbally put many landowners on notice they will be required to 
obtain a permit or lease to continue to access their property. 
In addition, during the 2000 negotiations on the Steens 
Legislation, the environmental community favored wilderness 
management, because congressional guidelines in wilderness 
areas allowed pre-existing grazing to continue. Those of us in 
the Oregon Delegation, and other members, were all under the 
impression that historical access would be guaranteed, and we 
thought we spelled it out pretty clearly. Were we wrong?
    Mr. Wassinger. The short and, probably, most concise answer 
is that historic uses were protected and provided for in the 
Act. So, if those uses exist, it's not a question. That 
question has been answered. The question that has been posed to 
us is: How that access or those rights are exercised. And the 
reason that we are preparing environmental analyses is to 
determine how those rights are exercised, and if there are any 
modifications. And we haven't gotten to the point of 
determining what, or if, any modifications might occur. If 
those modifications exist, those modifications would only be 
necessary in order to protect, or more appropriately protect, 
the wilderness values.
    Mr. Walden. What about protecting historical access? Isn't 
that of an equal value in the law?
    Mr. Wassinger. Yes. Our interpretation of the guidelines, 
however, requires a review and assessment of those--of that 
access use, since we're specifically talking about access--and 
the determination of continuing, under reasonable conditions, 
that use.
    Mr. Walden. What leads you to have to do a NEPA on this? Is 
this coming from your solicitor? From the direction of your 
solicitor?
    Mr. Wassinger. We are getting legal advice that there is 
discretion created by the creation of the wilderness area--a 
change in direction and mandate, essentially. And that new 
information must be assessed in an environmental analysis. 
There's a more practical level, though, Congressman. We've had 
a tremendous amount of experience here in Oregon with 
implementing actions where there is a possibility of a changed 
condition, without conducting a NEPA analysis, and, very 
frankly, our track record has not been very good. We're 
challenged in court. We have not been sustained. And so it puts 
at risk, I believe--potentially puts at risk those historic 
uses.
    Mr. Walden. So, your solicitor has issued some directives?
    Mr. Wassinger. This is advice. They've advised us that NEPA 
does apply in this situation.
    Mr. Walden. Is it possible to get a copy of that advice?
    Mr. Wassinger. Yes. We would be happy to submit it.
    Mr. Walden. If you could submit it, that would be good. How 
does BLM reconcile its actions, in light of 112(c), which 
requires a secretary to consult with the Advisory Council and 
the public, when it comes to these access issues. I think, 
specifically, later, there are people testifying that there 
have been roads and trails that have been, sort of, 
unilaterally closed. And yet, the Act speaks to not doing that 
without first consulting with the public. Have there been any 
roads or trails that have been closed?
    Mr. Wassinger. Do you want to speak to that?
    Mr. Dyer. Sure. My name's Tom Dyer, District Manager, BLM, 
Burns, Oregon. The only roads and trails that were closed, were 
closed in the wilderness itself. Wilderness, by its nature, 
doesn't have roads and trails. As part of the law, there was 
some identified non-wilderness routes established in that 
document. The rest of the area was automatically closed off, as 
far as the roads. And it refers to, I believe in the maps--and 
I'll refer to September 18, 2000, as being the maps--And I 
believe we even have a copy of the map showing that, as 
referenced in there. Those were the only roads that were 
closed.
    Mr. Walden. So, you're telling me the only roads or trails 
that were closed were within the new wilderness boundaries? 
None anywhere else?
    Mr. Dyer. Correct.
    Mr. Walden. That's your statement. OK. I guess the question 
I have is: I thought you do a NEPA or an EA when there's a 
changed condition. If you have a historical use, that will 
continue, how is that a changed condition?
    Mr. Wassinger. The changed condition was the establishment 
of the wilderness itself. There were more issues related to 
that, but, that's basically the simple answer to your question.
    Mr. Walden. How do we ever write a law that--This 
frustrates me, because I understand you're trying to follow 
your set of rules and laws, but when we talked about reasonable 
access, continued preservation of historical use, historical 
access, proper property rights--and we'll get into the running 
camp later on in this, because the e-mails I've got in my files 
from the Steens-Alvord Coalition--I mean, they actually say, 
``Oh, no, that's not an issue.'' I'm going to get into that in 
a minute. It's, like, this frustration, when we think we're 
writing something that says, ``Preserve this historical access 
to private property.'' Then we see a NEPA come up, and then, 
you know, this concerns me again. Maybe you can address this. 
OK, you do a NEPA--You do a full public process about whether 
or not I can continue to access my property--and then that's 
subject to some sort of litigation and appeal, and then, maybe, 
a permit, and then, maybe, a fee for a permit.
    Mr. Wassinger. Congressman, again--
    Mr. Walden. What do we have to say in the statute?
    Mr. Wassinger. Well, I'm not an expert on legislation, so I 
can't speak to that directly, Congressman. But the question, we 
think, is clear--and we're getting advice that is clear--that 
access was provided for in this legislation. Again, the 
question is not ``If.'' The question is ``How?'' And that's 
where the discretion and the requirement for public disclosure 
and new decisionmaking may come forward.
    Mr. Walden. Let me ask you this, then: I'm a private 
landowner--and I'm not, but for the sake of this discussion--
I'm a private landowner up on the mountain. You send me the 
form, which I've seen, that says, ``How many times did you 
access your property in the last year, and how many do you 
anticipate...'' I don't remember all the columns. But, let's 
say I tell you I accessed it 100 times last year, and I may 
access it 150 times next year. Do you have the authority, then, 
to tell me, ``That's too many times,'' if that's my historical 
amount of access?
    Mr. Wassinger. Do you want to take a shot at this?
    Mr. Walden. We need to pull that tape, on the mikes. OK. 
Now we've got flexibility on the mikes. Maybe we can get 
flexibility on access.
    [Laughter.]
    Mr. Dyer. Congressman, I need flexibility.
    Mr. Walden. But what about that? You see what I'm getting 
at? My concern is that, if I'm telling you that I did 100 trips 
last year--In the back of my mind, I've got this little bird of 
distrust going off, saying, ``If I tell you 100, you're going 
to come back and tell me, `You don't need 100; you only need 
75.''' And that's this year. And, the next thing I know, it'll 
be 50, and the noose just tightens. And that's what we're 
trying to avoid here, by putting in the statute ``historic.''.
    Mr. Dyer. And that's what we're trying to fine-tune: What 
is historic, and what is reasonable? I'm with you. We're with 
you all the way on this. We're trying to come up with what that 
is. And, like you say, that's part of a lot of the discussions 
on the front end of it. And we still have a lot of that 
discretion that's associated with that. What is reasonable? You 
know, what do you need to access? How does that impact the 
wilderness values this time? The thing that we would love to be 
able to do is say, ``Hey, you got it. We don't even have to 
address it any other way.'' But the direction that we have is, 
we've got to run it through a NEPA-type open process, so the 
public can see, as well as provide that--
    Mr. Walden. But I guess my question, then, is: If the 
public sees the historical use, is that good enough? If I say 
100 trips is what I've historically done, do you come back and 
say, ``Sorry, the public thinks you only need 50 trips onto 
your property, and you only need it from this one point, not 
the three you've always used''? Is that--Do we come in conflict 
with the statute?
    Mr. Dyer. We could, based on the information that we've 
seen. The biggest question that we'd probably be walking up 
against is trying to sit down at the table and say, ``OK, this 
concern has come in from this group; this has, from this 
other.'' Maybe there's a way to meet all of your needs, as well 
as to meet those needs of the wilderness values and so forth. I 
don't have the answer. The direction to get everything out and 
open, that we've been given, is: Work through the NEPA process. 
I guess, this is, kind of, the direction that we've been given 
on that.
    Mr. Walden. And that's from your solicitor?
    Mr. Dyer. I think, in a lot of cases, you're using case 
law. You know, I think Chuck was right on. We've been in this 
game of NEPA, and coming up with the decisions. And where we 
really run into problems is when it really looks like it's an 
arbitrary decision, without a lot of the background, a lot of 
the history, with the information that's brought forward. So, 
these are the things, that we're ending up trying to bring in.
    Mr. Walden. So, even though we spell it out in a statute 
that we will protect historic access--historic values on this 
mountain--You're telling me all that can go sideways, through a 
NEPA process, if enough people in the public say, ``That's too 
many trips into your ranch''?
    Mr. Dyer. I don't think that. I think that, maybe, the 
thing of the NEPA document is to find out what that is, and 
then see if there is opportunity. Should there be at least a 
concern associated with wilderness values and impacting? For 
example, maybe you go in here five times a year. Maybe the five 
times a year, you could base around when it's not so muddy, you 
know, something like that. Or, that kind of stuff. Try to focus 
in on that. Like I said, I'm--We're trying to--
    Mr. Walden. I understand. I mean, you don't want to damage 
the rangeland or destroy the roads, for that matter. But, 
common sense, probably, over the years has prevailed in those 
decision by those who access their property, because, if you 
run the ruts too deep, it's hard to get in the next time.
    Mr. Dyer. And that's one of the reason we've got to work 
closely together.
    Mr. Walden. Chuck?
    Mr. Wassinger. Congressman, let me approach your question 
from a little bit different direction. One of the things that 
we're very concerned about, and one of the things I alluded to 
in my mention of our litigation record on NEPA, is--The real 
issue here is: Public disclosure. Have we disclosed to the 
public the activities that are going to occur? The legislation 
provides a tremendous amount of direction on--Activities should 
continue, but is somewhat--We're somewhat frustrated as well--
cloudy on how those should continue. Yes, there's a lot of 
different perceptions, I assume, in this room. If we asked 
everyone, we would find a different impression of what those 
words mean. The real issue is: Have you complied with the 
procedures? Had you complied with the procedures, then you are 
less subject to legal challenge and being turned over in your 
decision.
    Mr. Walden. As you work on sorting out the cloudiness 
part--We understand that, too, because you can't be totally 
prescriptive in the legislation. Plus, you wanted--We wanted 
the local input through the SMAC. We realized that this would 
be the toughest part of this legislation. But, I guess the 
question I have is: Do you consult the legislative record from 
our Committee hearings and the debate on the floor, as you try 
to find your way through the clouds?
    Mr. Wassinger. We're looking for any direction, any 
guidance, any information, that can help us make a better 
decision.
    Mr. Walden. So, you are looking at what those of us who 
voted on this said, when we voted on it?
    Mr. Wassinger. Absolutely.
    Mr. Walden. And in the hearings, as the intent behind the 
Act?
    Mr. Wassinger. The one thing I will speak to just in 
general, Congressman, is that we can clearly understand the 
intent, as we read the record--as we read the testimony. But, 
trying to match that up, with the specific legal direction we 
had, is where we have great difficulty from time to time. In 
other words, the law will clearly say, ``This is your 
discretion, period.'' And trying to match those up, sometimes, 
is difficult. So, that's the only qualifier I would make to 
your statement.
    Mr. Walden. All right. I may have some other questions for 
the panel. Mr. Chairman, do you want to take some now?
    Mr. Simpson. I just want to ask a couple questions. One 
is--as I sit and listen to the testimony--As I read your 
testimony on the Livestock Grazing Permittees section, it says, 
``The Steens Act requires that grazing within wilderness shall 
be administered in accordance with the Wilderness Act and the 
guidelines established by Congress in 1990. Those guidelines 
provide direction and examples of appropriate use of motorized 
vehicles and motorized equipment, where practical alternatives 
do not exist. They also require any occasional use of motorized 
equipment be authorized within the grazing permits for the area 
involved.'' Could you give me an example of where it's 
currently used, and a practical alternative may exist, and what 
a practical alternative may be?
    Mr. Brown. Yes. My name is Miles Brown. I'm the field 
manager for the Andrews Resource Area, Burns District of the 
Bureau of Land Management. We've been wrestling with this one, 
too. Appendix A talks about practical alternatives, and it 
talks about rule-of-thumb, that historical uses would continue, 
in regards to motorized access. It also talks about what 
authorization for those uses would be placed in the grazing 
permits. And placing that in the permit is an action--is a 
decision--that could be appealed or could be litigated. And so, 
what we're trying to do right now is: (1) collect baseline 
information, so we know what was the historical use of 
motorized equipment in what is now wilderness--what uses that 
the grazing permittees think they are going to need to 
continue. And we haven't totally reached the discussion of 
practical alternatives. A practical alternative could be--I'm 
just making this up--perhaps, one is making 15 trips in to haul 
salt blocks to a single area. Maybe one could try to limit that 
to, maybe, five trips in. Take more salt blocks, cache them, 
and then spread them out from there. You know, so what we're 
looking at is: How can we balance--On the one hand, we're 
charged with protecting wilderness values and managing 
according to the Wilderness Act. But, on the other hand, we 
have historical uses, and we have the use of motorized, 
mechanized equipment. And so, what we're trying very carefully 
to do is balance those--determine what is the balance.
    And, from a practical standpoint on the ground, we've got 
three grazing permittees that are in wilderness. And we've had 
excellent relationships with those three grazing permittees. 
We've been through tough, tough issues with those grazing 
permittees. We have biological opinions on threatened fishing, 
in one case. We have a model conservation agreement to protect 
redband trout in another area. And we've worked through maybe 
even tougher issues than these. And one of the ways we worked 
through those was going through the NEPA process, because by 
going through that process, we're being open to the public 
about what we're doing. Because, what we find out is--I get 
lots of e-mails, just as you get e-mail about all these 
concerns. I get stacks of e-mails, concerned about the running 
camp, or this question about motorized, mechanized access. 
``Why are you allowing it now? You shouldn't allow any of it.'' 
And so, we have a lot of different viewpoints, I think that 
much of this is not based on fact. And what we can do, by going 
through the NEPA process, is: Collect the baseline information; 
work with the grazing permittees; get the facts out there; and 
then, be open about what our analysis and what my rationale is 
behind the decision. And, if I've got a good rationale, with 
good baseline facts, and I've been open with the public, then 
we'll succeed. What I don't want to do is lose. By just making 
an arbitrary decision, say, working with Roaring Springs and 
saying, ``Fine, Stacy, you just go right ahead and keep doing 
what you're doing,'' I can guarantee you there will be an 
injunction, and we'll be in district court, and we will lose. 
And, Roaring Springs will lose. We don't want to be in that 
position.
    Mr. Simpson. Let me ask--A lot of the--You mentioned a 
number of e-mails you get and that kind of stuff. Do you think 
a lot of these are from people who were not involved in the 
original decision, when this Act was negotiated, essentially? 
And expect something different than what is currently there--
than what this Act provides for?
    Mr. Brown. I get it both ways. But, yes, I think when the 
legislation was created, the Steens became national. The issue 
became national.
    Mr. Simpson. Because it is a unique piece of legislation 
that was put together, and I wonder how much--You know, Idaho 
has, probably, the largest wilderness area in the lower 48, and 
I'm wondering how many people expect, when they come, that it 
is a traditional type of wilderness, if that's a proper term. 
This is a different type of management plan, with all sorts of 
things intertwined.
    Mr. Dyer. Mr. Congressman, there is certainly--I get lots 
of e-mail regarding that--that it should be strictly according 
to the Wilderness Act, which it should. But the Wilderness Act 
also provides that the wilderness area be managed for the 
protection of wilderness values, and for other such purposes 
for which the legislation was created. And that refers back to 
me. The 13 purposes for which the Act was created, and the 5 
objectives of this CMPA. And so, we are in a unique position. 
This is a unique piece of legislation. And I think we have to 
be very careful about being as open as we can, because this is 
new and unique, in balancing those 13 purposes and 5 objectives 
with protection of those wilderness values. And I think we need 
to illuminate to those people that weren't involved and didn't 
understand the intent, as to why we're making the decisions 
we're making.
    Mr. Simpson. It is kind of an interesting debate that goes 
on. And, not to sound arrogant or anything, but someone said to 
me one time, ``Wilderness is what Congress declares wilderness 
is--however you write the legislation.'' We have wilderness 
areas in this country that actually have paved roads running 
through the middle of it, because they were allowed when that 
Wilderness Act was created. And so, I find this a fascinating 
piece of legislation. One other thing I'd like to add is that 
we talked about reasonable access. Reasonable to who? And, how 
do you define reasonable?
    Mr. Wassinger. You've talked about your frustration as 
legislators--creating legislation and then assuming that it's 
understood what you meant. Our frustration is wrestling with 
the terms like ``reasonable.'' In the public review process, 
quite often, by hearing all points of view; by going back to 
the original intent of the legislation; by pulling all this 
together in a public forum, subject to public exposure, we're 
able to come up with the answer to that question. And it's 
almost different--It's almost assuredly different in every 
case.
    Mr. Simpson. Well, I appreciate the difficulty of your job, 
in trying to actually implement something, and also trying to 
make it, as you say, bulletproof from lawsuits. I think a lot 
of us are tired of management-by-lawsuit. And this is something 
that I would like to see work, and I would hope that--and I 
believe that you're trying to make it work. And I know 
Congressman Walden is, and the rest of us. Because, as I said 
in my opening statement, ``If it doesn't work here, I don't 
know where it's going to work.'' So, I appreciate the toughness 
of your job, and I'll turn this back over to Congressman 
Walden.
    Mr. Walden. Thank you. As you might imagine, I have a 
couple other questions. First, let me help you on what 
``reasonable access'' means. Having been the original drafter 
of legislation, I took it to mean--``Reasonable access'' meant 
``continue what's been done up to this point.'' Historical 
access. I realize I wasn't the only one involved in the 
drafting. There are others who may have slightly different 
views on that, I realize. But, from a legislator's standpoint--
at least this one's--When I talked about ``reasonable,'' it was 
kind of ``what we've been doing.'' And it's like that 
Oldsmobile commercial that was out a year or two ago. This 
isn't your father's Oldsmobile. This isn't it your father's 
wilderness area. This is the first cow-free wilderness in the 
country. It's a precedent. And so, I think, as much as that is 
a precedent, there's a precedent on the other side, too, about 
enshrining these historical uses. Whether it's access; whether 
it's recreation; whether it's the kind of work that's done on 
the mountain.
    So, for what it's worth, as you struggle with trying to 
find what ``reasonable'' means, think in terms of how it's been 
done in the past. And I recognize you've got to do what you 
have to do about lawsuits, but we tried to make it as clear as 
we could.
    Let me ask you some questions about the recreational permit 
issue, because this one has probably garnered more attention 
than any other. And I guess the first thing--I'd like to know, 
kind of, the current situation. Have there been any new 
recreational permits issued, since the Act was signed into law? 
Or, have there been any--
    Mr. Wassinger. I don't believe so.
    Mr. Brown. We had eight existing long-term permits--five-
year permits, I believe. That might not be exact. I think we're 
down to about seven. One person quit. Those are long-term, 5-
year permits. Those are people who, historically, have used the 
mountain for quite some time. The only permits that we've 
issued since the Act are one-time permits, meaning they have an 
activity for a set period of time, whether it's a day or it's a 
week. During the interim, we're not entertaining multiple-year 
permits, until we go through working with the public and with 
the Steens Mountain Advisory Council on the resource management 
plan.
    Mr. Walden. So, your justification for 1-day or 1-week 
permits is their, sort of, diminutus use? Is that--I'm just 
curious why that doesn't require some further evaluation.
    Mr. Brown. We did do a programmatic environmental 
assessment for day use, and most of those fall within that 
category. The programmatic addresses, typically, ``Well, you're 
staying on the road and you're in the campground. You're not 
doing multiple-night camping in the wilderness, and that sort 
of thing.''.
    Mr. Walden. And is one of those Cycle Oregon?
    Mr. Brown. Yeah. Cycle Oregon was actually done under an 
agreement, a cooperative agreement, rather than permit.
    Mr. Walden. And how many people were involved there, on the 
mountain?
    Mr. Brown. Oh, gosh, that must have been 1500 to 2000.
    Mr. Walden. 1500 or 2000? At one time?
    Mr. Brown. At one time.
    Mr. Walden. Did any of them stray into the wilderness?
    Mr. Brown. Not that we're aware of. We have people up there 
monitoring that. They all stayed on the loop road. One of the 
conditions of the agreement was they were not to go off the 
right-of-way of the road.
    Mr. Walden. Not at all? Not to walk, not to--
    Mr. Brown. If you were part of the Cycle Oregon tour, you 
were not supposed to do that.
    Mr. Walden. Was there one issue--the Full Circle Tours 
permit, for this year?
    Mr. Brown. I'm not sure. This year? Perhaps last year. Yes, 
it was a one-time--
    Mr. Walden. What is Full Circle Tour? Do you know what 
that's about, personally?
    Mr. Brown. I don't know, exactly.
    Mr. Walden. I thought you were the expert.
    [Laughter.]
    Mr. Brown. Well, I wouldn't--I'd guess, and I wouldn't want 
to give the wrong answer. I think they typically work along the 
road, and look at natural features.
    Mr. Walden. I'm just curious: How many of those temporary 
permits are being issued?
    Mr. Brown. Oh, I don't think we have a half a dozen. And 
some of those--Some of those, historically, we know have gone 
on in the mountain, and it was BLM's choice in the past not to 
permit them. And, in fact, we did do a Technical Procedures 
Review, if I can just elaborate a little bit. And that's an 
internal review of our own procedures. And that was 2 years 
ago, I believe. And it was found that much of our permitting 
was actually out of compliance with our manuals and our 
regulations. And that's why we had started to bring some of 
those gradually into permit--under permitting. But what we've 
told them is: We're not going to go--Until the RMP is done, 
we're not going to issue any more 5-year, long-term permits. 
There are the existing seven permits, that are for 5 years. But 
I think there are historical uses that existed on that 
mountain, and I think it would be very unfair of the Bureau, 
who recognized those uses, even though they didn't permit 
them--They recognized them; they knew about them; they told 
them in the past they didn't need a permit--to suddenly tell 
them that they can't come up on the mountain anymore.
    Mr. Walden. And then, how does that go against the 
timeline, for example, of the running camp? In terms of how 
fast to move to grant that permit? I thought I'd heard 
somewhere--Maybe it wasn't even the running camp--But, one of 
these folks that had a permit--It was coming right up to the 
deadline, before they would know whether or not they could 
operate for the season. Is that true?
    Mr. Brown. We ran into some problems with that, last year, 
yes.
    Mr. Walden. Why was that?
    Mr. Brown. Workload. Implementing everything with the 
Steens Act. Trying to gather up enough information. The folks--
The permittees that have the 5-year permits--They have 5-year 
permits. So, that is not an issue this year. Regardless if we 
finish the NEPA on those permits, they will be allowed to 
continue.
    Mr. Walden. How does that differ, then, from if you have a 
grazing permit the runs 10 years? One of the issues that has 
been brought to my attention is that there's a process under 
law to do a review at the end of the permit cycle, and I 
thought under--Maybe it's the Arizona language, the Colorado 
language--pretty clearly says, ``Just because even a new 
wilderness designation occurs, is not reason to go in and upend 
that permit and do an evaluation.'' Is that not an accurate 
reading of those--of that language?
    Mr. Brown. It could be. The issue is not so much that there 
is wilderness, although wilderness certainly highlights the 
issue. The issue is: Our Technical Procedures Review found us 
to be out of compliance--that, on the 5-year, there should have 
been NEPA in the past.
    Mr. Walden. On the grazing?
    Mr. Brown. On the five--I'm talking special-recreation use 
permits.
    Mr. Walden. OK. But, what about grazing permits? I sort of 
shifted gears on you.
    Mr. Brown. Oh, there should be NEPA on those, and if there 
hasn't been NEPA in the past--Before you issue that 10-year 
permit, you should do NEPA on those.
    Mr. Walden. Right. But, aren't you actually going back of 
the middle of those permit timelines now, and doing evaluations 
on how they're operated?
    Mr. Brown. On some of them, yes, based on the schedule. And 
the schedule for the evaluation, typically, is based on the 
issues at hand, meaning--
    Mr. Walden. So, passage of this Act has nothing to do with 
evaluations you're doing on the grazing permits?
    Mr. Brown. Absolutely. It does not.
    Mr. Dyer. I want to, if it's OK, provide some more 
information associated with Cycle Oregon. Cycle Oregon was 
something that was kind of a community-sponsored interest 
event. I can tell you that the direction of the--The alumnus 
tried to direct that to the existing permits that were already 
out there. For whatever reason, it didn't pan out. And it was a 
concern that they identified. They were very concerned, because 
why they were going to have Cycle Oregon was to get to the top 
of the mountain. They wanted to see the Steens. That was a part 
of the whole deal of coming over here. And, if there's any 
fault with that particular permit, it probably lies strictly 
with me, because I felt very strongly to try to make this work. 
As part of this law, the agreements were fairly important--
working with the public; working with groups. And I think we 
ended up with, roughly, 800 riders who ended up going out there 
on the mountain, not the total 2000, or whatever there were--
    Mr. Walden. Pretty steep climb.
    Mr. Dyer. Yeah. But they went up, and I think they did a 
pretty good job, now. If they had gone over on--locked on the 
wilderness--They may have. We had people that were up there, 
trying to monitor that as best they could, and did the best job 
they could. Mark Sherborne was up there. He monitored it, as 
well as one of the SMAC members that represents the 
environmental community, was up there monitoring. And I think 
we even had individuals from some of our existing special-
recreation programs, that were up there to watch to see how it 
went. Based on everything I heard, it went pretty well. It was 
also an extremely important and big event, I believe, to the 
community of Burns.
    Mr. Walden. I understand that. I was just curious how the--
what the process is for these individual permits, versus those 
for the long-term. Certainly, no criticism of Cycle Oregon. I 
admire people who can do that as well as they do.
    Mr. Dyer. If that helped--I thought it might help a little 
bit.
    Mr. Walden. We probably ought to move on. All right. Well, 
thank you very much for your testimony and for helping us 
understand what you're facing and for answering our questions. 
We may have additional questions, which we'll submit to you in 
writing or, perhaps, even talk to you later this afternoon. 
Thank you very much.
    Mr. Wassinger. Thank you.
    Mr. Walden. If we could have the next panel come up. Panel 
2 will be Harland Yriarte, the Director of Steens Mountain 
Running Camp; Cindy Witzel, Recreation Permit Holder, from 
Frenchglen; Bill Marlett, Executive Director, Oregon Natural 
Desert Association; and, Mr. George Nickas, Executive Director, 
Wilderness Watch, Missoula, Montana. Come on up. Is Mr. Nickas 
here? OK, apparently, he is--I am told he is not here. We 
wanted to, certainly, extend an invitation for him to come and 
share his concerns.
    Mr. Walden. We'll start, now, with Harland. And, then we'll 
go to Bill, and then to Cindy. Thank you, again, for joining us 
today. We look forward to hearing you testimony. Harland?

STATEMENT OF HARLAND YRIARTE, DIRECTOR, STEENS MOUNTAIN RUNNING 
                              CAMP

    Mr. Yriarte. Thank you very much. Before I get started, I 
just want to say I support the four land exchanges and five 
boundary adjustments proposed in the draft legislation. And, 
one other caveat. My testimony will be presented by using one 
or two word definitions of descriptions taken out of the Basque 
version Webster's dictionary.
    [Laughter.]
    So, there is a Basque version of the Webster's dictionary. 
I didn't know if you knew that or not. So, you've got to listen 
real close for some of this. I believe that the Senator--or, 
the Congressman--from Idaho is probably real familiar with the 
Basque population.
    First of all, the definitions are these: Harney County; the 
greatest hard-working folks--people--that I've ever been 
associated with, that really need an economic break at this 
time. Me--That's me. Definition of me: Last Basque left on 
Steens Mountain.
    [Laughter.]
    Mr. Walden. Probably the only one in Eugene, too.
    Mr. Yriarte. Well, given the trouble there is around here, 
you have a clue on what really happened to the dinosaurs; 
followed by the Indians; the sheep; the sheepherders; now the 
cows, and, eventually, cowboys; and, maybe now, the kids. My 
occupation is herding kids. I've got nine of my own. I teach 
and coach at Lane Community College. I run a running camp, and 
have since 1975, on this beautiful mountain that God created. 
And I think what happens is, sometimes when you worship 
creations, versus the creator, you start having problems.
    Steens Mountain staff: Caring, loyal, educated, great 
teachers, ethical--and there's a lot of them here today. Kids. 
Kids, out of this dictionary, is not another four-letter word. 
K-I-D-S. They're not a four-letter word. They're the future 
leaders of our country. They're our sons and daughters. They're 
your sons and daughters. Definition of ``Clients'': Definition 
of ``Clients'' is what these kids are referred to and described 
by Wilderness Watch ALERT flyer, last fall. The other 
description was ``hoards.'' Around here, ``hoards'' means 
mosquitoes. Other descriptions, in this particular Wilderness 
Watch ALERT flyer that came out last fall: ``Hoards of runners 
suddenly streaming down canyon ledges and racing past the camps 
of visitors to the wilderness.'' By count, there were only 
three people, in the total 2 weeks of canyons last year, and 
all of them were smiling when you went by. Which brings me to 
the definition of ``Spin'': What Wilderness Watch 
representatives are very good at. Wilderness Watch definition, 
``Basque'': An environmental group whose extreme views on kids 
in the Steens Mountain wilderness area are out of step with 
mainstream Americans and mainstream environmental individuals 
and groups.
    Ron Bellamy, Registered Guard, Eugene--and, by the way, 
Eugene is a very hotbed of environmentalism--Most runner's are 
environmentalists. This hits hard with the heart of Eugene. In 
his column, May 9, 2002, he called it ``Misguided Meddling.'' 
He said, ``You ought to be outraged at the environmental group, 
Wilderness Watch, in Missoula, Montana, that wants to keep the 
young runners out of the wilderness. It's stuff like this that 
makes environmentalists look like idiots. It does more damage 
to the general cause than a chainsaw.''.
    Wilderness Watch: Voted Most Likely to Litigate or 
Challenge the BLM, if a permit is issued which allows kids to 
go on the Big Day. And that's the contention, is the Big Day. 
It's nothing else. Definition, ``Big Day'': The camp's 
highlight--the main meal, if you will. Wilderness Watch says, 
``We don't want to run you out of business.'' But, hey, how 
many people want to go to Thanksgiving dinner when you don't 
have the turkey? How many people want to take the ``to'' out of 
``fu''? When you have tofu, and you take out the ``to,'' all 
you're left with is ``fu.'' Period.
    [Laughter.]
    The Big Day is a 28-mile hike through Big Indian-Blitzen 
gorges, and then running back to camp via the loop road. 
Wilderness Watch wants to relocate us. That isn't a historic 
use. We've ran--We've been in that mountain for 26 plus years. 
We've been all over mountain, historically. I'm shorter, now.
    ``Atmosphere'': Why people eat, or don't eat, at 
restaurants. Why would you want to come here and get close to 
where wilderness is, and not be able to access it. Definition 
of ``ONDA'': Oregon Natural Desert Association, who supports 
the running camp activities in wilderness area. According to 
Bill Marlett, on several occasions, ``A deal is a deal.'' It's 
a deal. Oregon Congressional Delegation supports kids and camp 
in the wilderness. Earl Blumenaur and Ron Wyden have written 
letters in support of that.
    In conclusion--as I see my light coming down close--The 
rights of our camp were purposely and intentionally written 
into that important legislation. Therefore, in respect to the 
groups--environmental, rancher, everybody who was involved in 
the original legislation--We hope that no litigation or court 
injunction is filed by groups, such as Wilderness Watch, that 
would prevent what legislators and stakeholders intended for 
the Steens Act of 2000. If there is litigation or an injunction 
filed that prevents our camp from using historic routes through 
wilderness, we would ask you--the Congressional Delegation--for 
clarification of the Act, that may have legislation, or promote 
legislation, to protect us.
    In summary, our camp was born out of a simple desire to 
allow young men and women to be inspired by the beauty and 
lessons of nature. Since our earnest and humble beginning, 27 
years ago, we have always embraced the environment and 
respected the land. We hope that we can continue this proud 
tradition in the future. It would be a bittersweet and ironic 
ending, if the very purpose of the special running camp is also 
the very reason for its demise.
    Mr. Walden. Thank you, Harland.
    [The prepared statement of Mr. Yriarte follows:]

  Statement of Harland Yriarte, Director, Steens Mountain Running Camp

    Honorable Chairman Radanovich and members of the Subcommittee:
    Thank you for the opportunity to testify before the Subcommittee on 
National Parks, Recreation, and Public Lands on the subject of the 
Steens Mountain Running Camp. As the founder and director of this 27-
year old camp, I am very appreciative to be able to speak about the 
origins and history of this camp, its purpose, the impacts that it has 
on young people's lives and the environment, and the current 
legislative and administrative issues it is dealing with.
BACKGROUND ON HISTORY OF STEENS MOUNTAIN RUNNING CAMP
    I chose Steens Mountain as a backdrop for a running camp for high 
school boys and girls because I grew up on this mountain, and I 
realized the tremendous potential for drawing strength and beauty from 
this pristine place. My grandparents were Basque immigrants that came 
from Spain in the 1920's to herd sheep for the Laxalt family in Carson 
City, Nevada. Within a few years of their arrival in the United States, 
they moved to Crane, Oregon, and then Steens Mountain in the 1930's in 
order to herd sheep in the Kiger, Blitzen, and Little and Big Indian 
Gorges, as well as the Fish Lake Creek of Steens Mountain. I grew up on 
a ranch 42 miles from Burns, Oregon, and I spent many of my summers on 
Steens Mountain exploring the landscape, helping my family with work, 
and gaining a deep sense of appreciation for this special place. After 
graduating from Burns High School in 1966, I received a Bachelor of 
Science Degree from Southern Oregon College in 1972, and then earned a 
Masters of Education from University of Oregon in 1982. From 1972-1980 
I became a teacher and cross country coach at Brookings Harbor High 
School. During this time, in 1975, I decided to bring my fledgling 
cross country team of 14 young boys and girls to camp in Steens 
Mountain for a week. At the time, I had no thoughts or intentions of 
starting a yearly ``camp.'' Simply, my purpose for bringing kids to 
Steens Mountain was to allow them to internalize the beauty and the 
simple, yet powerful lessons that exist in nature so that they could 
become better runners, students, employees, sons and daughters, and 
citizens. I believe that spending time in rugged and beautiful places 
does several things: that it brings people closer together, it teaches 
people to adapt, and it teaches life's truths. That year, after 
returning from the mountain, our team won the state cross country 
championship. Six state trophies and five Steens camping trips later, 
The Oregon State Athletic Association decided that our team had an 
``unfair advantage'' by going to Steens each summer. The state said 
that either I had to cease bringing my Brookings Harbor high school 
kids to Steens, or open it up for kids from other high schools to 
attend. I decided to open it up for other kids to attend, and thus 
Steens Mountain Running Camp was born.
CAMP PARTICIPANTS
    Steens Mountain Running Camp usually holds two weeklong sessions in 
late July through early August. Participants are primarily high school 
athletes, college-age counselors, coaches, and adults. The camp staff 
represents a variety of people with different backgrounds and skills 
from across the country, and has included teachers, coaches, physical 
trainers, bus drivers, cooks, political researchers, pilots, college 
students, elite athletes, doctors, environmentalists, biologists, and 
even interested parents. Past high school participants have come from 
30 different U.S. states, as well as from abroad. Enrollment has grown 
over the years and is now limited to 150 kids each session.
PURPOSE OF CAMP
    Some of the major objectives of the camp is to allow adolescents to 
enjoy, engage, and respect wilderness beauty through running, hiking, 
exploring, and education. Our greatest goal is for high school boys and 
girls to learn an appreciation for themselves, the environment, and 
others--allow them to internalize this appreciation and beauty--and 
then bring it home to share with their parents, teachers, friends, 
neighbors, peers, and co-workers.
    One thing that Steens Mountain has taught me is that people are 
chameleons: you become what you surround yourself with. If you want to 
be a good person, you surround yourself with good people. If you want 
to espouse good values and internal beauty and strength, you surround 
yourself with an externally beautiful and rugged world. I believe this 
is one reason the camp has been so effective in inspiring young adults 
to not only excel in running, but in academic, personal, spiritual, and 
career goals as well--because they have opportunities to take in the 
immense beauty that characterizes the Steens wilderness. I tell my camp 
participants that they don't have to pick a beautiful flower to 
internalize it's beauty'they can take that experience with them in 
their hearts and minds, yet they leave the flower on the mountain for 
others to enjoy. I encourage kids to emulate the qualities of plants 
and animals we find in nature: the beauty of a flower, the adaptation 
of a juniper tree to wind and hail storms, or the speed and grace of an 
antelope.
    The Steens Mountain Running Camp is not a typical sports camp that 
only emphasizes athletic training or competition. On the contrary, more 
than anything, this camp is about being a good person and reaching your 
full potential as a human being. It's not just about becoming an 
endurance athlete, or how to run fast, or how to be competitive, it's 
about respecting the natural world we live in and the people around us, 
having self-confidence, determination, courage, and integrity. It's 
about being responsible, and maintaining self-discipline and character 
despite adversity or hardship. The philosophy of the camp is that if 
your heart is in the right place, and your mind and spirit are focused 
and balanced, then everything else, including being a good athlete and 
a good steward of the earth, will fall into place. Learning to be a 
good runner is secondary at this camp, learning to be a good person is 
primary.
    Over the years, many things have changed with the running camp, 
such as the size, location, and activities of the camp, but some things 
have always remained constant.
    We have always strived to teach young kids about how to respect and 
appreciate the outdoors and nature. We teach kids to ``leave no 
trace,'' ``respect wildlife and other wilderness visitors,'' and 
``enjoy, but do not disturb anything.'' We do our utmost to embrace the 
tenets of environmental stewardship.
    We have maintained an excellent relationship with the BLM, visitors 
to Steens Mountain, and local communities. To my knowledge, the BLM has 
never received a formal complaint against our camp during our 26 years 
of operation.
    We ensure that campers' safety remains paramount at all times.
    We allow kids to take in the beauty of Steens Mountain, internalize 
this beauty, and take it home to share with their families, friends, 
schools, jobs, and society.
CAMP ACTIVITIES
    Most activities of the running camp are conducted on private land 
that the camp owns on Steens Mountain. Activities on public lands, 
including the Steens Mountain Wilderness, account for less than 25% of 
the entire time spent at the camp. No competitive activities or 
endurance events take place in the Steens Mountain Wilderness.
    The cornerstone of the camp experience is the ``Big Day'', an all-
day hike/run through the Big Indian and Little Blitzen canyons, which 
are now part of the Steens Mountain wilderness. The Big Day is 
conducted twice each year, for 8-10 hours each time. The entire route 
of the Big Day follows pre-existing trails and dirt roads within and 
outside of the wilderness. This is the only camp activity conducted 
within Steens wilderness.
    Other activities on public land during the course of the week 
include hikes, sightseeing, and runs. For example, as part of an 
initial orientation, kids are taken to the top of Kiger Gorge and 
Wildhorse Canyon, where they are educated about the ecology, biology, 
geology, history, and geography of Steens Mountain.
WHAT CAMP PARTICIPANTS GAIN FROM THEIR EXPERIENCE
    High school campers, college counselors, and adults consistently 
express a great appreciation for the lessons they have learned at the 
camp. Through words and letters, former campers most often say that 
they have learned lessons about appreciating the beauty of nature, or 
the value of adopting inner strength, compassion, and respect for 
others and the world we live in. Here is what one camper, a 16 year-old 
girl from Eugene, told me in a thank you letter:
    ``Dear Harland, I just wanted to say thank you for giving me the 
opportunity to come to such an extraordinary camp like Steens. This 
last week was my second time at the camp, and I'm just now beginning to 
realize what a truly valuable experience I have been given. Being in 
the awe-inspiring wilderness with all those amazing coaches and 
educated individuals, has helped me not only realize what it is that I 
love about running, and made me a better athlete, but has taught me the 
value of teamwork and love. The gifts I have received from the Steens 
Mountain and your camp will stay in my heart and thoughts forever, and 
I hope to one day be able to live up to your standards of compassion, 
determination, and excellence. Thank you so very much.''
    Another camper, also a 16 year-old girl from Oregon, kept a journal 
while at Steens camp:
    ``A Steens' night is clear and black. A black that you could stick 
your hand into and it would be immediately swallowed; stuck in the 
depths of another dimension. It was that kind of black. Yet the air was 
luminous, lit strangely, possibly by the infinite number of stars which 
were so visible in nights like these; unmasked by the neon of cities. 
They sat like silver fleck of pepper on a deep black dinner mat. The 
air was so still it seemed that if I lifted my chin and exerted one 
forceful breath, all the stars would be sent scattering toward one 
corner of the universe.''
    In a letter of support, she also said, ``No other experience, world 
traveling, community service, or otherwise has impacted me to the 
extent that Steens has. Steens has made me a more considerate, 
inspired, driven, confident, responsible, and environmentally aware 
person. It is not a stretch to say that Steens campers, in five short 
days, become better people.''
THE FORMATION OF THE STEENS ACT OF 2000
    For the past 27 years, Steens Mountain Running Camp has been the 
informal steward of the Steens Mountain area. We realized the special 
qualities and unique beauty of this mountain long ago, and have taught 
kids to respect and take care of this natural asset. Spanning almost 
three decades, our camp has drawn consistent praise from local 
communities, environmentalists, ecologists, high school athletes and 
their coaches, and magazines and newspapers. Since our humble beginning 
in 1975, our camp has been ranked as one of the ``top 10 running 
camps'' in the nation by Runners World magazine, and newspapers such as 
the Eugene Register Guard and Burns Times-Herald have written articles, 
aptly named ``Runner's High: Surviving the Steens Mountain Running Camp 
is a Triumph of the Mind,'' and ``Steens Mountain Running Camp Strives 
for Inner Strength and Character.''
    In 2000, due to growing public awareness of a secret hidden gem 
tucked away in the remote Southeast corner of Oregon, people decided 
they wanted to formally protect the Steens Mountain. Even though, as a 
group, we didn't need for laws to pass to ensure that we would continue 
to do the right things and be stewards of the mountain, we strongly 
supported environmental efforts aimed at protecting this magnificent 
wilderness area. We were glad to see that measures were being taken to 
guarantee that this enduring source of wilderness would remain 
unspoiled for future generations.
    Accordingly, we participated in the legislative process to ensure 
that laws were passed to protect Steens Mountain and our running camp. 
We wrote letters, collected information, worked with legislators, and 
provided public testimony about the mountain and running camp. As a 
result of our outstanding track record and relationship with the BLM, 
public, and environmental groups, we received overwhelming support for 
the camp from a variety of groups, individuals, and legislators. 
Indeed, we were given reasonable assurance from the framers of the 
Steens Act that that the running camp would not have to change it's 
historic use of the mountain at all (including routes used for the Big 
Day). In fact, the Steens Act was a ground-breaking piece of 
legislation, unlike any other wilderness acts previously passed in the 
United States. During the bargaining phase (in which environmental 
groups participated), certain concessions were made in exchange for 
certain allowances. The most notable concession made was that Steens 
would be made the first-ever cow-free wilderness in the nation, and 
among the allowances made in exchange was protection granted for the 
historic use of the Steens Mountain Running Camp. Thus, we were led to 
believe that our camp was protected in the future. In furtherance of 
this understanding, legislators wrote our camp letters of reassurance. 
For example, Senator Wyden sent us a letter on December 21, 2000 
stating the following:
    ``As I understand, the running camp uses routes both inside and 
outside of the newly created wilderness area. The running camp provides 
a unique experience for young athletes, and I strongly support it. In 
our discussions over the legislation, I wanted to accommodate the needs 
of the running camp and therefore negotiated the bill to ensure the 
camp would run in the same manner it has for several years. The bill 
specifically protects those `outfitters'--in this context the camp is 
an `outfitter'--who have historically operated on the mountain. I 
intend to watch closely as the new law takes effect, and stand ready to 
assist the camp should any difficulties arise.''
    Likewise, we received a similar letter from Congressman Blumenauer, 
dated September 22, 2000:
    ``Let me assure you that there is nothing in my legislation, the 
Steens Mountain Wilderness Act of 2000, which would negatively impact 
your camp. No one has ever asked us to include any provisions in the 
bill that would threaten its continued existence.''
    Furthermore, we received support from environmental groups 
intimately familiar with the Steens Mountain area, such as the Oregon 
Natural Desert Association (ONDA) and the Steens-Alvord Coalition. For 
example, an August 24, 2000 e-mail sent to Oregon legislators by Jill 
Workman, Chair of the Steens-Alvord Coalition, stated that:
    ``I understand that you have received inquiries from your 
colleagues regarding the Steens Mountain Legislation's impact on the 
running camp that takes place on Steens Mountain each summer. As chair 
of the Steens-Alvord Coalition, I am writing to let you know that the 
coalition views the running camp as relatively benign. We do not take 
issue with its continued existence nor do we intend to attempt to 
incorporate into the legislation any language that would limit or force 
the running camp to change its operation...Last year the Southeast 
Oregon RAC [Resource Advisory Council] received numerous letters from 
campers asking us (I represent environmental interests on the RAC) to 
not close the camp, to keep the Steens Mountain Road open and to 
continue to allow people to recreate on the mountain--we had not 
considered closing the camp, the Steens Mountain Road or the mountain 
to recreation use...As you may know, this running camp houses its 
campers in tents on private land and the campers spend the majority of 
their days running through the gorges of Steens Mountain, much of which 
is public land. I doubt that most visitors to the mountain realize that 
the camp is there. The camp has a special use permit from BLM and we 
have not purposed any changes to that permit...I am hopeful that 
addressing this matter now will keep the running camp from becoming an 
issue as we attempt to move forward with consensus legislation.''
    In a more recent newspaper article, ``Watchdog Group Battles Steens 
Camp for Runners,'' (The Register Guard, Eugene, Oregon, May 6, 2002) 
Bill Marlett, executive director of the ONDA, shed some light on their 
organization's stance regarding the Big Day event:
    ``From the get-go, we felt it was a relatively benign activity 
compared to a lot of things that were happening in wilderness, 
especially livestock grazing. The expectation was that when the Steens 
was designated, the camp would continue its operation in the 
wilderness.''
    Due to these numerous reassurances that our camp would not have to 
change our historic use of the mountain, we did not worry that our 
camp's future would be threatened. Had we known at the time that our 
camp's status would be challenged, we would have gone to great lengths 
to fight for the camp's rights and ensure that legislation provided 
further provisions to protect our camp.
LATE-EMERGING CONCERNS RAISED ABOUT THE CAMP
    In the Fall of 2001, the first indication surfaced that a group 
opposed our camp's historic use of the Steens Mountain area. As a 
member of the newly formed Steens Mountain Advisory Council (SMAC), I 
received a newsletter from Wilderness Watch along with the eleven other 
council members at the very first SMAC meeting. The newsletter stated:
    ``Wilderness solitude needs protection: This past summer the BLM 
allowed a commercial running camp to take its clients through the 
wilderness in a single group of 150 runners. Other wilderness visitors 
were dismayed to see hordes of runners suddenly streaming down over 
canyon ledges and racing past their camps. Nothing in the Steens Mtn 
legislation allows the continuation of commercial activities that are 
inconsistent with wilderness values such as protection of solitude. The 
running camp owner, Harlan [sic] Yriarte, represents private property 
interests on the SMAC.''
    I was troubled to read this information about our camp, which I 
believed portrayed our camp in an inaccurate and negative way. Since 
this newsletter appeared in 2001, the controversy over our camp has 
become more contentious, as a handful of individuals and groups seem 
unwaveringly opposed to our camp's use of the wilderness. Primarily, 
issues of solitude, group size, compatibility with the Wilderness Act 
of 1964, and fear of setting a precedent seem to be their foremost 
concerns. As they have stated, their goal is to remove our camp from 
the Steens wilderness areas, and have us do the Big Day on an 
alternative route outside of the wilderness. To achieve this goal, they 
are asking the BLM to refrain from issuing the Special Recreation 
Permit (SRP) that would allow our camp to conduct the Big Day within 
wilderness areas. I commend the good intentions and efforts of groups 
like Wilderness Watch to protect the Steens area. I, too, wish to 
protect this natural asset. However, I believe that their good 
intentions are based on a lack of a thorough and accurate understanding 
of the running camp and the intentions of the Steens Act of 2000. Their 
desire to re-route the Big Day will also undermine the safety of the 
young runners, which I will explain more in a moment.
    I think it's also important to point out to the Subcommittee that 
although there are a handful of people who oppose our camp (many of 
whom reside out of state and have never even been to Steens Mountain), 
our camp has had tremendous outreach and support from the community, 
former campers, and environmental, conservation, and wilderness 
advocates. Biologists, ecologists, botanists, archeologists, and 
members of groups such as the Sierra Club, League of Conservation 
Voters, and the Eugene Natural History Society are among the many 
groups and individuals that have written letters of support to our 
camp. For example, Peter Helzer, a member of the board of directors for 
the Eugene Natural History Society, wrote the following in a May 20, 
2002 letter addressed to the BLM:
    ``We feel that the environmental impact of the Steens camp has been 
negligible while its educational value (and its public relations value 
to the environmental movement) has been substantial. Our concern is 
that if the Steens Mountain Running Camp is forced to change its 
format, including alterations to the ``Big Day Run,'' the camp 
experience will be diminished, and local environmental groups like the 
Natural History Society...will lose a unique opportunity to work with a 
large group of energetic young adults. There are good reasons why 
environmental groups'that are active within the state of Oregon'support 
the Steens Mountain Running Camp.''
    Similar sentiment was expressed in an e-mail sent to me on May 18, 
2002, from a member of the Sierra Student Coalition:
    ``Mr. Yriarte, I work with the Sierra Student Coalition, the 
student arm of the Sierra Club, on National Forest issues. I just 
wanted to let you know that I am totally with you on the Steens 
Wilderness issue. I think the philosophy that you articulated in the 
paper recently is exactly what young people need--and Nickas should 
recognize that. I hope that you won't let his narrow view create 
negative impressions of the environmental community for either the 
young athletes or yourself. He ``does not'' represent the majority of 
us.''
    Yet more evidence of support came from Andrea Callahan, founder of 
the ``Kids Saving Earth Club'' in a 4J public school, and member of the 
League of Conservation Voters. In a letter to the editor published in 
the Register Guard on May 20, 2002, she said:
    ``I attended the camp in 1999 as a 55-year-old mother, and although 
I'm not a runner, I went on the ``Big Day'' through what is now 
wilderness area, taking in beautiful canyons, waterfalls and aspen 
trees (campers go into this wilderness area only two days out of the 
year). I saw the minimal impact the camp had on the land, the 
wilderness education it provided to kids and the inspiration it 
fostered to respect the earth and all living things. I was inspired. 
Kids today need all the help they can get on their way to becoming 
responsible, respectful adults. Steens camp was a turning point in my 
own son's life. Through inspirational and educational talks during 
camp, he developed a strong sense of self and a love for the earth. How 
many kids have an opportunity to learn first hand how to be stewards of 
our precious earth? It's this very kind of camp that will motivate kids 
to become environmentalists, and I can think of no better environmental 
cause to support.''
HOW THE CAMP HAS ADDRESSED CONCERNS
    Although we feel that the Steens Mountain Act protects our historic 
use of the mountain, we also feel that our camp does embrace the values 
and intent of both the Steens Act of 2000 and the Wilderness Act of 
1964.
Compliance with the Wilderness Act of 1964
    The Wilderness Act of 1964 was written to create ``an enduring 
resource of wilderness--where man is a visitor who does not remain.'' 
The Wilderness Act also states in Sec. 4. (b) that, ``wilderness areas 
shall be devoted to the public purposes of recreational, scenic, 
scientific, educational, conservation, and historical use.'' In these 
ways, our camp maintains the quintessential spirit and intention of the 
Wilderness Act of 1964. First, nothing that our camp does harms the 
mountain, or prevents the wilderness from continuing to be wilderness. 
This has been confirmed by years of monitoring by the BLM and 
environmental specialists. In fact, a biology and ecology teacher who 
attended the camp commended the camp's efforts to ``encourage and 
maintain high standards to take care of the environment at all times.'' 
Second, we allow a group of talented, curious high schoolers a rare 
opportunity to directly experience wilderness and learn from the 
mountain. In fact, kids from over 30 different states and even other 
countries have attended this camp, ranging from places like inner-city 
Chicago to Mississippi and even Portugal. The experience these kids 
take away from camp is one that cannot be duplicated at home, and it 
will last them a lifetime. On all levels and at all times, we respect 
the mountain, we leave no trace, and we respect and allow other people 
to enjoy the mountain as well. We are not asking to operate jet skis on 
the Blitzen River, and we're not the National Guard asking to conduct 
military exercises. We are a group of high school adolescents who will 
be traveling into the wilderness by foot. We conduct the camp for only 
two weeks out of every year on private land, we are only in the 
designated wilderness area for 8-10 hours two to three times a year. We 
spend the majority of our time on private land.
    The Steens Mountain Running Camp fulfills the Wilderness Act 
provisions of ``recreational, scenic, scientific, educational, 
conservation, and historical use'' in several ways: The camp conducts 
recreational activities (swimming, hiking, exploring, sightseeing), it 
allows kids to take in the amazing scenery that exists within the 
wilderness areas, it educates participants about biology, ecology, and 
geology, it encourages and practices conservation, and it has a proud 
history that dates back to 1975. On several occasions during camp, 
campers were even given demonstrations of primitive archeology and 
living skills, and were given the opportunity to learn the ancient 
skills of making fires by friction and flint knapping (making 
arrowheads out of obsidian). Native American dancing demonstrations 
have also been performed at camp, and this summer a guest speaker who 
holds a PhD in archeology and paleobotany is going to give a 
presentation about the archeology and botany of Steens Mountain. In 
furtherance of educational objectives, campers even have the 
opportunity to receive college credit from their camp experience 
through Southern Oregon University.
    Furthermore, the Wilderness Act states that wilderness areas 
``shall be administered for the use and enjoyment of the American 
people in such manner as will leave them unimpaired for future use and 
enjoyment as wilderness...'' We cause no damage to the mountain that 
would impair its ``future use and enjoyment as wilderness.'' 
Furthermore, who better qualifies to use and enjoy Steens wilderness 
than the youth, and future leaders, of our country? Indeed, some 
campers have even been inspired to devote their lives to conservation 
causes, and are currently pursuing life goals of working for 
environmental groups.
    However, even if there are concerns that our camp does not fall in 
harmony with the Wilderness Act of 1964, the intent of Steens 
legislation was to allow us to continue using the wilderness area.
Compliance with the Steens Act of 2000
    The purpose of the Steens Mountain Cooperative Management and 
Protection Act of 2000 (SMCMPA) included maintaining the ``cultural, 
economic, ecological, and social health of the Steens Mountain area in 
Harney County, Oregon.'' (Sec. 1 (b) (1)). It is recognized that the 
Steens Mountain Running Camp has been a legitimate and historic part of 
the Steens Mountain, and has also maintained an enduring economic 
function in the local area (spending more than $20,000 in Harney County 
last year alone). As such, the camp falls under the cultural, economic, 
and social health provisions as granted by the SMCMPA.
    Furthermore, the objective of the SMCMPA is ``to promote grazing, 
recreation, historic, and other uses that are sustainable.'' The camp 
is consistent with the ``recreation'' and ``historic'' objectives of 
the SMCMPA (sec. 102 (b) (2)).
    Additionally, the SMCMPA states that ``the Secretary [of the 
Interior] shall manage all Federal lands included in the Cooperative 
Management and Protection Area...in a manner that (2) recognizes and 
allows current and historic recreational use.'' (Sec. 111 (a) (2)). As 
the camp has been operating on Steens Mountain since 1975, it, too, 
fulfills these functions of the Steens Act.
Concerns about Impact to Wilderness
    Some concerns have been raised that we disturb the solitude of the 
wilderness when we conduct the Big Day and Cross Canyon events, 
possibly creating a ``negative social impact for other wilderness 
visitors.'' However, feelings of solitude are dependent upon 
encountering people. As such, our camp rarely encounters people during 
the Big Day. In 2001, we encountered a total of three people during the 
Big Day events. Part of the reason for this is because the Steens 
wilderness encompasses such a large area: 170,000 acres. During the Big 
Day, 150 high school kids traverse a very small, geographically masked 
area of this enormous mountain wilderness. To put it in perspective, if 
each camp participant were equally spread across the Steens Wilderness, 
each would occupy an area larger than 1100 acres. This equates to fewer 
than one person per an area of land larger than New York City's Central 
Park. In the rare times that we have encountered other people, the 
encounter usually consists of smiles, encouragement, and a friendly 
wave good bye. Additionally, campers are instructed to talk quietly 
while in the wilderness and treat other wilderness visitors with 
courtesy and respect. A large part of the route also follows the 
Blitzen and Big Indian rivers, which help mask the sounds of our group. 
Furthermore, opportunities for solitude are enhanced by the varied and 
rugged topography. Topographic and vegetative screening, especially 
around the creek and canyon bottoms, often hide our presence from other 
visitors. Frequently, someone who is not more than a , mile away from 
our group will often not know that we are there. Perhaps the greatest 
testament to our minimal impact to solitude is the fact that the BLM 
has never received a formal complaint during our 26 years of conducting 
these activities. Additionally, if we have perceived any potential 
problems in the past, we have either policed ourselves to fix the 
problem or willingly worked with the BLM to mitigate any impacts to the 
mountain.
    However, if wilderness advocate groups are truly concerned about 
mitigating any impact to solitude or sign of human presence in the 
Steens wilderness, then maybe they should consider the following:
    Hunting, even commercially for-profit guided hunting groups, are 
allowed in Steens and other wilderness areas. Is the sound and sight of 
rifle fire less disturbing to wilderness values than kids hiking 
through a canyon?
    Cars and RV's can be seen from many points within Steens wilderness 
area--as 50,000 visitors come to Steens Mountain each year and drive 
down the South Loop. Do automobile backdrops provide a ``truer 
wilderness'' to visitors than high school boys and girls at a creek 
side?
    My point is not to single out hunting or driving access on Steens, 
or to pass judgment on other wilderness activities, but rather to 
highlight that some oppositional efforts against our camp seem 
disproportionate and misguided. If solitude is really what they're 
concerned about, shouldn't they be going after the 165 decibel roar of 
rifle fire, rather than the 65 decibel sound of shuffling feet muffled 
by the sound of running water? Shouldn't they be going after the 
constant glinting glass and shiny metal of a roaming RV seen from 
within wilderness, rather than the occasional and benign sight of kids 
hiking on a trail?
    Some wilderness advocates such as Wilderness Watch want our camp to 
consider using alternative routes outside of the wilderness area to 
conduct the Big Day event. While these alternative plans may seem to 
make sense on the surface, in practice they would create problems. 
We've designed the Big Day to fulfill two main goals: to provide 
outstanding scenic beauty and safety. Any alternative plan outside of 
the wilderness compromises both of these issues.
    First, Steens Mountain is somewhat like the Grand Canyon'the 
outstanding scenery and beauty exists when you have an opportunity to 
take in views at the edge or from within the enormous canyons. At the 
Grand Canyon, if you are only allowed within , mile of the rim, it is a 
vastly less inspiring and breathtaking experience than being at the rim 
or inside the canyon. Likewise, at Steens Mountain, the most impressive 
beauty and splendor lies at the edge or within the enormous canyons. 
All of these canyons are within the newly designated wilderness area, 
as they should be, because that is where the outstanding beauty and 
scenery of Steens Mountain exist. The areas outside of the wilderness 
areas consist of rather monotonous, flat, arid land dominated primarily 
by sagebrush, junipers, and some aspen trees. The areas are devoid of 
the rich diversity and scenery found in the canyons, such as 
waterfalls, grassy meadows, and fragrant wild mint and lavender. Being 
forced to hike on a dirt road outside of the wilderness area totally 
eliminates the original purpose of the Big Day and the camp.
    Second, the primary consideration in planning the Big Day is 
safety. This includes factors such as planning for bad weather, having 
aid/first aid stations along the route, operating in areas that allow 
transmission of two way radio communications and cell phone reception, 
and attending to water and hydration needs. The proposed alternative 
routes may not be able to accommodate all of these safety factors.
    One of the greatest risks to camper safety is lightning strikes. 
Due to the elevation, topography, and weather patterns around Steens 
mountain, adverse weather conditions, including thunderstorms, high 
winds, and hail frequently develop with little or no warning. The 
large, flat expansive areas outside of the wilderness areas provide 
less protection and shelter from the thunderstorms that are typical 
during the summer afternoons. In 1975, the bus driver for the camp was 
killed by a lighting strike that occurred on the expansive, flat top of 
Big Indian Gorge, where there is less terrain variation to afford 
protection from strikes. As a result, to help mitigate potential 
lightning strike hazards, the camp plans the Big Day so that campers 
are within the 2000'' deep Blitzen Gorge during the afternoon. 
Generally, lightning will strike canyon walls, varied terrain, or other 
high points like trees more frequently than surrounding flat terrain. 
To further mitigate safety hazards, participants are given a thorough 
briefing on how to avoid lighting strikes during thunderstorms. When 
encountered, camp staff direct the participants to stop hiking or 
running, and to assume a position on lower terrain that minimizes the 
potential of attracting lighting.
    Forcing the camp to adopt alternative plans may have other 
drawbacks. For example, since the Wilderness area is at higher 
elevation, conducting this event outside of the Wilderness area may 
likely force us into the juniper/sage brush lowlands, where 
temperatures are considerably hotter during the day. This increases the 
risk of kids experiencing heat-related problems such as dehydration or 
heat stroke. It can also lead to greater risk of hypothermia if the 
temperature drops.
    Concerns have also been raised about the size of our group, as 
claims have been made that no other for-profit group in the nation is 
allowed to conduct an activity like our Big Day in wilderness areas. In 
fact, this is flat-out wrong. For example, a for-profit commercial 
enterprise that is allowed to bring a group through wilderness is the 
20-plus year old Western States 100 Endurance Race--where the Forest 
Service allows 369 runners and 1300 volunteers to go through the 
Granite Chief Wilderness Area each year. Forrest Service monitoring has 
revealed that this group of runners (larger than our camp) has ``no 
impact'' to the trail. In another example, the Tevist Cup horse race 
with 250 rider/horse teams and 700 volunteers is allowed to go through 
the same wilderness area.
    Another stated concern is that by allowing our camp into the 
wilderness, a dangerous precedent of ``accommodating groups in 
wilderness areas'' will be established. However, no precedent will ever 
be set, as no other group could possibly fit the stringent criteria 
that allows us to operate in the wilderness, namely, 27 years of 
historic use. No matter who asks, or for what reasons, or by what 
means, any other group asking to do the same thing as Steens Mountain 
Running Camp will be flatly denied permission, and justifiably so, 
since they do not fall under the protection of the Steens Act of 2000.
THE CAMP'S CURRENT SITUATION
    In the spirit of cooperation, our camp is willingly going through 
an administrative process to ensure our right to use the Steens 
Wilderness. The Burns BLM is currently drafting an Environmental 
Assessment to measure the impacts of our camp on wilderness. If 
approved, we will receive a Special Recreation Permit as we have since 
the early-1980's to conduct our camp this summer.
CONCLUSION
    The Steens Act was put together by a cross section of society: 
bipartisan politicians, environmentalists, ranchers, wilderness 
advocates, land owners, private citizens, and Native Americans. 
Essentially, a patchwork quilt of people contributed to make this Act 
possible because they wanted to see the bright future of Steens 
Mountain passed on to future generations. The rights of our camp were 
purposefully and intentionally written into that important legislation. 
Therefore, in respect of the groups who were a part of the Steens 
legislation, we hope that no litigation or court injunction is filed by 
groups such as Wilderness Watch that would prevent what legislators and 
stake holders intended for the Steens Act of 2000. If there is 
litigation or an injunction filed that prevents our camp from using our 
historic routes through wilderness, we would ask for a congressional 
clarification to the Steens Act that would protect our camp in the 
future. Additionally, we are concerned about how many other unforeseen 
controversies we may have to deal with in the future. How do we ensure 
that our camp will not have to go through another controversy and 
administrative process in another four or five years? Already, dealing 
with this unforeseen controversy this year has required a great deal of 
time, attention, and effort. It is also having a negative financial 
impact on the camp, as enrollment is down 25% as compared to previous 
years.
    I am worried about the future of this camp, even this summer. 
Although the BLM has not ever received a single formal complaint in the 
past 27 years about any issues such as soil compaction, trail erosion, 
or disturbance to solitude, I must be honest and say that I'm worried 
that this year there will be many complaints made by ``planted 
complainers,'' who will coincidentally appear on the day, time, and 
place of our Big Day event.
    We hope that we can avoid a further controversy surrounding our 
camp. We ourselves would like to return to the ``solitude'' that we 
once knew on the Steens Mountain.
    In summary, our camp was born out of a simple desire to allow young 
men and women to be inspired by the beauty and lessons of nature. Since 
our earnest and humble beginning 27 years ago, we have always embraced 
the environment and respected the land. We hope that we can continue 
this proud tradition in the future. It would be a bittersweet and 
ironic ending if the very purpose of this special running camp is also 
the very reason for its demise.
                                 ______
                                 

    [Attachments to Mr. Yriarte's statement follow:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Walden. Bill? Welcome, and thank you for joining us 
today. We very much appreciate it.

 STATEMENT OF BILL MARLETT, EXECUTIVE DIRECTOR, OREGON NATURAL 
                       DESERT ASSOCIATION

    Mr. Marlett. Thank you. It's great to be here 
Representatives Walden and Mike Simpson. Good to see you again. 
Appreciate the opportunity to speak on implementation of the 
Steens Mountain Cooperative Management and Protection Act of 
2000. The path chosen for Steens was a novel course of action, 
one that attempts to balance competing interests; accommodate 
diverse stakeholders; and provide for direct citizen 
involvement; with a goal to serve, protect, and manage the 
long-term ecological integrity of Steens Mountain for future 
and present generations. While the overreaching goal of the Act 
is clear, the path in reaching our goal will be anything but 
smooth.
    Today, I want to focus on three issues, I believe, that are 
impeding progress toward achieving that goal. The first is that 
Oregon's Delegation should not try to fix every problem--
perceived or otherwise--that manifests, as we go through this 
arduous planning process. By way of example, when we agreed to 
the nation's first cow-free wilderness area on Steens Mountain, 
we did not fully appreciate, nor did the bill acknowledge, that 
it would take several years to achieve cow-free status in the 
newly formed wilderness area. And, while we could have raised a 
political fuss, we didn't. We decided, in the spirit of 
cooperation, we would let the process run its course. My point 
in raising this is to illustrate that whether the issue is 
access to private lands or ongoing livestock management, people 
need to exercise patience.
    Representatives Walden and Simpson, I know that you and the 
rest of the Oregon Delegation did not intend that the Steens 
Act would solve all the problems on Steens Mountain, which is 
why you established the Steens Mountain Advisory Committee to 
assist BLM in preparing a detailed management plan that 
addressed the myriad issues.
    The second issue relates directly the SMAC. Congress gave 
very explicit directions to BLM, to prepare a management plan 
with help of the SMAC. I believe the Committee is spending too 
much time--too much of its precious time--on issues secondary 
to completing the plan. I believe that in the short time left, 
the SMAC must focus its limited energy in completing the plan, 
and only when necessary, and as time permits, delve into the 
interim issues the BLM is having to contend with daily.
    The third issue--and, in my opinion, the biggest 
disappointment of the Steens Act--is the total absence of 
promised funding for land and easement acquisition and juniper 
management. Just within the Steens Mountain wilderness, there 
are nearly 5000 acre of private inholdings that pose a threat 
to BLM's ability to manage the area as wilderness. Some of 
these landowners have expressed a willingness to sell their 
lands to BLM, but there's no money. I, along with the Steens-
Alvord Coalition, firmly agree with Governor Kitzhaber, that 
potential development of private lands is a primary threat to 
the undeveloped integrity of the Steens Mountain landscape that 
people value so highly.
    All stakeholders who were party to drafting the Steens 
legislation agreed that acquiring land and easements from 
willing sellers would be part of the long-term strategy to 
achieve the goal of the Steens Act. Oregon's Delegation agreed, 
and Congress authorized, $25 million for land acquisition, and 
$5 million for juniper management. To date, no funds have been 
appropriated for these purposes. Representative Walden, the 
integrity of the process created by the Steens Act, and our 
ability in achieving the goal of the Act, hinge in large part 
to honoring this promise you and the rest of the Oregon 
delegation made to all Oregonians 2 years ago. Your commitment 
to ongoing funding was as much a part of the consensus 
agreement we made as the land exchanges, making ranch 
operations whole, and designating wilderness. For myself and 
many others, this promise of future funding for land and 
easements acquisition and juniper management was the carrot 
that convinced us to support national legislation over a 
monument proclamation, which, as you know, carries no of 
commitment Federal dollars.
    This is not to suggest there is no active role for Oregon's 
Delegation outside the appropriations process. First, Steens 
Act did not designate approximately 100,000 acres of WSA land 
within the management boundaries as wilderness. For political 
reasons, these wilderness designations were left on the table 
for another day, and it is our understanding Congress will 
revisit this issue when appropriate.
    Second, Congress may wish to legislate additional land 
exchanges, as currently being proposed for George Stroemple and 
others, to consolidate public and private lands, secure new 
wilderness, or eliminating inholdings. ONDA strongly supports 
the current batch of land exchanges, and encourages you to pass 
legislation this year securing these lands. As you know, during 
the course of the original discussions on the Steens Act, 
several important land exchanges, including a Scharff and 
Hammond exchanges, were dropped for lack of time to reach 
consensus. To the extent any land exchange meets the objectives 
of the Act, in particular when Congress is creating new 
wilderness, Congress should act immediately to secure these 
lands. Of course, we will be vigilant to balance any 
legislative exchange, to ensure that the public's interest is 
protected.
    Last, Congress should deal with any mistakes we made 2 
years ago, and you should rightly make the boundary 
assessments, which were recently approved by the Steens 
Mountain Advisory Committee.
    But Congress should not prematurely involve itself in 
management issues, in particular policy matters related to the 
Wilderness Act, that have not been fully debated, much less 
agreed too. The BLM has rules and regulations, along with a 
public process, that should be given a chance to work.
    In short, Representative Walden, Congress should not 
attempt to fix problems with implementation of the Steens Act 
that may be more perception than reality, or before the 
management plan has been completed. Congressional fixes may be 
necessary, but should be viewed as actions of last resort. Let 
the SMAC and the BLM carry out their respective duties. 
Legislative tinkering, at this juncture, only sends a message 
that the Steens model is flawed. I believe it would be unwise 
for us to send that message. If you want to help us keep moving 
forward, let's complete the pending land exchanges and boundary 
judgments, and appropriate at least some of the money we were 
promised 18 months ago for juniper management and land and 
easement acquisition.
    Representative Walden, thank you again for your leadership, 
time, and interest on this important issue. For the record, I'd 
also like to thank BLM district manager Tom Dyer and Miles 
Brown--area manager--along with the Burns district staff, who I 
think are doing a great job in a very difficult task. Thank 
you.
    Mr. Walden. Thank you.
    [The prepared statement of Mr. Marlett follows:]

 Statement of Bill Marlett, Executive Director, Oregon Natural Desert 
                              Association

    Representative Walden, thank you for the opportunity to speak on 
implementation of the Steens Mountain Cooperative Management and 
Protection Act of 2000.
    The path chosen for Steens was a novel course of action, one that 
attempts to balance competing interests, accommodate diverse 
stakeholders, and provide for direct citizen involvement with the goal 
to ``conserve, protect, and manage the long-term ecological integrity 
of Steens Mountain for future and present generations.''
    While the overarching goal of the Act is clear, the path in 
reaching our goal will be anything but smooth.
    Today, I want to focus on three issues I believe are impeding 
progress towards achieving that goal:
    The first is that Oregon's delegation should not try to fix every 
problem, perceived or otherwise, that manifests as we go through this 
arduous planning process. By way of example, when we agreed to the 
nation's first ``cow-free'' wilderness area on Steens Mountain, we did 
not fully appreciate, nor did the bill acknowledge, that it would take 
several years to achieve cow-free status in the newly-formed wilderness 
area. And while we could have raised a political fuss, we didn't. We 
decided, in the spirit of cooperation, we would let the process run its 
course.
    My point in raising this is to illustrate that whether the issue is 
access to private lands or on-going livestock management, people need 
to exercise patience. Rep. Walden, I know that you and the rest of the 
delegation did not intend that the Steens Act would solve all the 
problems on Steens Mountain, which is why you established the Steens 
Mountain Advisory Committee (SMAC), to assist BLM in preparing a 
detailed management plan that addresses the myriad issues.
    The second issue relates directly to the SMAC. Congress gave very 
explicit direction to BLM to prepare a management plan with the help of 
the SMAC. I believe the committee is spending too much of its precious 
time on issues secondary to completing the plan. I believe with the 
short time left, the SMAC must focus its limited energy in completing 
the plan, and only when necessary, and as time permits, delve into the 
interim issues BLM is having to contend with daily.
    The third issue, and in my opinion, the biggest disappointment of 
the Steens Act, is the total absence of promised funding for land and 
easement acquisition, and juniper management. Just within the Steens 
Mountain Wilderness, there are nearly 5,000 acres of private inholdings 
that pose a threat to BLM's ability to manage the area as wilderness. 
Some of these landowners have expressed a willingness to sell their 
lands to BLM, but there is no money. I, along with the Steens-Alvord 
Coalition, firmly agree with Governor Kitzhaber, that potential 
development of private lands is a primary threat to the undeveloped 
integrity of the Steens Mountain landscape that people value so highly.
    All stakeholders who were party to drafting the Steens legislation 
agreed that acquiring land and easements from willing sellers would be 
part of the long-term strategy to achieve the goal of the Steens Act. 
Oregon's delegation agreed and Congress authorized $25 million for land 
acquisition and $5 million for juniper management. To date, no funds 
have been appropriated for these purposes. Rep. Walden, the integrity 
of the process created by the Steens Act, and our ability in achieving 
the goal of the Act, hinge in large part on honoring this promise you 
and the rest of the Oregon delegation made to all Oregonians two years 
ago.
    Your commitment to on-going funding was as much a part of the 
consensus agreement we made as the land exchanges, making ranch 
operations whole, and designating wilderness. For myself and many 
others, this promise of future funding for land and easement 
acquisition and juniper management was the carrot that convinced us to 
support national legislation over a monument proclamation, which as you 
know, carries no commitment of federal dollars.
    This is not to suggest there is no active role for Oregon's 
delegation outside the appropriations process:
    1) First, the Steens Act did not designate approximately 100,000 
acres of WSA lands within the management boundary as wilderness. For 
political reasons, these wilderness designations were left on the table 
for another day, and it is our understanding Congress will revisit this 
issue when appropriate.
    2) Second, Congress may wish to legislate additional land 
exchanges, as currently being proposed for George Stroemple and others, 
to consolidate public and private lands, secure new wilderness, or 
eliminate in-holdings. ONDA strongly supports the current batch of land 
exchanges and encourages you to pass legislation this year securing 
these lands. As you know, during the course of the original discussions 
on the Steens Act, several important land exchanges, including the 
Scharff and Hammond exchanges, were dropped for lack of time to reach 
consensus. To the extent any land exchange meets the objectives of the 
Act, in particular where Congress is creating new wilderness, Congress 
should act immediately to secure these lands. Of course, we will be 
vigilant to balance any legislated exchange to ensure that the public's 
interest is protected.
    3) Lastly, Congress should deal with any mistakes we made two years 
ago, and you should rightfully make the boundary corrections which were 
recently approved by the SMAC.
    But Congress should not prematurely involve itself in management 
issues, in particular policy matters related to The Wilderness Act, 
that have not been fully debated, much less agreed to. The BLM has 
rules and regulations, along with a public process, that should be 
given a chance to work.
    In short, Rep. Walden, Congress should not attempt to fix problems 
with implementation of the Steens Act that may be more perception than 
reality, or before the management plan has been completed. 
Congressional fixes may be necessary, but should be viewed as actions 
of last resort. Let the SMAC and BLM carry out their respective duties. 
Legislative tinkering at this juncture only sends the message that the 
Steens model is flawed. I believe it would be unwise for us to send 
that message.
    If you want to help us keep moving forward, let's complete the 
pending land exchanges and boundary adjustments, and appropriate at 
least some of the money we were promised 18 months ago for juniper 
management and land and easement acquisition.
    Representative Walden, thank you again for your leadership, time 
and interest on this important issue. For the record, I would also like 
to thank BLM District Manager, Tom Dyer, Area Manager, Miles Brown, 
along with Burns District BLM staff, who are doing a good job on a 
difficult task.
                                 ______
                                 
    Mr. Walden. Cindy?

    STATEMENT OF CINDY WITZEL, RECREATIONAL PERMIT HOLDER, 
                       FRENCHGLEN, OREGON

    Ms. Witzel. Hi. Thank you for coming down here to see us 
all. I'm Cindy Witzel. I'm co-owner, with my husband, John, of 
Steens Mountain Packers. I'm on the Steens Mountain Advisory 
Council, as a recreation permit representative. And I've been 
guiding backcountry trips, river trips, et cetera, for about 21 
years--teaching people how to use wilderness and rivers and 
take care of those special places. And I'd like to start my 
testimony by elaborating a little bit on some things that are 
already in the congressional record, and in particular, the 
extensions to the congressional record. And, in there, there's 
a piece that talks about the commercial recreation permittees, 
and I'd like to list out who they were at the time of the Act.
    Those included Oregon Llamas, Broken Trails, Steens 
Mountain Running Camp, High Desert Outfitters, Pro Hunting & 
Fishing Consultants, Steens Mountain Packers, Spot Country 
Outfitters, and Brett Jansen Guide Service. And I'm not sure, 
out of the eight, which one has not renewed their permit at 
this time. Of those eight historic users that were defined in 
that legislation, their current and historic uses included 
cross-country, high-altitude running training; big-game 
hunting; bird hunting; fishing; multiple-day horse packing; 
trail riding; multiple-day llama packing; backpacking; day 
hiking; mountain biking; ATV touring; van and pickup tours; 
snowmobiling; cross-country and backcountry skiing, with or 
without motorized supports; snowshoeing; and snow-Cat touring. 
And, by the way, those are not just the commercial uses, but 
also the private-user uses.
    I'd like to talk a little bit about those uses and the uses 
that are consistent with the Wilderness Act. Walking, running, 
hiking, riding--Those are all nonmotorized uses that are all 
consistent with the Wilderness Act. Mountain biking, motor-
vehicle tours, ATV tours, helicopter landings--Those are uses 
that are inconsistent with the Wilderness Act. Under section 
115, the Steens Mountain Running Camp's use, Steens Mountain 
Packer's use, Oregon Llama's use--all of those uses are 
consistent with wilderness and the Wilderness Act, and 
certainly, Wilderness Act in the context of the Steens Mountain 
Act.
    I would like to take exception to the BLM's position on 
their interpretation of ``reasonable access to private 
inholdings.'' The Steens Mountain Act specifically says, under 
Title II, the Wilderness Act portion, that ``reasonable access 
to private inholdings will be authorized under Section 112 at 
the CMPA, Title I.'' It does not say that reasonable access 
will be authorized under the Wilderness Act--or, wilderness 
regulations. And, I think, therein lies the crux of the 
interpretation.
    I, also, would suggest a solution to the impasse which 
private landowners and the BLM are at, essentially, because we 
all receive letters asking for--if we have any need for access, 
to submit the request. They won't be receiving any requests for 
access, because nobody's going to be putting down how many 
times you're going to access your property. I would suggest 
that the BLM, perhaps, do a programmatic EA on access to 
private inholdings, if that's what they have to do. And 
historic access has been that we access properties when we need 
to, when--for whatever purpose we need, whatever time we need 
to. And, if they need to conduct some sort of public process, 
that would be it. I think it's completely unreasonable to 
subject a private landowner to public litigation for access to 
your private land, which is a right of that land.
    I also believe that the Wilderness Act talks about 
``adequate access.'' The Steens Mountain Act talks about 
``reasonable access.'' They're not even similar terms. The 
wilderness regulations talk about ``adequate access,'' and 
``reasonable access'' does not appear anywhere. And I think 
that we need to allow the Steens Mountain Cooperative 
Management and Protection Area to take on its own identity and 
move forward in this cooperative and collaborative process, in 
certainly a new way than what we have, as stipulated in those 
things that are completely different than what we have here.
    And, last, I'd like to elaborate, just a little bit, on 
some things that were said regarding special recreation 
permits, and those people that have been operating here without 
permits. In 1996, BLM sent out a request to a long list of 
people that were operating here illegally, asking them to get 
permitted. BLM, then, did not follow through on that. But, 
those people did receive notices. In 1999, BLM established a 
moratorium on new commercial permits for recreation, and, at 
the time of the Act, there was still a moratorium on those 
commercial permits, and they had established--Oh, I'm sorry. 
I'm out of time.
    Mr. Walden. Go ahead and finish.
    Ms. Witzel. Anyway, they had established the moratorium, so 
they can do a programmatic EA--so that they could do a 
recreation plan--and that never happened. And I would ask that 
every effort be made that, in this RMP, we have a recreation 
plan, so that we can have our authorizations for the Steens 
Mountain Running Camp, the Steens Mountain Packers--all of us--
taken care of, and we don't have to go through this big ordeal 
every 5 years. Thank you.
    [The prepared statement of Ms. Witzel follows:]

  Statement of Cynthia K. Witzel, Co-Owner, Steens Mountain Packers, 
Special Recreation Permit Holder Representative on the Steens Mountain 
                            Advisory Council

    Congressman Walden, Congressman Simpson, and members of the 
Committee, I truly appreciate the opportunity to speak to you today 
regarding the Steens Mountain Cooperative Management and Protection 
Area Act of 2000 (Public Law 106-399) and its ongoing implementation.
    The passage of the Steens Act, as you well know, was the 
culmination of a tremendous amount of effort not only on your part, but 
by the myriad of different stake holders within the boundaries of the 
area. Those of us who live here, raise our families here, and make our 
livelihoods from the land, vacillated during the process on a daily 
basis as to whether we should gamble on a Clinton Monument, or seize 
the opportunity for collaborative legislation. After many soul 
searching meetings and sleepless nights, we believed that the language 
embodied in the legislation protected our deepest concerns with a 
designation including protection for: ``the cultural, economic, 
ecological, and social health of the Steens Mountain area; historic and 
current recreation uses; reasonable access to private inholdings; not 
just protecting but promoting viable and sustainable grazing and 
recreation operations; and perhaps fundamentally most important that 
``nothing in this Act is intended to affect rights or interests in real 
property.''
    Following nearly two years of the BLM's implementation of the 
Steens Act, I am very disappointed. My frustration is not with the 
language of the Act itself for I still believe it addresses and 
provides solutions for the issues in front of us. My frustration is 
with the BLM. Whether the impetus for the BLM's actions comes from the 
local level, the state office, or the solicitors, the result is the 
same, the Act is not being interpreted as a whole. Pieces and parts of 
the language from the Act are used standing alone to make decisions 
which directly violate other provisions of the Act.
    The examples of this, particularly with regard to recreation and 
private land access, are many. I am happy to elaborate on specific 
examples at your request. From the very beginning, the BLM interpreted 
the Act to more significantly restrict road right of ways or boundary 
setbacks within the CMPA than even within Wilderness. Special 
Recreation Permit (SRP) holders were told in the spring of 2001 that 
there would be many changes that recreation season for use in the 
Wilderness, but BLM would not tell us what those changes would be 
making for a very unstable business environment. In the fall of 2001, 
BLM asked all of the historic SRP holders to submit massive additional 
paperwork and maps in order to complete EA's on their operations prior 
to the start of their authorizations this summer. In the meantime, the 
BLM is issuing SRP's to entities that were not legal historic permit 
holders without completing any EA's on their operations. The DRAFT EA 
which has not yet been finalized for Steens Mountain Running Camp does 
not include adequate language regarding the Cooperative Management and 
Protection Area and does not analyze any of the CMPA components in the 
critical elements section. This means that BLM is still not analyzing 
the social, cultural, or economic health of the Steens Mountain area 
and is not promoting viable and sustainable recreation operations. The 
EA's for the other seven historic permit holders will follow Steens 
Mountain Running Camps and will include much the same language. The 
historic recreation permit holders have virtually begged the BLM to 
complete a comprehensive programmatic EA and recreation plan on the 
entire recreation program to no avail. After numerous discussions over 
the last six months, BLM is not moving forward on including a 
programmatic recreation EA in the comprehensive Resource Management 
Plan required by the Act. Additionally, the SMAC has recommended by 
consensus that BLM implement a recreation monitoring and information 
gathering program, but BLM has disregarded the main thrust of the 
recommendation.
    The solution to the recreation and Special Recreation Permit holder 
issue lies in the BLM reading the Act as a whole, acknowledging that 
the Wilderness was created on equal footing with the other purposes of 
the Act, and within the Cooperative Management and Protection Area. 
Continued Congressional oversight is a must as this new animal, the 
CMPA establishes its own identity.
    I believe that it is premature to take the recreation issues before 
Congress for further resolution under new legislation. The process and 
elements of the Steens Act have not had time yet to work. If there is 
new legislation drafted to address these issues regarding SRP holders, 
it should include provisions for all of the historic special recreation 
permit holders as we are all under the same window of risk from those 
environmental entities who do not want any commercial activities to 
take place within Wilderness. Wilderness Watch (WW) has threatened all 
of the historic recreation permit holders permits with legal action. 
The Steens Mountain Running Camp EA is only the first of three EA's 
that BLM is completing as a result of WW's harassment. Perhaps a 
solution providing for different classes of special recreation permits 
such as Mr. Davies suggested can provide protection for the historic 
permittees while allowing new commercial recreation permits to be 
issued and meeting the purposes of the Act.
    Reasonable access to private inholdings both within the CMPA and 
the Wilderness are guaranteed by the Act under Section 112(e)(1). The 
BLM is insisting upon authorizing this access through a NEPA process 
whether they do so through the CFR 2920 permit regulations or some 
other creative cooperative agreement solution. The landowners did not 
agree to go forward with the Steens Act only to have the access to 
their private lands open for years of appeals and litigation in a 
public process. These private lands were homesteaded through the 
homestead Acts and access is a right attributed to the properties. The 
Steens Act does not mandate that reasonable access be authorized 
through this process defined by the Wilderness regulations. In fact, 
the Steens Act Title II, Steens Mountain Wilderness Area, specifically 
says that, ``The Secretary shall provide reasonable access to private 
lands within the boundaries of the Wilderness Area, as provided in 
section 112(d)'' within the Title I CMPA section, not as provided by 
the Wilderness Act. The Wilderness regulations themselves do not refer 
at all to the term ``reasonable access'', nor does the Wilderness Act. 
The Steens Act however, is different, manages inholder access 
differently, and uses different terminology. Additionally, the Interior 
Board of Land Appeals (IBLA) has ruled recently in a wilderness access 
case that if the Act under which a Wilderness Area was created has 
special provisions which are inconsistent with the Wilderness Act, the 
Act which created the particular Wilderness Area at issue supersedes 
the Wilderness Act. IBLA goes on to say that it is not necessary to 
codify in regulation a specific provision of an Act that effects the 
activities within one or a few Wilderness Areas, and that those 
provisions also supersede Federal regulations. The tools for 
implementing the Steens Act within its legislative intent, and in the 
context of the law are within BLM's hands. All the agency has to do is 
read the Act in its entirety, and apply its provisions with all 
purposes on equal footing. While those of us here on the ground know 
that you have a full plate back in Washington, your continued 
Congressional oversight of the implementation of the Steens Act is 
imperative for its intent to come to fruition. Again, I believe that we 
should allow the CMPA's identity to become defined rather than wade 
into new legislation at this time which may only complicate the 
purposes and intent of the Steens Act. If new legislation is proposed, 
it should specifically say, ``The Secretary shall allow access to non-
federally owned land or interests in land to allow the owner of the 
land or interest in the land full use and enjoyment thereof.''
    Finally, when I stepped forward to serve on the Steens Mountain 
Advisory Council (SMAC), I believed that it was a way in which I could 
offer my vast knowledge of the Steens, the public, and recreation, both 
as a business and an activity, to the BLM in developing a comprehensive 
resource management plan. I envisioned this plan to be something that 
would define how the Steens would be managed, and clear up the gray 
areas at least for the duration of the plan. I have found it 
frustrating to find that what we will have in 2004 is not going to be a 
plan, certainly not a plan in the sense that people in the real world 
have to create a plan. This RMP will really be just a big, fat policy 
statement that can be changed with the wind. There are certain things 
within the boundaries of the CMPA which really need a ``Plan'', not a 
policy statement, including recreation as a whole, public access, and 
juniper management. I have been frustrated by the spinning wheels 
within the SMAC when confronted with process or issues of whether or 
not we can participate in a particular issue. Specifically, there is 
conflict between the directives the Council is given by the Steens Act 
and the limitations imposed on it by its charter. FACA has raised some 
issues as well with conflict of interest clauses, an issue the Governor 
brought up in his recent letter to the SMAC, and other issues. 
Continued oversight is necessary to ensure the intent of the Steens Act 
and the legislatively created Council's mission are fulfilled.
    In closing, I have been asked my opinion of the Steens Act, and 
whether or not it has been a good thing, on more than one occasion by 
those in other areas considering supporting this type of legislation in 
particular in the Owyhee's. I am guardedly optimistic about the Steens 
Act, but am unwilling to jump on the bandwagon and tell those asking my 
opinion to support legislation for Wilderness within their own 
backyard. I believe the Steens Act balances competing interests and 
provides a way for the environment and the economic, social, and 
cultural health of the area to be protected. However, only through 
continued vigilance on the part of the Congressional delegation will 
the BLM interpret the law in its entirety, and within its original 
legislative intent. The devil is in the details so if I were giving 
input on new legislation it would be this: say what you mean, don't 
sugar coat it, get specific, and if it doesn't fly, well, then it 
wasn't meant to. The Steens Act gets specific, it talks about historic 
and current recreation uses and operations a multitude of times. 
Nowhere in the Act does it say that a use is eliminated or cannot 
happen. Yet even this language is not specific enough for the agency to 
move forward and implement the Act as a whole at least not as of yet.
    Thank you again for this opportunity and for your commitment to our 
community. I welcome your questions.
                                 ______
                                 
    Mr. Walden. Thank you. I want to add something to what 
Harland said, and if you want, Mr. Yriarte, we can put those 
letters in the official record, as well. So, they're here. And 
I'd also seek permission for the Committee to submit, for the 
record, an e-mail from Jill Workman, dated August 24, 2000, 
which I'll read in part from, because it is specifically 
addressed to the issue of the running camp, at a time when the 
legislation was being considered and there were issues being 
raised about how the running camp might be affected, as well as 
other special-use--or, recreation-use permit holders.
    But this one, specifically, was about the running camp, and 
I want to quote, because it's important. She says--and I won't 
read it all--but she says, ``...As chair of the Steens-Alvord 
Coalition, I'm writing to let you know that the Coalition views 
the running camp as relatively benign. We do not take issue 
with its continued existence, nor do we intend to attempt to 
incorporate into the legislation any language that would limit 
or force the running camp to change its operation. We do not 
know which portion of the legislation is causing such concern 
to the camp's owner. It seems apparent that the potential 
legislation was discussed with campers, both last and this 
summer.''--Some letters transpired--``As you may know, the 
running camp houses its campers in tents on private land. The 
campers spend the majority of their days running through the 
gorges of Steens Mountains, much of which is public land. I 
doubt that most visitors to the mountain realize the camp is 
there. The camp has a special-use permit from BLM, and we have 
not proposed any changes to that permit. I'm hopeful that 
addressing this matter now will keep the running camp from 
becoming an issue, as we attempt to move forward with consensus 
legislation. Please call...'' And this is Jill Workman, chair 
of Steens-Alvord Coalition, and I believe she was also a 
member--probably still is--of the Sierra Club.
    I submit this for the record, Mr. Chairman, because I think 
it really speaks to the collaborative process that we had going 
on at that time, trying to resolve these issues as they came 
up, so we all knew where we were as we moved forward. And I 
want to publicly, actually, say some nice things about Bill 
Marlett, that may surprise him.
    [Laughter.]
    But, he's been very honorable to work with in this process, 
and when he says, ``A deal's a deal,'' a deal's a deal. Now, he 
and I don't always agree, as you might have guessed, on 
legislative proposals. But, on this one, we did. And I want to 
speak to a couple of points you raised, Bill, because I think 
they're important, in terms of ``a deal's a deal.''.
    In each of the last two Congresses, I have submitted 
letters of request to the appropriators for funding, to help 
further implement the Act. And, in fact, did so again prior to 
the deadline this year--to seek funding. Unfortunately, there's 
nobody on the Oregon Delegation in the House that sits on the 
Appropriations Committee, so we submit these letters; we 
advocate for them; and we'll continue to try and get funding--
to continue to try and implement the Act. As far as the WSA's 
go--The flip side of the WSA's, as you and I had a rather 
spirited discussion, was that those that were left aside were 
there because we couldn't agree to put them in wilderness. But, 
beyond that, nor could we agree to release any WSA's that had 
been deemed by prior review not to be suitable for wilderness. 
And so, that sort of--Both those issues were set off the table, 
at some point. I think you and I have a different view on WSA's 
and release language, but I think, ultimately, that was the 
issue.
    And let me make a comment, too, because this issue of the 
proposed land exchanges, and all, has come up a couple of 
times. The boundary adjustments, I think, we can probably reach 
an agreement on, and probably be able to move forward on. But 
it seems to me that there's a missing element in these 
exchanges that are being considered under some draft 
legislation, and that is: Public input in the process. And 
before those can move forward at all, there's got to be some--
There's got to be more public vetting. And I think we also have 
to look very carefully at the land that's proposed for exchange 
with the forest service, because I think there's some community 
issues there, certainly in the Sisters area.
    So, it would be my intent, down the road, to make sure 
there are public hearings, that maybe we can get the Resources 
Committee at, again. But at least some public venues for here 
and in central Oregon, so people can address those--much like 
we did when we did the Steens legislation.
    I want to, next--I've got a couple of questions I'd like to 
ask, at this time, to Cindy Witzel. How is BLM's implementation 
actions and their response to Wilderness Watch's threat 
impacted your recreation operation? How is all that affecting 
you right now?
    Ms. Witzel. Well, I think there's a number of ways it's 
affected us. Originally, following the Act, in 2000 and the 
spring of 2001, BLM indicated to us that there were going to be 
substantial changes in our use in wilderness that season. And 
we asked them what those changes were going to be, and they 
wouldn't pin themselves down as to what those changes were 
going to be. We actually didn't advertise until quite late in 
the season, in June, because we were uncertain that we'd even 
really be able to run our trips, and we felt we'd have too much 
liability to the public to do that. And we solidified a lease 
on some private land, as a result, and then went ahead and 
advertised our trips. But we really took a hit that season. And 
since that time, we've spent a great deal of time--Harland, 
myself, the other permit holders, Jerry Temple--going to 
meetings, trying to negotiate a plan of action with the BLM to 
address the NEPA process. We asked and asked the BLM to do 
programmatic EA's, rather than individual EA's. They declined. 
They wanted to do individual EA's. And so, it's really cost us 
a great deal of time, and put a great deal of instability into 
our businesses--all of ours.
    Mr. Walden. I want to follow-up on a comment, Bill, that 
you made on the grazing on the cow-free wilderness, and I 
appreciate that the situation there is taking longer to 
phaseout. Can you tell me how that phase-out is going? Is there 
an agreement in place?
    Mr. Marlett. There's not a written agreement. There's more 
or less a verbal agreement, that it will proceed as quickly as 
possible. In part, it was based on the assumption, last year, 
of getting the monies appropriated for implementation of the 
fencing, and so on and so forth, which has since occurred. So, 
we're assuming that once those fences go up, that the cows go 
out. So, whether it's this year or next year, is kind of a moot 
point. It's just that--
    Mr. Walden. --it's moving in the direction to satisfy the 
Act.
    Mr. Marlett. Correct.
    Mr. Walden. OK. Let me ask your opinion of this question, 
that keeps coming up, about access to private property. How 
would you deal with this, in terms of allowing access to 
private property?
    Mr. Marlett. Well, this is why I complemented BLM, because 
I guess I wouldn't want have to deal with it, but--
    [Laughter.]
    Mr. Walden. Well, that's actually one of the problems, in 
both the Wilderness Act and a lot of the other Acts that we 
pass. We say ``adequate,'' we say ``reasonable,'' then we don't 
define what that means. So, we're to blame for this too.
    Mr. Marlett. Long-term, at least within the wilderness 
area--I mentioned there were 5000 acres, plus or minus private 
inholdings--At some point down the road, hopefully, we can have 
all of those private lands acquired, on a willing--by a 
willing-seller basis--and that issue goes away. In the 
meantime, BLM has to--They're stuck in a position of wanting to 
be able to tell someone who walks in their front door that, you 
know, someone's hiking through the wilderness area, and see 
someone, perhaps, driving a three-wheeler into their private 
access area--inholding. They need to be accountable. They need 
to tell someone who walks in the front door, that's, you know, 
from Seattle, and says, ``Gee, I thought that was a wilderness 
area, but I saw a three-wheeler riding through there.'' They 
need to be able to say, ``Well, yeah, that was Joe, and he's 
under permit, because he has private lands that he can 
reasonably access under this permit.''.
    So, you know, you have to balance between BLM's 
responsibility to be accountable to a wider public, coupled 
with the rights of the individual to access their inholding. 
And it's a balancing. And, so far, we've been working under the 
notion that, at least with the key stakeholders, that there's 
this element of trust and we will do the best we can to 
accommodate each other. And I think we've been doing a pretty 
good job. And I think for those who have private inholdings, I 
can empathize with how they feel, and I guess they just need to 
empathize a little bit with BLM's responsibility to a wider 
audience.
    Mr. Walden. Let me shift gears to the juniper management 
issue, which is a real one, and we've all had discussions about 
this. What do you feel needs to be accomplished, and what about 
in those WSA's? What kind of mechanisms do you think ought to 
be allowed in there, to accomplish the juniper management?
    Mr. Marlett. That's been, kind of, an ongoing issue. We--
the conservation community and the ranchers--agree that we need 
to deal with this issue, specifically, both in the wilderness 
and WSA's. We don't have any particular plan of action that 
we've agreed to. We just know that it has to be dealt with. You 
know, prescribed fire in some places. How do we go in and 
create the necessary fuel base to let fires carry, is kind of 
an ongoing question. Whether you can go in there with chainsaws 
and cut down the junipers, or--through some other means. We've 
toyed with ideas like using flamethrowers and things like that. 
I'm not sure that would be a nonmechanized vehicle.
    Mr. Walden. You and President Bush have something in common 
now.
    [Laughter.]
    He told me, when I flew with him on Air Force 1, that that 
was where he was headed next--was out to the ranch. And he's 
got some fancy flamethrower he uses to take care of--They call 
them ``cedars'' down there, in Texas.
    Mr. Marlett. Maybe we could put him under contract.
    Mr. Walden. Careful what kind of contract you describe 
here, too--to law enforcement.
    Mr. Marlett. Figuratively speaking. And it's something that 
we don't--Like I say, we don't have agreement on. But, we are 
committed to working together, to find a solution. In fact, 
we're--If we haven't already--submitting a grant proposal. It 
was a joint effort between Roaring Springs Ranch and ONDA. I 
mean, we want to find some way to make this work, in such a way 
that Stacy Davis gets up here next time and says, ``I want more 
wilderness, because, heck, we can do what we need to do on 
juniper.''.
    Mr. Walden. What about this--Let me ask you--This whole 
issue of these special-recreation permit holders. It seems to 
me that when we had these discussions and put together this 
Act, it was our intent to preserve their historic ability to do 
what they're doing on the mountain. Wouldn't you agree?
    Mr. Marlett. Yes.
    Mr. Walden. And how do we do that, in this context of 
Wilderness Watch coming in and, basically, I think, publicly 
saying they're going to sue Harland's effort, no matter what? 
Is there a way to do this?
    Mr. Marlett. Well, I'm not sure that we were the--Well, I'm 
not sure we were the perfect draftspeople, when we crafted this 
Act. There's only a certain level of prescription that you can 
write into a piece of legislation. We did the best we could, 
and I guess my gut feeling is that there's enough intent, both 
in writing and between the lines, that BLM could hold off the 
challenge, if need be. I do not want to take away anyone's 
right to challenge any decision the BLM or government agency 
makes. I mean, that's--It is a democracy, and we all have that 
right to challenge the BLM, if we don't like their decision. 
You know, the question more is: Can BLM craft a document that 
clearly reflects the intent of the legislation? That's what it 
boils down to.
    Mr. Walden. Thank you. Mr. Chairman?
    Mr. Simpson. Thank you. And thank you--all three of you--
for your testimony. I really don't have any questions. I've 
just got some observations.
    I always like to try and--The comment ``willing seller, 
willing buyer''--I know we put that in language all the time. 
If we deny access to private inholders, I guarantee you're 
going to create a whole lot of willing sellers. Somehow, we 
need to make sure that willing sellers are truly willing 
sellers. And the idea of someone owning private property and 
not being able to access it--It's bizarre almost. And that 
means being able to access my property when I want to go there. 
That's why I bought it. That's why I own it. So, I find this 
whole debate about access kind of strange.
    And I think what happens--and this concerns me, relative 
not only here, but what I'm working on, as I mentioned in my 
opening statement, in Idaho--is that we get people together, in 
a local area, and we decide ``We've got an area. Yeah, we want 
to protect it.'' And we develop a plan. And I think that if you 
ask 99 percent of people around here, my own observation about 
whether this running camp ought to exist there, when this was 
done, they'd say, ``Yeah. It's a good thing.'' Or, that Packers 
ought to exist, and those uses that were there ought to exist, 
yeah--that that's a good thing. And so, you get together with 
the people that are involved, and the people who have an 
interest, and the local people--whether it's environmentalists, 
ranchers, whatever--They come together and they reach an 
agreement. And we put it into words and draft legislation and 
pass it in Congress. And then, groups that were never a party 
to it--that are outside groups--come in and decide that they 
are going to interpret it, they're going to challenge every 
decision that's made, they're going to sue everybody. And I've 
got a real problem with that. And I suggest--And I agree with 
you, Bill. I don't want to take away people's constitutional 
rights to challenge decisions made by government, and so forth. 
But this management-by-lawsuit that we've got going on in this 
country, somehow has to end.
    Right now, the forest service tells me, as an example, that 
they spend between 25 and 50 percent of their resources making 
a good decision, based on the science, the facts, everything 
else. And then, between 50 percent and 75 percent of their 
resources trying to make it bulletproof to lawsuits. And that, 
to me, is an enormous waste of resources, that could be used in 
proper management of our lands. I suspect the BLM would have 
those same types of figures--That they spend an inordinate 
amount of time trying to make decisions that they make, in the 
public's interest, bulletproof from somebody that's going to 
sue them on one side or the other. They know whatever decision 
they make, they're going to get sued.
    But, oftentimes, where local people and local groups could 
sit down work and work out these problems--and this Advisory 
Council is a good example--Then, all of a sudden you've got--
What is it?--Wilderness Watch, who was not really involved in 
the decision of all this, now deciding that they are issuing 
these kind of reports that Harland talked about, and deciding 
that they are going to file lawsuits on some of these things. 
As I've talked to the environmentalists that we are working 
with in my area on trying to create a Boulders-White Cloud's 
wilderness area--They've actually said to me, ``You know, one 
of our problems, from our point of view, is that we can create 
a decision here, that we did all agree with, and it will go to 
Congress, and we may have some of our national environmental 
groups come out opposed to it.'' And I've told them, ``If that 
happens, I expect you to be at the witness table testifying in 
favor of it, even though your ties--your economic ties--to 
those national groups may make you think twice.''.
    As we come to an agreement where we can manage something--
we can make a decision--then I want you in favor of it, not out 
here saying, ``Well...'' and backing off of it. And they've 
agreed that that's something that they have to do. And I'd 
suggest that, should some of these outside groups come in and 
try to challenge some of these recreational permits or whatever 
that's going on there, or some of these access issues, that if 
these people that are on this Advisory Council that are working 
on these issues--They need to stand together. If that means 
that the environmentalists on those groups disagree with them, 
they need to stand up and say so. And they need to be on the 
other side when they go to court, and say, ``You're wrong. This 
is not what we agreed to.'' And I respect Congressman Walden's 
opinion--When you say, ``A deal is a deal,'' I've found that to 
be true with you, and with many other people that I've talked 
to, and many other people in the environmental community. But 
they do have problems, sometimes, with their national groups.
    So, if they challenge a suit, and you've decided, and this 
group's decided, that this running camp is something that was 
really contemplated in this legislation--maybe not written in 
the best way possible, but was contemplated that it had minimal 
use--diminutus impact, as was written, or said, in the 
statement that Congressman Walden read--and that was something 
that everybody agreed to--would expect you, and the other 
people that were involved in this from the start, to stand up 
and say so. And to say so to these national groups that come 
in--and say, ``If you're going to file suit, you're going to 
have to file it not only against him, but you're going to file 
it against the BLM, and you're going to file it against us, 
too, because we're going to be on the other side of this 
issue.''.
    And that's how I think we can manage and maintain some 
local control of these decisions where we can actually reach 
some agreements and do some good management and create and save 
and protect some of this property that we all agree we need to 
do. I don't know if you have any response to that, but that's 
just, kind of, my observation, rather than anything else. But I 
do appreciate all of you--your testimony, today. Thank you very 
much.
    Mr. Walden. And I just going to say, Congressman Simpson, 
that I think when this got to the Congress, some of what we had 
agreed to here--We ran into some roadblocks with the national 
groups, but got over those at that point. And I think--I mean, 
correct me if I'm wrong here--But, I think the National Sierra 
Club--Didn't the Wilderness Society, the Nature Conservancy, 
all endorse the legislation?
    Mr. Marlett. That's correct.
    Mr. Walden. Nationally. And Mr. Marlett helped with that 
end, for this to occur.
    Mr. Marlett. For the record, I just want to--And I'm not 
taking any position, or saying anything that should be 
construed as adversarial, by any stretch--But, in the heat of 
the discussions, when we were coming to an agreement, there 
were a lot of things--a lot of details--that were just, kind 
of, flying under the radar screen. And what we're seeing now is 
part of what happened back then, 2 years ago, that there wasn't 
a whole lot of discussion on a lot of issues--that it was more 
in the conceptual level up here--and now we're paying the 
price. And part of that is, you know, no one's fault at all. 
It's just that we were working in a very short time duration, 
trying to make a lot of decisions quickly, and, as a 
consequence, not a lot of discussion went into every single 
issue.
    Mr. Walden. Although, I can remember some paragraphs that 
took weeks.
    [Laughter.]
    And some words--individual words.
    Any other comments? Thank you very much. Mr. Yriarte, we're 
going to invite you back to testify in Washington, too, because 
we've never had a Basque testify with quite the flair that 
you've brought.
    [Laughter.]
    OK. We'll call up our final panel this afternoon. Mr. Stacy 
Davies, Manager, Oregon Springs Ranch; Mr. Fred Otley, a 
grazing permittee; and, Mr. Jerry Sutherland, from the Sierra 
Club.
    Mr. Walden. Stacy, why don't we go ahead and start with 
you? Before I do, let me just say that--for all of you in the 
prior panels, too--Your prepared statements have been made part 
of the official record. You're welcome to work from those, or 
submit them, and address other issues, as well. So, welcome to 
each and every one of you. Thank you for coming over and being 
here.
    Stacy, with that, I'll start with you.

  STATEMENT OF STACY DAVIES, MANAGER, ROARING SPRINGS RANCH, 
             GRAZING PERMITTEE, FRENCHGLEN, OREGON

    Mr. Davies. Thank you very much, Congressman Walden and 
Congressman Simpson, for being here and inviting me to speak at 
this hearing. One of the things we struggle with on the ground 
is: How can we direct an agency to--How can we direct and 
agency to change their direction? There's litigation; there's 
legislation; there's advisory group efforts; and individual 
lobbying. And some of those are, obviously, more effective than 
others. And I get, you know, really cranky with the fear the 
agency has all the time with possible litigation. I really 
appreciate this effort, through the legislative body, of giving 
them direction. That's very, very helpful.
    I was just handed a letter from the Snowmobile Club, that 
they want me to read in--and I won't read my entire--my entire 
written testimony, as it would be redundant. And I would ask, 
maybe, that this could be submitted as part of the official 
record.
    Mr. Walden. Sure. And, again, for people in the audience, 
there's 30 days to submit written testimony for the Committee, 
that will be accepted.
    Mr. Davies. I wish I had a little more time. I could have 
read this and paraphrased it. So, I'm just going to read part 
of it.
    ``As you're aware, since the passage of Steens Mountain 
Cooperative Management and Protection Act, there's been a great 
deal of frustration among those historic recreational users of 
the mountain, whose rights to continue to recreate on the 
mountain were thought to have been assured. At public meetings 
and different forums on and off the mountain, we have seen 
several examples of BLM employee's selective use of portions of 
the language of the Act, not merely to impede, hinder, or delay 
recreational use, but to actually completely obstruct or 
prevent snowmobiling anywhere on the mountain, except on the 
main roads and private property. Many of us feel that this is 
inappropriate, unacceptable, and contrary to the intent and 
purpose of the Act itself.''.
    I'll stop at that point. And I totally agree with the 
things that were said there. And I like the way it was 
written--that it's broad recreation. Snowmobiling was stopped 
on the mountain. I see great concern as we move into summer and 
fall, for the hunters and fishermen, as they try to access some 
of the places they have in the past. The interpretation the 
Agency's taken on recreational access is not what we intended.
    EA's should not be necessary for continued activities. An 
EA was not completed to stop grazing on the mountain. It was 
mandated by the Act. Historical and continued access to 
property was mandated by the Act. I see no reason an EA should 
be conducted on that activity. The cost of an EA--the cost of 
participating in the processes for an individual operator--
Harland; Cindy; any of us, as ranchers--When an EA is conducted 
on our permit, we spend a great deal of time and effort and 
money in that process. And that hurts our economic 
sustainability. Some of these operations are small enough that 
the amount of time they spend--For example, Harland, and those 
who are with him, said, this morning, that copies for this 
hearing were 160 bucks. When you take the minimal--And the 
EA's--the e-mails and the phone calls and trips to D.C., and 
things that go on, surrounding an environmental assessment--
cost of meetings with the Agency--those things add up the cost. 
And it needs to be taken into account.
    Economics are very, very difficult for the agency to 
analyze. The Steens Act mandates they consider the economic 
sustainability of the operations--that they analyze the social 
impacts, the cultural impacts, as well as the ecological 
impacts, of their decisions. And we need to make sure that they 
do that. They've never done it in the past, and they need to 
begin to do it. That's one of the things that separates the 
Steens Act from anything else.
    One way to accomplish that is programmatic EA's. They 
consider a use, in a broad scope, and I think they could do 
most of those through the EIS. Then, those costs and those 
difficulties would go away, to quite an extent.
    One issue that has not come up is wildfire management on 
the mountain--the impact of wilderness designation of the 
ability of the local people to manage that fire. On Steens 
Mountain, there are good fires and bad fires. The local people 
are good people. They need to be able to make those decisions. 
The local are good people, and they are able to make a lot of 
good decisions, as long as we keep the state and national 
offices out of the way. I say that pretty bluntly, but I'm 
getting tired of it. We can never pin them down on--They always 
say, ``No, we can't do this. No, we can't do that.'' Well, why 
can't you do that? And it's always a spin job. I liked 
Harland's definition of ``spin.'' Bureaucrats are better at it 
than anyone. And so, we need to get a level where the local 
people can do the things they're meant to do, and they do a 
good job of it, and I commend them for it.
    My vision, when I participating in the creation of the Act, 
was that we were creating an area that would have innovative, 
cooperative, proactive, positive management--collaborative 
management. We would work together--those of us with different 
interests--and we'd find solutions--solution oriented. As I 
look at the RMP that's being developed, and a lot of the 
actions that have taken place--It's the same old ``take it, 
mandate it, force it'' kind of a situation. And I hope that we 
can find a way to get past that, and get into the process of 
finding innovative, cooperative methods of managing for 
economic, social, ecological, and cultural boundaries. Thank 
you.
    Mr. Walden. Thank you.
    [The prepared statement of Mr. Davies follows:]

 Statement of Stacy L. Davies, Manager, Roaring Springs Ranch, Grazing 
      Permittee Representative on Steens Mountain Advisory Council

    Congressman Walden and members of the Committee, thank you for the 
opportunity to testify before you this day regarding the Steens 
Mountain Cooperative Management and Protection Act of 2000(Public Law 
106-399)
    A great deal of effort and time was expended on creating the Steens 
Mountain Cooperative Management and Protection Area (CMPA). It is a 
noble and innovative Act that protects the Cultural, Economic, 
Ecological, and Social health of Steens Mountain Area for present and 
future generations. The ``Steens Act'' clearly protects people and 
their use equally with biological, geological, and ecological type 
values. It laid out a framework for the Bureau of Land Management to 
work cooperatively with landowners, permittees, and users of the 
mountain to achieve common goals. A process and committee were designed 
to assist the BLM with ongoing unique and cooperative management 
efforts in the future.
    Implementation of the Act has been very disappointing on many 
fronts. Success has been achieved on other fronts. I will address six 
areas where solutions need to be found; in addition I will discuss 2 
areas of success which could serve as a pattern for finding solutions 
to the difficult areas.
    I will preface the problem areas with what I believe to be the root 
of the problem. The agency should have allowed the status quo to 
continue until the management plan or decision document for change was 
completed. Instead the agency took an extreme protection/
preservationist position and stopped many activities until a decision 
document allows the use to resume.
    Access to private property. Landowners have accessed their property 
at will since the first homesteads were taken up, over one hundred 
years ago. Within weeks of passage of the Act, November of 2000, 
landowners were verbally put on notice that they will be required to 
obtain a permit or lease to access their property. The permits would be 
issued for three-year terms after going through a full blown 
environmental analysis process. Each renewal would require a full 
environmental assessment as well. Leases could be longer term but a 
yearly fee will be required. Number of trips per year and timing of 
trips could have heavy stipulations attached under either the permit or 
lease.
    Historic and reasonable access is guaranteed under the Steens Act 
and the Wilderness Act. Economic stability is dependent on ones ability 
to access the property. The ``Steens Act'' specifically states: 
``Nothing in this Act shall affect any valid and existing right.'' 
(Section 4) Also, Section 122(d): ``Relation to Property Rights and 
State and Local Law--- Nothing in this Act is intended to affect rights 
or interests in real property or supercede state law.''
    Specific language regarding private property access from Section 
112(e)(1): ``Reasonable Access--The secretary shall provide reasonable 
access to non-federally owned lands or interests in land within the 
boundaries of the Cooperative Management and Protection Area to provide 
the owner of the land or interest the reasonable use thereof.''
    Reasonable access for the reasonable use of ones land should not 
require NEPA analysis and the potential appeal and litigation that 
follows.
    Currently the SMAC and landowners are working with the BLM to see 
if some sort of Cooperative Agreement for access can be written to 
satisfy all interests. If this cannot be accomplished we may need a 
definition of reasonable from congress.
    I would strongly suggest the following language be used in any 
future wilderness or designation type legislation that contains Private 
land or access to private land. ``The secretary shall allow access to 
non-federally owned land or interests in land to allow the owner of the 
land or interest full use and enjoyment thereof.''
    Section 112(c) of the Act specifically says that: ``Any 
determination to permanently close an existing road in the CMPA or to 
restrict the access of motorized or mechanized vehicles on certain 
roads shall be made in consultation with the advisory council and the 
public.'' Many roads have since been closed and access restricted 
without consultation of the public or the advisory council. I think 
this is a blatant example of the extreme position the agency took at 
the beginning. I have seen the BLM come back to the middle on many 
issues and this particular issue will get full review as the 
transportation plan is developed. Although, reopening some of these 
roads may require congressional oversight.
    Special Recreation Permit (SRP) operators are currently in great 
danger. The original eight SRP operations were to be protected and 
allowed to continue operating at historic levels and ensured 
sustainable operations.
    The BLM with some pressure from outside groups is currently 
threatening the future of these operations with stipulations and 
harassment that significantly threatens their sustainability. 
Meanwhile, new operations are being issued permits with no NEPA 
documentation and limited operating plans.
    For many years the agency has stood by while illegal SRP operations 
were being conducted. Increased scrutiny forced the BLM to issue 
permits to allow many of these operations to become legal. Those who 
operated legally for years continue to be penalized, while those who 
skirted the rules in the past are now being issued permits.
    The original eight should be grandfathered in and given a Class A 
permit. Those who operated in the past illegally, could be permitted 
with a Class B permit after full environmental analysis and only if it 
is not at the expense of or in competition with the original eight. 
Completely new permittee's might be allowed a permit after full 
analysis and only if the permitted use is not at the expense or in 
competition with Class A and Class B permittee's. This classification 
system does not currently exist within agency regulations and should be 
analyzed in the upcoming Resource Management Plan.
    Statements were made that grazing permittees and wildlife interests 
would prefer wilderness designation to Wilderness Study Area's. The 
point being made was that Wilderness Study Areas carried a non-
degradation restriction that would be lifted with Wilderness 
designation that allows for management activities to occur. None of us 
believed it to the full extent of the statements, but we did feel and 
were assured that the Arizona guidelines would protect our ability to 
use mechanical means of maintaining our grazing operations in an 
economically sustainable manner.
    Currently no machinery is allowed within the wilderness area until 
the BLM completes an environmental assessment allowing use of 
machinery.
    As grazing permittees we were assured that our operations would not 
change significantly. We interpret the Act to say that economic 
sustainability is of equal importance to ecological protection. 
Economic sustainability, the natural landscape and rough roads limit 
the use of machinery to a minimum number of trips necessary. Further 
limits placed artificially through BLM regulation is contrary to our 
interpretation of the Act and could threaten economic sustainability of 
grazing operations. I will certainly speak loudly in opposition of 
future Wilderness designations if the extreme preservationist 
interpretation is allowed to stand and grazing operators are negatively 
impacted.
    There is clearly disagreement and lack of clear direction for the 
Steens Mountain Advisory Council. Conflicts between the Federal 
Advisory Committee Act, BLM regulations, the Steens Act, and the 
charter sent from the National office has caused a great deal of 
confusion within the meetings. Certain members of the committee appear 
to be trying to stall any progress the committee tries to make and the 
confusion between the before mentioned documents allows turmoil to 
prevail. In addition, many of the unique and new approaches that are 
discussed are immediately dismissed or even cut short by the BLM as the 
solution is inconsistent with one of their many policies or 
regulations.
    Can the SMAC make recommendations to congressional members or are 
all recommendations to be made to the Secretary of Interior?
    The agency is banned from discussing legislative issues and making 
recommendations to congressional members. Can the SMAC committee 
discuss legislative issues?
    Many of the ``unique and new approaches to the management of lands 
within the area'' will stretch the comfort zone of BLM managers and 
solicitors. Can congressional members help the agency personnel find 
ways to accomplish the recommendations?
    Section 132 covers the responsibilities of the council, 
specifically the council is to make recommendations to the Secretary 
regarding: (a)(2) states: ``cooperative programs and incentives for 
seamless landscape management that meets human needs and maintains and 
improves the ecological and economic integrity of the CMPA.'' The BLM 
never analyzes human needs or economic integrity. We are finding the 
BLM is having great difficulty considering many of the mandates the Act 
requires them to consider.
    New legislation is not presently necessary but continued oversight 
and assistance from congress is going to be essential for the full 
cooperative potential and innovative intent of the Act to be obtained.
    General public recreational use is being limited on most public 
land on the mountain. As the recreating public comes to the mountain 
and is restricted on public lands more and more use is occurring on 
private lands.
    Fragmentation of the landscape by forcing landowners to manage 
property along ownership boundaries rather than cooperation between 
landowners allowing landscape management was a critical purpose in 
drafting the legislation and one of the primary damages a monument 
declaration would have caused.
    The greatest attraction of Steens Mountain has always been the 
unconfined recreational opportunities. The ability to drive a two-track 
road and have a family picnic in a lush mountain meadow. The seclusion 
of undeveloped camping spots hidden in aspen groves. The tradition of 
family deer camps in the same juniper patch around the same handmade 
fire ring.
    This past winter, snowmobiles were not allowed to use the mountain 
as they have in the past. In fact use was only allowed on the loop road 
and on private land. As summer begins and the fishermen arrive will 
they only be allowed on private land? As fall approaches where will 
hunters be allowed to hunt? The many families that have traditions of 
camping or picnicking on the mountain; will there use be allowed?
    The Act guarantees historical recreation will continue. 
Unfortunately, it does not allow motorized vehicles off road unless 
they are on a designated trail. What is the definition of a road? The 
current definition used by the agency disqualifies nearly every route 
on the mountain. What many would call a road is considered a way under 
agency definition. Therefore, it will be critical that numerous trails 
are designated for motorized vehicles in the transportation plan. I 
would suggest that trails may need to be 2000 feet wide along aspen 
groves to accommodate campers to pull off the road in an enjoyable 
camping area. An area for snowmobiling must be designated as a 
motorized trail. It may need to be several thousand acres. 
Congressional oversight on this issue is going to be necessary to avoid 
thousands of unhappy families who are left without a place to recreate.
    Is it right to close the public lands to public recreation and 
expect the private landowners to continue to allow more and more use?
    Funding for Juniper management and to fulfill section 114, 121, and 
122 of the Act. The Steens Mountain Advisory Council and various other 
interested parties have repeatedly requested the appropriation of five 
million dollars to fulfill the authorization found in Section 702. More 
specifically; Cooperative Agreements, Non-development Easements, 
Conservation Easements and Acquisitions of property are essential 
elements of the compromises which were made to allow enact the ``Steens 
Act''. The SMAC in addition to non-official collaborators have agreed 
that the $5 million be divided equally between acquisitions, easements 
and agreements. I would recommend that the appropriations language 
specifically reflect this agreement by saying: ``$2.5 million be 
appropriated to fulfill sections 121 and 122 of Public Law 106-399 and 
$2.5 million be appropriated for section 114.'' $5 million was 
authorized for juniper management under section 501'' ). Requests have 
been made for a $1 million appropriation at this time.
    This funding is critical for continued cooperation between various 
interest groups. The easement and cooperative agreement money is 
important to fund projects necessary for ecological, economic, social 
and cultural health.
    These five items are what I feel are the highest priority problems 
needing resolution. Following are 2 of several examples of things I 
feel are successes.
    Due to the delay of organizing the SMAC committee, many of the 
stakeholders and interested parties who were involved in the 
legislative process met with the BLM and compromised a transition 
agreement for grazing permits from use to non-use allowing phase in of 
the livestock free wilderness area. In addition, support was gained for 
the projects necessary to allow sustainable grazing operations to 
continue on the remaining areas. Funding for the projects was slow to 
come but eventually did and the BLM is on track to finish the projects 
in the appropriate time frame.
    Juniper control efforts have continued forward as previously 
planned. Several prescribed fires and numerous juniper cuts have been 
completed in the interim. Planning for new projects has also continued 
without interruption. Environmental community representatives and user 
group interests have continued communication and assisted the BLM when 
and where needed.
    The success story I find of importance here is that multiple and 
varying interest groups which normally do not get along are 
collaboratively working together to accomplish a goal. Discussions in 
the random, informal meetings are solution oriented and positive. What 
is the difference between this collaborative group and the more formal 
SMAC? How can SMAC meetings become more solution oriented and positive?
    In summary, it has been very disheartening to see how quickly 
people have lost sight of the vision and focused on details, and become 
focused reasons not to change rather than solutions to make it better. 
The bureaucracy, worry about process, requirements dictated by policy 
or regulation have stopped innovative thinking. Cooperative-landscape 
management is impossible if innovative thinking is not allowed. It has 
become obvious that the National Landscape Conservation System office 
in Washington D.C. cannot differentiate the Steens Mountain Cooperative 
Management and Protection Act of 2000 from the National Monument 
declarations made through the Antiquities Act. The State and National 
BLM offices will have to fully support the purposes and opportunities 
within the Steens Act or the vision of cooperative-landscape level 
management will have utterly failed. Solutions will need to be win-win, 
proactive, innovative, and inclusive. An attitude of ``I can'' will 
need to prevail rather than the too common attitude of ``the policy or 
regulation won't allow it''. Local control and local people making 
management decisions will be essential to success. I ask that the 
Congressional Subcommittee on National Parks, Recreation and Public 
Lands continue to give oversight and support to the BLM and Steens 
Mountain Advisory Committee in ensuring the purposes of the Steens 
Mountain Cooperative Management and Protection Act of 2000 are 
fulfilled.
                                 ______
                                 
    Mr. Walden. Mr. Sutherland?

  STATEMENT OF JERRY SUTHERLAND, SIERRA CLUB, PORTLAND, OREGON

    Mr. Sutherland. Thank you, Representatives Walden and 
Simpson. Thank you for this opportunity to discuss the 
management of Steens Mountain, on behalf of the Sierra Club and 
those environmental groups who cannot be here today, including 
Wilderness Watch. Representative Walden, your letters--your 
efforts--in getting the Steens Mountain Cooperative Management 
Protection Area designated are much appreciated by all of us, 
as are the efforts of the rest of Oregon's Delegations. And 
it's nice to see Lindsay back, to maybe, take some credit on 
that as well, for all of his hard work.
    I would like to start by complementing Secretary Norton, 
for her selection and support of the Steens Mountain Advisory 
Council. SMAC members have all worked long hours to represent 
their interest groups. The fact that they can put up with me 
for 2 days in a row speaks well for their temperament. BLM 
Director Clarke should be proud of the Burns district office. 
District manager Tom Dyer is obviously committed to making this 
process work, as is the SMAC's designated Federal official, 
Miles Brown. They have engaged all the interests in your 
efforts, to assure the Oregon's newest wilderness takes a place 
of honor in the national wilderness preservation system.
    If you judge by the size of my files and the length of our 
minutes, the SMAC has covered a lot of ground in 8 months. But, 
as others have noted, we're falling behind in our primary task 
of helping BLM write the management plan for Steens. Some of 
this is to be expected, considering it takes a while for any 
group to become familiar with each other, establish procedures, 
and learn the laws and regulations that apply. We also are 
breaking new ground at every step with Steens. And I'm not 
quite sure ``breaking ground'' is a great analogy for an 
environmentalist, but I didn't have a better one, so I used it.
    I do think that we could change some things that have 
slowed us down a bit, like micromanaging BLM. It is 
appropriate, at times, for the SMAC to help resolve contentious 
issues, when they threaten implementation of Steens and when we 
can do something about the issue of concern. Our deliberations, 
enabling the Roaring Springs Ranch exchange to proceed, is a 
good example. On the other hand, we cannot change laws and 
regulations. So, trying to accommodate all those in Harney 
County who claim to have been promised, verbally, things, 
during the Steens negotiations, is nonproductive. If we did 
this, we would also have to consider all those outside Harney 
County, who felt promises were broken. Trying to resolve these 
contrasting claims, with only verbal promises, would be a 
nightmare. At some point, we have to go--get out of this, and 
go on with implementation, as it was written in the 
legislation. In the future, if we can't work this out, then 
legislation might be necessary. But, for now, we need to go 
with what we've got in writing.
    Conflict of interest, I think, has been more of a factor 
than imagined on the SMAC. SMAC members, with business 
interests on Steens, are understandably concerned about their 
own welfare and their way of life. This is understandable. I 
empathize with it, and I think they have handled that sort of 
stress far better than I would have. The problem is, in terms 
of how long it's taking us to get through this process, is that 
it makes it very difficult for us to talk about certain things, 
or to bring up certain ideas, to get even started with. The 
other part of it is that, if it doesn't go--If they feel too 
threatened by it--The next step is to go to--for congressional 
influence--to try to force the SMAC or the BLM into doing a 
certain thing. This may or may not be effective. The problem is 
that it slows the process down, because rather than buckling 
down and slugging it out--like we did on the Roaring Springs-
Tabor Cabin issue--It gets deferred to further meetings, in the 
hope that there will be rescue coming in from outside.
    We have recently spent time on new Steens legislation--
another thing that slowed us down. While we need to be kept 
informed of such things, we cannot make legislative 
recommendations. We are an advisory to an administration. So, 
doing all of this took up time in meetings. Having said all 
this, I think we're not terribly far behind. If we stay focused 
on the management plan, we will meet the deadline. I enjoyed 
being on the SMAC. I enjoyed working with my fellow members and 
learning from them. I hope the good folks of Harney County, and 
the rest of Oregon, will give the SMAC and the BLM a chance to 
do the job we were assigned. Thank you, again, Representatives 
Walden and Simpson, for holding this hearing. I, too, would 
like to have more of them in Frenchglen.
    Mr. Walden. Thank you.
    [The prepared statement of Mr. Sutherland follows:]

Statement of Jerry J. Sutherland, Member, High Desert Committee, Oregon 
 Chapter, Sierra Club, Statewide Environmental Representative, Steens 
                       Mountain Advisory Council

    Thank you for providing this opportunity to discuss implementation 
of the Steens Mountain Cooperative Management and Protection Act of 
2000 (the Act), and the relationship of the Bureau of Land Management 
(BLM) and members of the Steens Mountain Advisory Council (SMAC). All 
those who participated in passage of this very special piece of 
legislation are to be commended, especially Representative Walden and 
his staff (at the time) Lindsay Slater who played significant roles.
    Though I am a Sierra Club activist, it is my intention to speak 
also on behalf of those I represent on the SMAC who cannot be here 
today.
    Since this Subcommittee has oversight over the Department of 
Interior, let me start by giving credit to Secretary of the Interior 
Gale Norton for her selection of SMAC members. Besides my being an 
obvious choice, I mean (seriously) to complement my fellow members, 
from whom I learn new things at each meeting. Every affected interest 
on Steens can feel confident that their concerns are being represented 
aggressively. The fact that my fellow SMAC members are able to put up 
with me for two days in a row speaks highly of their temperament.
    Secretary Norton and BLM Director Kathleen Clarke can both be proud 
of the long hours and hard work the Burns BLM office has put in dealing 
with interim management issues and supporting the SMAC. The challenges 
they faced were many.
    Prior to the SMAC's first meeting, the Burns BLM had to make the 
calls themselves. All sides were pressuring them to manage Steens based 
on their interpretation of the Act. Though my constituents disagreed 
with some decisions BLM made, we acknowledge their sincerity in 
attempting to fairly implement wilderness regulations and other 
immediate changes required by the Act.
    For example, the first environmental assessment (EA) BLM wrote 
after the Act dealt with fencing, water developments, and other actions 
required to enable the cow free wilderness area. Matt Obradovich did a 
comprehensive job putting the EA together, but environmentalists 
differed drastically with ranchers on many of the proposed actions. 
Dave Blackstun, Matt's supervisor (who has since left Burns), wisely 
brought the parties together and, acting as mediator, BLM helped us put 
together a plan that worked for everyone. Cooperation was a key element 
of the Act, and we were motivated to live up to that.
    Burns BLM staff contacted the Oregon state office, as well as the 
Arizona and California offices, to talk to those with experience 
implementing wilderness legislation on BLM lands. They made sure they 
were following appropriate regulations and established procedures. 
During this time, the Oregon state office discovered Burns had not done 
NEPA analysis on any of the Special Recreation Permits (SRP) on Steens. 
The EAs now being written on those who hold SRPs on Steens are required 
of anyone who wants to do business on BLM land, regardless of 
wilderness status.
    When Cycle Oregon came to the Steens in September of 2001, Mark 
Sherbourne, the Burns BLM Recreation Supervisor, worked diligently with 
the organizers, environmental groups, and local communities to make 
sure the two thousand participants had a good time, while doing no harm 
to the mountain and surrounding ecosystem. I watched Mark and his crews 
leaving for home long after dark the night before the event. In 
addition, Mark was on site to watch over everything both days. BLM 
recognized this event was the first of its size to hit Steens and, 
considering the new Steens designation, reacted appropriately.
    After the SMAC (finally) came together, our Designated Federal 
Official (DFO), Andrews Resource Area Field Manager Miles Brown, 
promptly left for Washington DC. This was not for fear of dealing with 
us; he had prior commitments to BLM's national office he had to honor. 
His assistant, Joan Suther, did a great job of keeping things on track 
when Miles could not attend, but we are glad to have him back.
    I can't say enough good things about the SMAC's support staff. 
Rhonda Karges is a master at organization and communication. Liz 
Appelman creates form out of chaos in her meeting minutes, and Patti 
Wilson keeps things interesting with her visual aides. Tom Dyer, the 
Burns District Manager, is obviously committed to making this process 
work and I want to publicly thank him and all the rest of these folks 
for their efforts.
    It seems to me the SMAC has covered a lot of territory in the last 
nine months, at least based on the size of the files I lug around. 
However, some feel we have not progressed far enough in terms of 
fulfilling the Act's mandate of helping BLM implement the Steens 
management plan. I am going to discuss some factors I think contributed 
to this, hoping it will help us be more productive as we go forward.
    It took some time to set up procedures and become familiar with the 
process. For us to act sensibly we needed time to become familiar with 
each other's concerns and have an understanding of various laws and 
regulations. The farther along we get, the less this will be a factor.
    The thing that has slowed us down the most is the degree to which 
we have been trying to micromanage BLM. It is quite natural for each of 
us to want to use our position on the SMAC to influence the decisions 
BLM makes. At our first meeting, I came loaded for bear with concerns 
from various constituents on how BLM was handling interim management 
decisions. BLM and the SMAC facilitator, Dale White, informed me (very 
nicely) that the SMAC was mandated to focus on the big picture and NOT 
micromanage. I got the point, and was actually quite relieved. If we 
had held to this rule, we would be much farther along.
    Unfortunately, in upcoming meetings it seemed we were doing nothing 
but micromanaging. BLM explained their apparent change in position by 
saying that the SMAC would only be asked to help with specific 
decisions if the BLM wanted it. This seems reasonable except that the 
issues BLM has chosen to engage the SMAC on have usually been those of 
concern to local interests, rather than those of my constituents and 
the rest of the public owners of Steens across Oregon and America.
    For example, it appears that most everyone in Harney County was 
VERBALLY promised one thing or another by unnamed parties who were 
negotiating for them on the Act. The local snowmobile club members, a 
family reunion group, ranchers, outfitters, all have made presentations 
to the SMAC arguing that their use of Steens was guaranteed to continue 
unaffected by the Act.
    I have sympathy for anyone who feels those representing them back 
in 2000 misled them. Some of my constituents can understand where these 
folks are coming from because they feel promises to them were broken 
also. We could start by talking about cherry-stemmed roads in 
wilderness and $5 million in cash bonuses to the ranchers participating 
in the land exchanges. How the heck are we supposed to deal with this? 
Whose promises do we honor and whose do we ignore?
    If BLM were to make decisions based on all the verbal promises 
claimed by local users of Steens, they would have nothing to implement. 
The SMAC members could all stay home. Since everyone seems to have been 
promised nothing would change, the Steens Wilderness and Steens 
Mountain Cooperative Management Protection Area would just be names on 
a piece of paper in the Congressional Record of 2000, and the Act a 
collector's item. Those who have not already done so should get their 
copies autographed by their Representative as soon as possible.
    The Steens/Alvord Coalition would have never gone along with the 
promises the SMAC has heard, and can hardly be expected to go along 
with BLM managing based on them now. From the beginning of the 
negotiations on Steens, we held to our policy of not going along with 
any language or exceptions that would weaken the Wilderness Act or BLM 
regulations enforcing them. We were--and are--determined to have the 
Steens Mountain Wilderness be an equal member of the National 
Wilderness Preservation System.
    It is fine for the SMAC to be a used as a sounding board and public 
forum to some degree, but if we want to meet the deadline on the Steens 
management plan, we need to find a way to avoid spending so much time 
on things we can do nothing about. The SMAC does not have the authority 
to change laws and regulations. If we recommend BLM take action against 
what is in writing--existing laws and regulations--they have no choice 
but to ignore us. So to attempt to do so on our part is just a waste of 
precious time.
    I think the best example of the SMAC exhibiting its cooperative 
capabilities was our deliberations regarding the Roaring Springs Ranch 
land exchange. We can all thank Skip Renchler for getting these 
original land exchanges done in a timely manner. But it wasn't easy, 
and BLM needed the SMAC's help.
    Roaring Springs Ranch changed their mind about closing a water gap 
near Tabor Cabin in the Blitzen Wild and Scenic River. They were going 
to pull out of the exchange if the deal was not renegotiated. At the 
December meeting, the SMAC wrestled with this issue for a significant 
part of two days, eventually working out a solution that enabled the 
exchange to proceed.
    I wish I could report this type of success on every deliberation. 
Unfortunately, we have had instances where, rather than hanging in 
there to negotiate a solution at the meeting, a SMAC member held out 
and then asked their Representative for help when they went home.
    Involvement by all members of the Oregon delegation and Governor 
Kitzhaber is more than welcome as far as I am concerned. They all 
participated in getting the Act written and passed through Congress. 
Interference is different. It may be difficult distinguishing between 
the two, and I certainly am not accusing anyone of being inappropriate, 
but it is an issue that I hope each Oregon legislator will consider 
carefully when the occasion presents itself.
    When a legislator contacts BLM, or sends a letter to the SMAC, 
saying they should do what a particular SMAC member wants, from where I 
sit this feels more like coercion than cooperation. It sends a message 
to the SMAC member in question that they don't have to negotiate with 
the rest of us like they did on Tabor Cabin; instead they can hold out 
for their way or no way, confident their Congressional advocate will 
save the day. If we are to repeat the success of Taber Cabin, we all 
have to be negotiating in good faith.
    Conflicts of interest may also be more of an issue than anyone 
thought it would be. Four of the twelve members of the SMAC have direct 
financial interests on Steens. The Act intended this, and I am glad 
they are fellow members. These folks are the experts in their area of 
interest, and they know the history and issues of the area like the 
stains on their hats. In short, their input is invaluable to the SMAC 
and BLM.
    However, since the first rumblings of a Steens National Monument 
local folks have feared for the survival of their businesses, and more 
importantly, their way of life. I applaud how well these particular 
SMAC members have dealt with these concerns (far better than I would 
have), but fear is a very difficult emotional base from which try to 
think objectively and constructively. As a result, some subjects are 
very difficult for us to broach, which could be impacting how efficient 
we are in getting things dealt with.
    Draft legislation was recently brought before the SMAC, driven by a 
trade of U.S. Forest Service property for a Steens inholding. At this 
point my constituents have mixed feelings about this legislation, but 
the salient point here is that the SMAC deliberation on this matter was 
another distraction. It was important for the SMAC to be briefed on the 
draft language, but we are an administrative advisory council, not a 
legislative one. We could have been working on tasks that are clearly 
ours to perform instead of taking votes the BLM had to ignore.
    The one section of this legislation that really needs to go forward 
involves boundary adjustments that everyone has agreed to (including 
the Tabor Cabin deal mentioned earlier). I sincerely hope the Oregon 
delegation will consider introducing this section of the bill on its 
own, adding to it whatever other items end up having the consolidated 
support of all interested parties.
    Having said all this, I think we are not terribly far behind, at 
least according to the timeline laid out by the Steens management plan 
lead, Gary Foulkes, and mostly due to his drive and persistence. If we 
can eliminate some of the distractions, and stay more focused going 
forward, we will get the job done in time.
    Breaking new ground is always more difficult than taking the path 
well worn, and the Steens Mountain Cooperative Management and 
Protection Act definitely breaks new ground. My hope is that the fine 
citizens of Harney County, Steens locals, the media, legislators, and 
everyone in Oregon who loves the Steens will have some patience, take a 
big breath, and give BLM and the SMAC a chance to do their jobs.
    Thank you again for inviting me to testify. Regardless of anything 
I have said, I like my job on the SMAC. The pay could be better, but 
the benefits and the people I work with are great.
Summary of statement:
    The BLM has worked hard to implement the Steens Mountain 
Cooperative Management and Protection Act. The Steens Mountain Advisory 
Council has not accomplished as much as it might due to several 
distractions it has had to deal with, but has covered a lot of ground 
and had some noteworthy successes.
                                 ______
                                 
    Mr. Walden. Mr. Otley?

  STATEMENT OF FRED OTLEY, GRAZING PERMITTEE, DIAMOND, OREGON

    Mr. Otley. Thank you for the invitation to be here, as a 
backup. I appreciate it. I was hoping Hoyt would be here.
    The Steens Act, thanks to all your hard work and untiring 
effort, Congressmen Walden, and the other Oregon 
representatives and senators, is indeed a precedent-setting Act 
that establishes a new type of special designation. One with 
its functional purpose--a directive purpose--that's different 
from any other Act that we've ever found. It does create a 
large wilderness, six wild and scenic rivers, a trout preserve, 
a mineral withdrawal area, and a wildlands juniper area. 
Economic interests--Private landowners were made a functional 
part of the Act. That's also unique and different, it's very 
important. Other areas of the west are watching this--I get 
phone calls--very, very closely, to see if this type of 
collaborative effort, you know, fits in their area--to get past 
some of the polarization that's occurred in the other areas of 
the west. I think Congressmen Simpson, you made a very good 
point on that. We cannot allow a handful of extremists to use 
strict interpretation of ``wilderness'' to destroy the balance 
in the legislation. We cannot allow the basic, ongoing, 
historical activities to spend thousands of dollars to protect 
their ongoing use. And that's what these environmental 
assessments, in my opinion, have opened us up for.
    My testimony will probably run out of time and will 
emphasize the functional purposes of the Act--all of them. 
There's 13 different purposes. I think, four are directive--not 
directive. Four are, basically, establishment purposes. There's 
four that are process oriented, like the establishment of 
wilderness, scenic rivers, et cetera. The four process purposes 
are: Creation of the SMAC--the Advisory Council--nondevelopment 
easements, those kinds of things.
    There are five remaining directive functional purposes, 
that tell us what to do and how to do it, throughout the Steens 
Mountain Management Act. And the first five are--The first one 
is: Maintain the cultural, economic, ecological, and social 
health of the mountain. Number 2--the second one--is Number 5: 
To provide for, and expand, cooperative management activities 
between public and private landowners. The third one is No. 10: 
To maintain and enhance cooperative and innovative management 
practices between public and private. The fourth--or, the 
fifth--No, the fourth is: To promote viable and sustainable 
grazing and recreational operations on private and public land. 
The fifth one--the last one--is: To conserve, protect, and 
manage, for healthy watersheds and the long-term ecological 
integrity of Steens Mountain.
    I suggest these primary and functional directive purposes 
are balanced and specific to both ecologic, economic, and 
social interests. Underneath this umbrella of five directive 
purposes, is the purpose of the area--the cooperative area 
itself--and it is: To conserve, protect, and manage the long-
term ecological integrity of Steens Mountain for future and 
present generations.
    To further this purpose--These are very important--There 
are five objectives. (1) To maintain an enhance cooperative and 
innovative management projects, programs, and agreements 
between the tribal, public, and private interests; (2) To 
promote--to promote--grazing, recreation, historic, and other 
uses that are sustainable; (3) To conserve, protect, and ensure 
traditional access to the Burns Paiute Tribe; (4) To ensure the 
conservation, protection, and improved management of the 
ecological, social, and economic environment; (5) To promote 
and foster cooperative communication and understanding, and to 
reduce conflict within the area.
    Those are very important. And you move on down--Well, of 
those, the words ``cooperative'' was used six times, and 
``private or economic interests'' are referenced nine times, in 
those purposes.
    In the next section, Management of Federal Lands--The first 
purpose is: The Secretary shall manage all Federal lands in a 
manner that ensures the conservation, protection, and improved 
management of the ecological, social, and economic environment; 
and, (2)--very important one to us--Recognizes and allows 
current and historic recreational use. What could be more 
clear?
    These are all of the directive functional purposes. There 
are no others. And, I guess, it kicks down to the Steens 
Mountain Running Camp, right off the bat. Why should Harland 
spend thousands of dollars protecting his use? I mean, this is 
built so strongly and so clearly, in the language there. The 
BLM, basically, should say--on all the recreational permits, 
and access--If they're going to do an EA, they shouldn't, as a 
context of the EA, say, ``This will occur in this way, and will 
not be open to public purview. Here's the components of either 
the monitoring, to prevent impacts, or some major change in 
operations that will come out for an EA.'' But, the basic 
operations should not be subject to this.
    I'm running out of time, so, I just believe that you've 
worked very hard. The snowmobile issue is a critical one. It 
ended without being subject to the RMP process. I think it was 
incorrect to do that, when the establishment of a trail--a 
snowmobile trail area--is consistent with the Act. Thank you 
very much.
    Mr. Walden. Thank you, Fred.
    [The prepared statement of Mr. Otley follows:]

              Statement of Fred Otley, Otley Brothers Inc.

    Thank you for the opportunity to testify before your Subcommittee 
and thank you for your untiring interest in issues so important to 
Harney County and rural areas throughout our nation.
    The Steens Mountain Cooperative Management and Protection Act (the 
Steens Act) is a precedent setting Act that creates a new type of 
special designation and functional purpose that protects the 
environment while maintaining and even enhancing the local economy--a 
large wilderness, six wild and scenic rivers, a redband trout preserve, 
a mineral withdrawal area and a wildlands juniper area were created 
while protecting and enhancing historical and current uses of public 
land. Private landowner needs including economic interests were made 
part of the purpose and management process to ensure sustainability. 
Other areas of the west are all watching the implementation of the 
Steens Act as a new way of doing business in rural areas that have 
public land. We must be successful.
    We cannot allow a handful of extremists to use a strict 
interpretation of the wilderness section to destroy the balance in the 
legislation. The short term notoriety gain of these individuals will 
move to the historical aspect of preventing other areas of west of 
going forward with wilderness legislation in future years. The 
collaborative process Congress created with the help of many different 
environmental and public interests created a management framework that 
establishes wilderness that works. Even if it takes Congressional 
intervention we must not allow a few individuals to move the Steens 
Mountain back to the conflict wilderness model of other areas that pits 
one interest against another.
    My testimony will emphasize the functional purposes and objectives 
of the Steens Mountain Cooperative and Management and Protection Act 
relative to important issues. Four of the 13 purposes of the Steens Act 
are specific to making the designations of six wild and scenic rivers, 
the Redband Trout Reserve, the Steens Mountain Wilderness Area, the 
Wildlands Juniper Area and the Cooperative Management and Protection 
Area (CMPA). All of the special designations are within the CMPA 
boundary. Four of the 13 purposes are process purposes creating the 
Steens Mountain Advisory Committee, authorizing land exchanges, land 
purchases and non-development easements and authorizing uses consistent 
with the Act. The five remaining purposes are functional directive 
purposes.
    The first directive purpose of the Act was to ``(1) maintain the 
cultural, economic, ecological and social health of the Steens Mountain 
Area in Harney County, Oregon. The second functional directive purpose 
is number (5) to provide for and expand cooperative management 
activities between public and private landowners. The third directive 
is (10) to maintain and enhance cooperative and innovative management 
practices between the public and private land managers in the 
Cooperative Management and Protection Area. The fourth is (11) to 
promote viable and sustainable grazing and recreation operations on 
private and public lands. The fifth and last functional directive 
purpose is (12) to conserve, protect, and manage for healthy watersheds 
and the long-term ecological integrity of Steens Mountain. I suggest 
these primary and functional purposes are balanced and specific to 
include ecological, economic and social interests together.
    Underneath the umbrella of the previous five directive purposes 
(Section 1) of the Steens Act is the purpose in Title I of the Steens 
Mountain Cooperative Management and Protection Area (Section 102) (a) 
Purpose--The purpose of the Cooperative Management and Protection Area 
is to conserve, protect, and manage the long-term ecological integrity 
of Steens Mountain for future and present generations. ``To further the 
purpose specified in subsection (a), and consistent with such 
purpose,'' are five objectives as follows:
    (1) to maintain and enhance cooperative and innovative management 
projects, programs and agreements between tribal, public and private 
interests in the CMPA;
    (2) to promote grazing, recreation, historic, and other uses that 
are sustainable;
    (3) to conserve, protect and to ensure traditional access to 
cultural, gathering, religious, and archaeological sites by the Burns 
Paiute Tribe on Federal lands and to promote cooperation with private 
landowners;
    (4) to ensure the conservation, protection, and improved management 
of the ecological, social, and economic environment of the CMPA, 
including geological, biological, wildlife, riparian, and scenic 
resources; and
    (5) to promote and foster cooperation, communication, and 
understanding and to reduce conflict between Steens Mountain users and 
interests.
    Of the eleven directive purposes and objectives and the title of 
the Steens Act, the words cooperation or cooperative are used six times 
with private or economic interests directly included nine times. We 
know of no special designation that has cooperative management as the 
title and interwoven into the purposes except the Steens Act. It is 
indeed unique, broadly important and established a new way of doing 
business on public and private land. People as a functional part of a 
designation and management is a unique way of going forward.
    In Subtitle B--Management of Federal lands (Section 111. Management 
Authorities and Purposes. (a)
    (1) and (2)) the above directive purposes are reinforced ``The 
Secretary shall manage all Federal lands included in the CMPA, etc, in 
a manner that (1) ensures the conservation, protection and improved 
management of the ecological, social and economic environment etc, and 
(2) recognizes and allows current and historic recreational use. What 
could be more clear? Inside and outside the wilderness existing 
activities should be allowed to continue as they have in the past 
unless specifically prohibited by the Steens Act. The assumption and 
baseline of the Bureau of Land Management, other agencies and the Court 
system should not assume things must be changed or new standards put in 
place, especially on an interim basis.
    The first example or issue is a very important test of the 
integrity of the Steens Act and that is the Steens Mountain Running 
Camp. The 27 year old camp established and operated by Harland Yriarte 
operates in a environmental friendly manner with environmental and 
cultural education woven into its operation. Elected officials and 
others in the negotiation process promised the Camp was not going to be 
impacted over and over again. Now, radical outside interests are 
threatening to sue and end the camps operation inside the Steens 
Mountain Wilderness. Mr. Yriarte may have to spend thousands of dollars 
protecting his business interests and the heritage of over five 
thousand runners living in all parts of the United States of America. 
The seven other recreational permit holders may similarly be impacted.
    I believe the Bureau of Land Management erred in putting the Steens 
Mountain Running Camp, the other recreation permits, landowner access 
to Wilderness inholdings and motorized maintenance of existing grazing 
facilities and management in environmental assessments for NEPA 
compliance. The decision to open up these issues to NEPA will force 
part of these activities to go through NEPA three times before 
individual owners, managers or participants will have any confidence in 
the security and sustainability of their ongoing operations. The second 
time NEPA will be applied is at the Resource Management Plan level and 
the third time will be in the issuance of the permits following 
completion of the RMP. If NEPA was necessary at this time, and I do not 
think it is, then the environmental assessment should have been limited 
to monitoring of the activities relative to permanent physical 
impairment of the resource.
    I go back to the directive purposes of the Steens Act including 
Section 111 that ``recognizes and allows current and historical 
recreational use.'' Then why are the historical and current snowmobile 
use areas closed after the passage of the Act? BLM interpreted Section 
112 (b) (1) ``Prohibition.-The use of motorized or mechanized vehicles 
on Federal Lands included in the Cooperative Management and Protection 
Area--(A) is prohibited off road. They should have allowed snowmobile 
use to continue by adhering to the following section ``(B) is limited 
to such roads and trails as may be designated for their use as part of 
the management plan.'' Section 111 allows the use to continue pending 
the development of the plan. The existing use area must be considered a 
over snow activity therefore not subject to Section 112 or become a 
designated snowmobile trail. Either way the use is legal under the 
Steens Act.
    Fear of being sued should have not dictated interim management and 
public use. Where the State BLM Office or their Solicitor moved us to 
changing or ending ongoing activities, they caused a lot of conflict 
and problems with effective implementation and time lost by the Steens 
Mountain Advisory Committee helping BLM work on the RMP. Congressional 
intervention may be necessary to get back to the intent of the Steens 
Act.
    The cooperative management emphasis of the Steens Act became 
reality because it is part of the heritage and culture of the area with 
45 different private/public partnerships identified at the time of the 
Steens Act passing Congress. If we go forward with that cooperative 
spirit then the existing permit holders and landowners can greatly 
assist in the implementation of necessary changes and education of the 
public. When someone unknowingly violates the law or use requirements 
of the area, the educational information can be provided without the 
involvement of law enforcement officials and citations in the majority 
of violations.
    At the same time I am critical and disagree with the decisions the 
Bureau of Land Management has made concerning opening up certain issues 
to NEPA at this time, I compliment the leadership and the majority of 
BLM staff at the local level. Public/private cooperative management 
efforts have continued including ecological/prescribed fire efforts. 
Local BLM managers and staff worked very hard and did a good job in 
completing very complex land exchanges and implementation project 
plans. Overall management efforts continue to be good and progressively 
implemented and not stalled out during the transition. I compliment Tom 
Dyer, Miles Brown, Jim Buchanan, Skip Renchler and others for their 
efforts.
    Many positive aspects of the Steens Act are new and different from 
the old way of doing business. In some cases BLM does not know how to 
deal with certain parts of the Act because existing policy and 
structure does not facilitate or conform to these sections. Financial 
incentives, cooperative agreements with landowners, and non-development 
easements are several areas of confusion. The emphasis of land 
exchanges to avoid future wilderness conflicts also needs to go 
forward. I support funding of non-development easements at this time to 
begin and allow the SMAC, BLM, landowners and others work out the 
negotiation process and procedures to implement non-development 
easements. I support a number of boundary adjustment and proposed land 
exchanges although there is language in the proposed bill that would 
need to be changed. The legislation would also need to grandfather in 
the Steens Mountain Running Camp and the other recreation permits and 
make reasonable access to ones property unconditional for the full use 
and enjoyment for property owners. NEPA and permits concerning access 
should apply to major upgrades that substantially and visibly alter 
access routes.
    In summary, outside parties threatening existing uses have shaken 
the support and implementation of the Steens Act. I worry that if we do 
not fix the above issues legislatively, the whole Steens process will 
be polarized and stalled before we can fully enlist the cooperative 
spirit in the Act. The directive purposes of the Steens Act are very 
specific and clear. Thank you for consideration of my comments.
                                 ______
                                 
    Mr. Walden. I want to follow up on something you were 
saying just then, because this whole issue of access still 
sticks in my craw a bit. Because we also put language in there 
to say ``Nothing in this Act is intended to affect rights or 
interests in real property or supersede State law.'' It would 
seem to me that--And, I'm not a lawyer. Usually when I say 
that, I get applause.
    [Applause.]
    It's OK. Lindsay is a lawyer, and a pretty good one.
    [Laughter.]
    But, I guess my point is that--kind of getting at your 
issue, too--We tried to write this to protect the historical 
uses. We tried to write it in a way, as clearly as we could, to 
protect real property rights, including access to that 
property. So, it's not really a question, Fred, but we tried to 
do our best, in that respect.
    Mr. Sutherland, I noticed in your prepared testimony, you 
made a number of different comments. But one of them that 
really stuck out at me was--and I'm quoting now, from page 4--
``Some of my constituents can understand where these folks are 
coming from, because they feel promises to them were broken 
also.'' Could you give me some examples of those promises, that 
they feel were broken?
    Mr. Sutherland. To wilderness activists--and I include 
myself, as one of those--Cherry stems are an anathema. And, 
most--Because everything was kept very tightly controlled, due 
to the speed of this process, the maps were not shown to very 
many people.
    Mr. Walden. They were on the Web site, and they were in the 
newspaper.
    Mr. Sutherland. Not prior to the legislation.
    Mr. Walden. Yes. During that whole process.
    Mr. Sutherland. My remembrance, and those who are concerned 
about it, remember that it was--Well, the cherry stems aren't 
mentioned in the legislation.
    Mr. Walden. OK.
    Mr. Sutherland. The only way you find out they exist, is by 
going to the map and looking at the fact that the color of the 
cherry stems is the same as the boundary of the wilderness. 
There's nothing on the map that says, ``These are cherry stems. 
You can drive into the wilderness, in these areas.'' So, even 
if the person knew those maps were there--which, I evidently 
didn't--the--You really have to work to figure out that they 
existed. So, a lot of people felt like that was a broken 
promise on their part.
    Mr. Walden. But doesn't that presume that somebody promised 
there would be no cherry stems, and you had people in these 
discussions, didn't you?
    Mr. Sutherland. Throughout the Steens legislation, on the 
Coalition side of things, the instructions given to those who 
were negotiating, was that there--that we would be going by the 
Wilderness Act. There would be no new exceptions or exemptions 
in the wilderness regulations.
    Mr. Walden. Except for the cow-free wilderness.
    Mr. Sutherland. Well, in the cow-free--Cows were 
grandfathered at Wayne Espinall's insistence, during the 
Steens--the Wilderness Act, as a nonconforming use. So, we 
don't have anything to say about that. I think, to put it in 
the same category as weakening wilderness regulations or 
values, is a different sort of thing. But--That was a change 
that was made, but it was not a weakening of the Wilderness 
Act, which is the instruction our negotiators were always 
under.
    Mr. Walden. Are there any other broken promises you could 
delineate?
    Mr. Sutherland. I think people who were on the outside of 
it, who--When you add up--When you try to figure out the $5 
million that was paid to move the cows out of the wilderness, 
it's very difficult to figure out that money. If you put 
together the report, from the BLM Web site, and sit down and 
work over the legislation itself, where it's covered there, you 
could finally build an Excel spreadsheet that figures the whole 
thing out. But it was, again, very difficult for outsiders to 
know what was going on, and I think there are constituents of 
mine who feel like that $5 million was not in proper form.
    Mr. Walden. So, if you had had your way, your negotiators 
would have opposed those payments and the cherry stems?
    Mr. Sutherland. I think a lot of the promises that people 
have claimed here, or from Harney County, are not supported by 
everybody that was negotiating for the locals. And I am not 
saying that everybody that I personally, or--
    Mr. Walden. That wasn't my question. My question was: If 
you were the negotiator, representing the Sierra Club in those 
negotiations, would you have said ``No'' to the bill, based on 
those two points you've raised?
    Mr. Sutherland. I don't know about that. I would weigh lots 
of different things. But I would say that I would have made a 
much bigger--I would have certainly brought up the problems 
that I just mentioned.
    Mr. Walden. OK. In your testimony, you mentioned the 
concerns you had with BLM ``micromanaging'' the Steens 
Cooperative Management Area. Do you believe completing 
environmental assessments for every pre-existing activity is 
also an example of micromanaging, by the BLM?
    Mr. Sutherland. I was referring to the SMAC micromanaging 
BLM's actions.
    Mr. Walden. OK. But, is an EA, on every pre-existing 
activity, from your perspective, any kind of micromanometer of 
what's going on, on the mountain?
    Mr. Sutherland. I'm not--BLM needs to do what they feel 
they need to do. I'm not making a comment on that.
    Mr. Walden. OK.
    Mr. Sutherland. But, personally, if you want to ask whether 
I think the EA's are needed, the answer is ``Yes.''.
    Mr. Walden. OK. If Congress sees fit to do some technical 
corrections to the original Steens legislation, do you think we 
should run those proposed corrections past the SMAC, for input?
    Mr. Sutherland. If you're asking for legislative advice, 
no.
    Mr. Walden. So, it's your opinion that the SMAC should be 
gagged from giving advice on any proposed changes that may 
require legislative approval?
    Mr. Sutherland. I think it's appropriate for the SMAC--for 
each member, as a representative of their constituents--to give 
feedback, to you or whoever else wants it. If you want one spot 
to go, to get feedback, from a lot of different groups--That's 
what happened at our last meeting, in discussions about this 
legislation. We took no votes. We didn't make reservations. We 
just provided feedback. I think that is very appropriate.
    Mr. Walden. So, if we have--As we work forward on various 
things that may come up--I want to make sure I heard you right. 
If we could run these past the Committee, to at least get 
feedback, that would be acceptable? But not a vote?
    Mr. Sutherland. Correct. And not as a substitute for 
talking to all the interested parties.
    Mr. Walden. Oh, I understand that. But it's also a pretty 
good representative group. A question: As the Sierra Club 
spokesperson today--What is your view of Wilderness Watch's 
objection to the Running Camp's permit and activities on the 
mountain? Do you support the running camp continuing to 
operate, as it has been, on the mountain?
    Mr. Sutherland. The Sierra Club--not speaking for myself--
But, the High Desert Committee of the Sierra Club, who has 
talked about this, feels that it is appropriate for Harland to 
make changes.
    Mr. Walden. What kind of changes do they feel is 
appropriate?
    Mr. Sutherland. That's what we're doing--Well, that's what 
we need to be doing in the EA, and get it out there and start 
looking at what BLM has proposed.
    Mr. Walden. Jill Workman was involved in the discussions of 
the original legislation. She chaired the Steens-Alvord 
Coalition. Was she representing the Sierra Club, as well, 
during those negotiations?
    Mr. Sutherland. Yes.
    Mr. Walden. If you'd gotten the e-mail I referenced, 
earlier, from her, saying that the running camp is ``benign''--
Basically, as you read it, you're left with the impression--You 
can't imagine why anybody would question this, because we want 
it to continue. Am I missing something here?
    [Laughter.]
    Or, has there been a change?
    Mr. Sutherland. Well, with all due respect, I think there 
is something missing.
    Mr. Walden. OK.
    Mr. Sutherland. And not just to you. When--The reason--The 
tone for that letter, and the tone of all the other letters 
that are being submitted, is that of: ``We don't understand 
what's the problem. Why are you bringing it up to us?'' That's 
the crux of the issue. No one understood the problem, because 
they were not given the correct information.
    Mr. Walden. What information did they lack?
    Mr. Sutherland. The information that was given to--When I 
heard about the running camp, personally, by way of someone 
complaining about running into them at BLM, and then, somebody 
else I met--I checked into it. And the range of numbers that 
came from all the negotiators on our side, who had originally 
been involved, ranged from 15 to 30. And some of these e-mails 
said, ``Gee, I know we're going to have to make some 
adjustments here, because most wilderness will only allow 12 
people in a group. But, we've got up to 30 in this group. How 
are we going to deal with that?'' And the assumption was made 
that Harland would make some adjustments to deal with that. If 
anybody had known that there were 150 kids, plus 30 staff, for 
a total of 180, running in one line--in a mass--then that 
letter would not have been written.
    Mr. Walden. I want to just shoot across the table here to 
the BLM. When Harland has a permit on file, does it specify how 
many--Can you come up and answer, for the record, please? 
Miles? Does the permit that Harlan has, have to specify how 
many runners there are?
    Mr. Brown. Yes. He submits a plan of operation that 
describes that.
    Mr. Walden. How many years has he submitted that plan, and 
had it approved?
    Mr. Brown. He's got a 5-year permit now. That's what I'm 
familiar with. But he's been under--I don't know exactly how 
long he's been under permit, but he's been under permit since 
I've been here, for 6 years.
    Mr. Walden. And are you in charge of that permit? You 
authorized that permit?
    Mr. Brown. Yes.
    Mr. Walden. Do you have access to people--Do people come in 
and ask to see these sorts of permits?
    Mr. Brown. Not often, no.
    Mr. Walden. Has anyone ever come in and asked to see 
Harland's permit?
    Mr. Brown. Not that I'm aware of. Other than Harland.
    [Laughter.]
    Mr. Walden. It's his permit. I guess the point I'm getting 
to--This is the public document, is it not?
    Mr. Brown. Yes, it is.
    Mr. Walden. So, anybody that could have wanted to figure 
out how many runners were authorized, could have either (a) 
asked Harland, or (b) asked the BLM, if they didn't want to go 
to Harland; right?
    Mr. Brown. Yes.
    Mr. Walden. And, to your knowledge, nobody's ever asked--
come in and asked the BLM? To your knowledge?
    Mr. Brown. No. In fact, we tried to do a record search on 
that, to see if it ever came up, in a series of meetings. And 
the issue never came up, as to the numbers.
    Mr. Walden. Has there ever been a formal complaint filed 
against Harland's operation?
    Mr. Brown. There hasn't been a formal complaint. The only 
thing that I'm aware of is: On the trail register, someone was 
surprised to see that many runners. At the head of the trail, 
there's a register where people sign in, and someone said, 
``Gee, I was surprised to see that many people.'' But that's 
the only concern I've ever seen in writing.
    Mr. Walden. All right. Thank you. I appreciate that. I'm 
just trying to sort out how this permit system works. I've got 
to tell you, Mr. Sutherland, as I read Jill's e-mail, and as we 
went through crafting the legislation, I was sure left with the 
opinion that people she was representing had no problem with 
this running camp. Her words are ``benign.''.
    Mr. Sutherland. I will answer by saying: The people I've 
talked to, including Jill, on our side of the table, said, 
``The issue was off the scope.'' That is, that one e-mail is 
about the only discussion on that, that ever occurred. It 
wasn't--Except for one person, who said that there was, at the 
end of the negotiations, a request to put Harland's camp 
specifically in the legislation, and that that was not 
allowed--that the negotiators said that Harland's camp needed 
to live up to whatever regulations everybody else did. Now, 
maybe Lindsay was the one that made that request. I don't know.
    Mr. Walden. Yes, he was more involved in these discussions.
    Mr. Sutherland. But, I'll tell you that this was from Andy 
Kerr, who said that Harland's camp has specifically been asked, 
on behalf of someone, to be grandfathered into the legislation 
by name, and that that request was denied.
    Mr. Walden. What I'm being told is that it wasn't denied, 
but it wasn't pursued because this e-mail kind of answered 
that. And, again, quoting from this e-mail of August 24th, Jill 
says, ``I'm hopeful that addressing this matter now will keep 
the running camp from becoming an issue, as we attempt to move 
forward with consensus legislation. Please call me if you have 
any questions about the coalition's position on the running 
camp, or if you believe it would be helpful for a Coalition 
member to discuss this matter with the camp's owner, or a 
person receiving a letter from the camper. We appreciate your 
time and intention to working toward consensus legislation''--
Et cetera, et cetera--``See you in September.'' So, now, 
irrespective of this letter, Sierra Club's position is that 
changes need to be made to the way Harland runs his camp? Would 
one of those changes be that they shouldn't run in the 
wilderness areas?
    Mr. Sutherland. Well, the only thing of concern is the 
wilderness.
    Mr. Walden. Would one of the concerns be then--Would it be 
the position of the Sierra Club to oppose kids running in the 
wilderness area, as currently occurs under Harland's permit?
    Mr. Sutherland. I would say that--that--Yes. The way they 
run right now in the wilderness, is inappropriate for 
wilderness. It's an inappropriate activity for wilderness, and 
needs to be looked at.
    Mr. Walden. So, is your organization, then, working at all 
or having any communication with Wilderness Watch, on their 
effort?
    Mr. Sutherland. No. There's no effort that I know of, on 
anybody's part. We're waiting for the EA to come out, to look 
at it. My understanding of Wilderness Watch's position is that 
they should not be in the wilderness. Now, that's just, you 
know, what I've heard.
    Mr. Walden. So, you're not working with them or talking to 
them, or none of that?
    Mr. Sutherland. No. My--Our position is that the kids need 
to stay on the mountain. And it's the same position the 
Wilderness Watch has. The Wilderness Watch is not asking that 
Harland's running camp is off the mountain. They want them on 
the mountain. They want them to continue operating. The issue 
is: Whether it's appropriate in the manner it already is 
running in the wilderness. And I, personally, believe that 
there are lots of options, to have the operation be just as 
exciting for the kids and to give them the same benefits 
they've always had, without violating the wilderness experience 
for other people who are up there now, for that experience.
    Mr. Walden. How often--Do you know, now, how many kids go 
through, and how often?
    Mr. Sutherland. How many of Harland's kids?
    Mr. Walden. Yeah. Kids in the running camp go through, and 
how often that occurs?
    Mr. Sutherland. He has two camps, plus the football camp. 
The running kids--The running camp part is, I think--Each of 
them--Each one is 2 weeks. And, I believe, it's 150 kids, with 
30 staff.
    Mr. Walden. And they go through the wilderness area one 
time, I believe.
    Mr. Sutherland. They go through the gorges--both gorges, as 
I understand it--Harland can correct me--on the same day.
    Mr. Walden. Is that correct, Harland? Why don't you come up 
to the table, and we'll get this on the record.
    Mr. Yriarte.: I love you, Jerry.
    [Laughter.]
    Mr. Walden. I'm glad you can both dress in green shirts, 
too.
    Mr. Sutherland. Except the word that he would probably, 
somewhat, use to describe me, starts with ``B,'' but it's not 
``Basque.''.
    Mr. Yriarte. I didn't know what your middle initial was, 
Jerry.
    Mr. Walden. All right. Let's start over here.
    [Laughter.]
    How many kids go through the camp? How important is it to 
get in the wilderness area? I read your testimony about 
lightening, and--You know, you even had a driver who was struck 
and killed, I understand.
    Mr. Yriarte. Yes. We have approximately 150 a week, for the 
2 weeks. On a Tuesday, for about 8 to 10 hours, depending on 
what kind of shape somebody's in--and, if it happens to be me, 
maybe it's a little longer than that--But, yes, on every 
Tuesday, for each Tuesday, it's 150, plus about 30 staff. 
There's about 40 staff, total, in our camp, but people like, 
you know, Pete Reynolds, our cook, doesn't go on that day.
    Mr. Walden. All right.
    Mr. Yriarte. So, how important is it to get in the 
wilderness? Yes. You've got to remember--We've been up there 
for 27 years. This will be 28. Approximately 1975 to current. 
We've had a lot of time. We've been through every canyon, every 
gorge, with a variety of different people--variety of different 
shapes. We get kids from Stanford up there and the University 
of Oregon. We've had semi-Olympians, and so forth. We have been 
able to--How would you say--find the best routes, during that 
26 years. And what is the bottom line? Scenic and safe. And we 
go through Big Indian, right now--Takes about four--four or 5 
hours. We don't camp. We leave no trace. As a matter-of-fact, 
we pick up everybody else's trash, that seems to be--that seems 
to be found there every once in awhile. It takes about another 
four to 6 hours to get up Blitzen, and then, out to the top and 
on the way home. But, it is definitely--We believe that you 
become what you surround yourself with. There's a reason that 
that's wilderness. Why isn't it wilderness down here, in the 
flatlands between Burns and Bend. If you want solitude, that's 
a great place to get it.
    Laughter.]
    So, did I answer your question?
    Mr. Walden. We're going to take this one on the road, I 
think.
    [Laughter.]
    Yes, you answered my question. I appreciate it.
    Mr. Otley. May I say something here?
    Mr. Walden. Yes. Go ahead. Thank you. Save us here.
    Mr. Otley. Well, it's my understanding that uses are 
managed in each wilderness area somewhat differently, and there 
is no specific policy or regulation limiting the number of 
visitors, per say--and there's lots of different ways in the 
wilderness to do it. But, I'm not expert on wilderness. But, 
back to the legislation. Under Subtitle (b), Management of 
Federal Lands--and this is in the Cooperative Management and 
Protection Area, of which the wilderness is inside that 
boundary. It says, ``Ensures the conservation, protection, and 
improved management of the ecological, social, and economic 
environment.'' Harland fits there. Number (2)--It's very, very, 
very specific--(2)--and this is the last one, under Management 
of Federal Lands--``Recognizes and allows current and historic 
recreational use.'' Subtitle B, Management of Federal Lands, 
Section 111, Management Authorities and Purposes of Management 
of Federal Lands, within the Cooperative Management in the 
Protectionary Boundary.
    Mr. Sutherland. If I may add, maybe, some clarifications?
    Mr. Walden. Sure.
    Mr. Sutherland. I think--and this is, Representative 
Simpson--I think it's worthwhile to note that many of us would 
disagree--and Representative Walden--that any wilderness is not 
like another. The Wilderness Act established a national 
wilderness preservation system. It was key to that provision, 
that all wildernesses become part of one family, when they're 
enacted. Yes, there are exemptions, written into specific Acts. 
But the--In entirety, they are to be part of the whole. And so, 
immediately, when the wilderness legislation went into effect, 
the BLM needed to be legislating for that. And it comes with 
its own set of rules and regulations, separate from anything 
outside the wilderness. So, the discretionary aspect is much 
lower. Now, in terms of Harland's case--Yes, the number of 
visitors are not established, but there aren't any of them out 
there with more than 15 or 20 in a group. So, this is--This is 
truly a unique situation that we have to deal with. We should 
have dealt with it before the legislation passed.
    Mr. Walden. But you see, Mr. Sutherland, we thought we had 
dealt with it before the legislation passed. We had an e-mail 
from Jill Workman, that says this is a benign activity. I can't 
help what she knew or didn't know at the time. I don't know. 
Beyond that, are you familiar with any other wilderness area in 
America that allows for-profit groups to run people through 
wilderness?
    Mr. Sutherland. For-profit is not the issue, but, yes, 
there are.
    Mr. Walden. So, this isn't necessarily unique to Steens 
Mountain, then, is it? It already exists.
    Mr. Sutherland. The size is what's unique.
    Mr. Walden. Well, what about the Western States 100 race, 
that's allowed nearly 400 runners and 1300 volunteers to go to 
the Granite Chief wilderness area, in California area, for the 
past 20 years?
    Mr. Sutherland. That group--When the Desert Protection Act, 
in California--No, I'm sorry. The California Wilderness Act--
passed in 1984, that group had an environmental analysis done 
on them. That use was ended, per a discussion with the forestry 
person who dealt with that at the time. That was--He gave the 
parties 3 years to find an alternative route to go. They could 
not do so, so he engaged the restriction. The decision was 
appealed to the Regional Forester. The Regional Forester 
stated--supported--I think it's the Truckee office--in their 
decision. Eventually, it went to the national office, and, 
eventually, Chief Forest--The Chief Forester came down on the 
side of the Western States run. So, when I asked--So, that was 
all an administrative process. And, if we want to go through 
that here, that's what we're doing. So, I think it's 
appropriate.
    Mr. Walden. But that's not the question. The question is: 
You were talking about these wildernesses that need to be the 
same. There needs to be this consistency. And yet, we have 
examples where bigger groups than what Harland's got, have gone 
through a process and are allowed to run in these wilderness.
    Mr. Sutherland. The procedures need to be the same. And I 
agree that the same procedure that was done with Western States 
need to be done here. And, if this EA comes out in favor of it, 
then, that's the proper process.
    Mr. Walden. OK.
    Mr. Sutherland. The only thing that is specific in the 
legislation is Section 115. Special-use Permits. That's what 
we're talking about. ``The Secretary may renew a special-
recreation permit, applicable to the lands included in the 
wilderness area''--So, it's specific to wilderness--``to the 
extent that the Secretary determines that permit is consistent 
with the Wilderness Act. If renewal is not consistent with the 
Wilderness Act, the Secretary shall seek other opportunities 
for the permit holder through modifications of the permit, to 
realize historic permit use, to the extent that the use is 
consistent with the Wilderness Act and this Act.'' So, the only 
thing that's in the Act, that specifically addresses Harland, 
is a statement that we will allow it, if it meets the 
Wilderness Act. If it doesn't--
    Mr. Walden. Do you think it's possible that, because of 
Jill Workman's e-mail, representing the Steens-Alvord 
Coalition, that any further discussion cease, on being specific 
about Harland, or any other recreation permit holder? Wouldn't 
you think that's a possibility that could occurred here?
    Mr. Sutherland. All I say is that Andy Kerr said that the 
request was made and he denied it. He didn't say it was 
``dropped.'' He said it was--That request was ``denied.''.
    Mr. Walden. Request to do what?
    Mr. Sutherland. To grandfather Harland's case into the 
legislation, at which time he--The negotiators on our side 
said, ``We will not allow that.'' We didn't see a problem with 
the camp, because nobody knew of the numbers, but if there was, 
then he needed to meet up--meet up with the specifications of 
anybody else.
    Mr. Walden. Harland? Do have any--It's your camp we're 
fighting over here.
    Mr. Yriarte. Actually, it's the kids' camp. Yeah. It seems 
like smart, intelligent men, who have great memories--who have 
all the faculties that you would think that people in this 
situation do--have access to BLM reports. Yes, I do give a 
report each and every year. As a matter of fact, I even break 
it down by gender, sex, et cetera, and give them a particular 
fee for the number of people that actually came through. In it, 
is the total, each and every year, that has been for the last 
so-many-years, since--I think 1982 was when I first got a 
permit. As far as the Andy Kerr thing--I don't know anything 
about that. Where that came from, I couldn't tell you. So, I 
don't know. It certainly wasn't me.
    Mr. Walden. All right. I'm going to stop--I appreciate 
your--all of your comments, and turn it over to Mr. Simpson.
    Mr. Simpson. Thank you, I think. I don't know. I listen to 
this and get a little p.o.'d. Pardon me. That's an Idaho term.
    [Laughter.]
    When I'm working on wilderness and stuff, Jerry, and a 
group sends an e-mail like this--as we're trying to work in 
this collaborative effort, that everybody agrees is a good 
idea, trying to work some of these things out, instead of 
mandating them--and then, after things are put into the 
legislative process and passed--Why should they ever believe 
anything that's ever worked out in the collaborative effort, 
when you, all of a sudden, come back and deny everything that's 
written in this letter? Or, at least, say, ``Well, gee, we just 
didn't know about it.'' Let me ask you: Is Jill still working 
for you?
    Mr. Sutherland. Jill and I are--We're all volunteers. We 
don't work for anybody.
    Mr. Simpson. But, does she still volunteer with you?
    Mr. Sutherland. Yes.
    Mr. Simpson. Because, if she actually wrote this letter--
this e-mail--and now your comment is--She says they gave, 
really, tacit approval to this--In fact, she comments in here 
that ``Please call me, if you have any questions about the 
Coalition's position on the running camp, or if you believe it 
would helpful for a Coalition member to discuss this matter 
with the camp's owner, or person receiving a letter from a 
camper.'' Essentially, saying that ``We're going to explain our 
position here. We don't have a problem with this.'' And then, 
all of a sudden--And she says this without knowing anything 
about the camp? How am I supposed to believe this?
    Mr. Sutherland. Well, I would suggest it was the burden of 
the proponents of the camp to give the information, not the 
burden of those who are writing the response. If I have agreed 
to something--If I have agreed to a contract that was based on 
false or lack of information, then I don't feel like I have the 
right to live up to that agreement, when that information is 
then found out to have been false, that it was based on.
    Mr. Simpson. And we're sure that somebody gave them false 
information?
    Mr. Sutherland. Well, Harland didn't, because he wasn't 
involved. And that would have been very good for him to be 
involved in some of these discussions. Like I said, this isn't 
just Jill. Everyone I talked to, that was involved in these 
discussions on our side of the table, agreed--This wasn't just 
Jill--Everybody understood this camp to be a very small number 
of kids, and did not understand what the issue was, thus they 
were not exploring or getting into it any deeper than they did.
    Mr. Simpson. I know I always agree to things when I don't 
understand what they are. Would it be better if these kids ran 
through there in bare feet? Would they do less damage to the 
wilderness?
    Mr. Sutherland. I don't think the issue here--There are 
both--In wilderness, you have to consider both biophysical and 
social impacts. And the camp is involved with both. Burns BLM 
office has photographs of a meadow at the top of Big Indian, 
before and after the kids went through last year, where there 
was a trail after they went through, that did not exist prior 
to them going through. The trail in the canyon is intermittent. 
It is not a well-established--I mean, he knows where it goes, 
and all the kids do, but it's not a well-established trail. 
They used flagging, as a result, to try to keep them on track. 
So, without a well-established trail, there obviously are some 
impacts being made, creating trails that weren't there at least 
15 minutes earlier. So, there's some biophysical aspect to 
this.
    But, in wilderness, you also have to consider the other 
users that are down there for the wilderness experience, 
expecting to have some peace and quiet, and a way to get away 
from the city. Last year, it was--One of the people I talked to 
said that the kids ran--were yelling while they ran by. It took 
them--One group took a half-hour. The other group took an hour 
to get by, depending on where they are on the trip. So, these 
hikers, or people, need to pull off the trail, for that half-
hour to an hour, as the kids go by. If--These folks have 
traveled from a long distance away, to have an experience in 
the new wilderness, and part of that expectation, now, is that 
it's going to be quiet and serene, and away from the busy city 
life that they're trying to get away from--that people in 
Harney County take for granted--Then, to run into a group of 
kids of that size is a big impact to them. And we need to 
consider those folks. And that's a social impact, not a 
biophysical one.
    Mr. Simpson. Is it more important to consider those people 
from that area, and the fact that they may have been disturbed 
in their 2-week wilderness experience for half-hour or an hour, 
or the fact that it has had an impact on these kids and what 
they do, and the fact that they live here, and so forth?
    Mr. Sutherland. That decision is part of what the EA 
addresses, and is the appropriate procedure under wilderness 
regulations.
    Mr. Simpson. It's similar to the letter that I got from a 
lady who came from New York, who floated the middle fork of the 
Salmon River. She spent, I think, a week on it. She wrote me 
and said she'd never come back to Idaho, because during her 
float trip down the Salmon River, as they went around one bend 
on the Salmon River, she looked back up there, and she actually 
saw another boat. Destroyed her whole wilderness experience.
    [Laughter.]
    The arrogance of that kind of attitude is what destroys 
trying to solve any of these problems.
    [Applause.]
    You mentioned one of the things that needs to stop 
happening is people who disagree with some of the decisions 
being made seeking congressional intervention or influence. Is 
there a difference between seeking congressional influence, 
than seeking influence through the threat of lawsuits?
    Mr. Sutherland. Actually, I didn't say that there should 
not be congressional influence. I said that taking that process 
slows us down.
    Mr. Simpson. Does the threat of a lawsuit slow you down?
    Mr. Sutherland. Not the SMAC. I was speaking of the SMAC's 
deliberations.
    Mr. Simpson. Does the threat of a lawsuit slow the BLM 
down, in making a decision?
    Mr. Sutherland. It slows down the procedure of implementing 
the decision, after it's been made.
    Mr. Simpson. Should every decision that a--
    Mr. Sutherland. Excuse me, but my discussion was about 
slowing down the procedure of getting done with the management 
plan, not individual EA's or implementation items.
    Mr. Simpson. Should every decision that a Federal agency be 
judicable?
    Mr. Sutherland. I don't know.
    Mr. Simpson. I guess where I'm going with this--I'm, as you 
might have guessed from my previous statement--I'm real sick 
and tired of management by lawsuits. We do too much of it. And 
I'm not just saying the environmentalists. I think both sides 
do too much of it. And, somehow, we've got to get to where we 
can manage collaboratively, where we can get together, where 
reasonable people can sit down and say, ``This is an area we 
want to protect. And there are reasonable things that go on 
here.'' And come to decisions, and manage them. Without 
everybody from Missoula, Montana, or somewhere else deciding 
that they want to manage them for us. And I know that they're 
public lands, and I know that the public from the East Coast 
and every place else has a say in how they're managed. But, 
quite frankly, the people who care about the Steens Mountain 
live right here. And they're the ones that want to protect 
them, more than anybody.
    Mr. Sutherland. Well, I would disagree with you, to the 
respect that there's a lot of people across Oregon and the 
United States that care about the Steens. We were, many of us, 
involved in it, and we don't live here. But I understand why 
you're saying that, and your feelings.
    Mr. Simpson. It's not because I'm here. I say the same 
thing in Washington.
    Mr. Sutherland. And I think that the Sierra Club--the High 
Desert Committee, including Jill and I--have both, over a long 
period of time, worked cooperatively with the people here. In 
the past, it's always been about grazing issues, because we 
didn't have wilderness. And we worked on cooperative--on 
working groups--all different things. Jill and I, just 
recently--but me, in the past--have offered to sit down with 
Harland and try to work this out. And I'm still willing to do 
that. That would be our preferred way of handling this. But, 
unless the other party wants to come to the table and try to 
work things out, then, there's no place else for us to go. We 
haven't done anything yet. We're only talking speculatively 
about what might happen when this EA comes out. But it is not 
anyone's intention, that I know of, to enter into lawsuits.
    Mr. Simpson. It--Harland, did you want to respond to that?
    Mr. Yriarte.: Cooperation--Cooperation only seems to be 
cooperation if it benefits the person who doesn't want you in 
the wilderness. And, as far as working it out, all the good 
land--Every canyon and every gorge up there that has scenic 
beauty, is now wilderness. Basically, if I sit down at the 
table with Jerry, the compromise is: I don't go into the 
wilderness. So, why would I want to sit down? Other than to 
just talk and chat and waste both our time?
    Mr. Simpson. And it would seem to me--I have a hard time 
getting past what was written here. And, assuming--If I'm 
Harland, or if I'm any other group, and somebody writes a 
letter like this and says, ``You know, we don't have any 
problem with this,'' I'm kind of saying, ``You know, sounds 
good to me.'' Maybe if I don't have this type of letter, I'm 
saying, ``I'm having nothing to do with this Steens wilderness 
stuff, and I'm going to fight it.'' But, because of this, I 
say, ``Hey, you know, everybody's being reasonable.'' Now, it 
comes back, and we say, ``No. I know. We're weren't told the 
truth.''.
    Tell me something: Do we have wilderness areas--I'm also, I 
guess, interested in this--How--What the intent of the 
Wilderness Act is, and so forth. You've created an area here 
that's a cow-free area. First one I understand, that's cow-free 
area and a wilderness area; is that right?
    Mr. Yriarte. And the first kid-free wilderness area.
    [Laughter.]
    Mr. Sutherland. Technically, I think the cow-free area is 
coincident with the wilderness area, whatever technical mumbo-
jumbo that means. But I think there is a distinction there. I 
think most of us think that the public paid a lot--paid enough 
for that. $5 million was a lot of money to spend, and that was 
the deal made.
    Mr. Simpson. But it is the first, unique cow-free--
    Mr. Sutherland. Yes. And it was one of the things was 
attractive to us, as ranchers.
    Mr. Simpson. So, it was different than what was 
contemplated in what--the '64 Wilderness Act, or what that year 
was?
    Mr. Sutherland. Oh, well, no. Howard Zanizer, and all the 
folks involved in the Wilderness Act, fought very--Part of the 
reason it took 8 years, was because they were always up against 
Chairman Aspinall, who insisted grazing continue. But, they 
weren't for grazing to continue. The went along with it, 
finally, to make it happen.
    Mr. Simpson. But that's what the law was.
    Mr. Sutherland. Yes.
    Mr. Simpson. I know I'm from Idaho, but I know backtracking 
when I see it. Do we have wilderness areas that have dams in 
them?
    Mr. Sutherland. I don't know.
    Mr. Simpson. We do. Just for your purposes, in California. 
Do we have areas that have roads in them? Wilderness areas that 
have roads in them?
    Mr. Sutherland. Cherry stems? Yes.
    Mr. Simpson. I mean, roads within the wilderness area? That 
are actually part of the wilderness boundary?
    Mr. Sutherland. I don't know. All I know is cherry stems.
    Mr. Simpson. We do. Do we have wilderness areas that have 
buildings in them? Actual buildings? Man-made buildings, as a 
matter of fact?
    Mr. Sutherland. Yes.
    Mr. Simpson. Do we have environmental organizations which 
actually seek permits to have large groups of--large is--have 
groups of individuals be able to use the wilderness area for 
educational purposes, on the value of wilderness?
    Mr. Sutherland. I don't know.
    Mr. Simpson. We do. They testify before Congress, asking 
for the right to have those permits and most have been granted 
without any review at all. As I said earlier, Congress has 
exemptions to wilderness areas in almost every Wilderness Act 
it has passed.
    Mr. Sutherland. And, if Harland's was in there, we would 
have--We would honor it. And maybe that will be necessary--to 
have legislation to correct that.
    Mr. Simpson. And you won't fight that legislation; is that 
correct?
    Mr. Sutherland. I'm not going to say that.
    Mr. Simpson. Ah.
    [Laughter.]
    Thank you very much. I appreciate your testimony, and I--
You know, as I sit here, and I look at what Congressman Walden 
and my Chief of Staff, Lindsay, and others tried to create 
here--and I think have done a great job--We are truly trying to 
develop a way that we can solve some problems, and I'm having a 
hard time believing that we are fighting over some of the 
things we're fighting over here. It just baffles me, and it 
makes me wonder if we're ever going to come to any resolution 
on this stuff. And I am just frustrated as hell--as heck. 
That's another Idaho term, excuse me.
    [Laughter.]
    It makes me wonder why I even want to get involved in 
wilderness in Idaho. I would just say ``To heck with it,'' if I 
thought this was how was it going to end up. And it will also 
make me question, and make him sign in blood, if I ever get an 
e-mail saying they agree to something.
    I appreciate your testimony. Thank you for being here 
today.
    Mr. Walden. Thank you. I've just got to follow up--We've 
got to wrap this up, because we have to be airborne by 4:15, 
back out at the Roaring Springs strip.
    But, what I'm told is that when the issue of including 
Harland's camps--specifically, when that legislation was 
raised, it was contentious. And that Andy, and others, opposed 
that. And rather than continuing that contentiousness, it was 
this e-mail that was supposedly to put the issue to rest. Now, 
I know you can't answer that. But one of the negotiators back 
here was in those meetings and tells me that's happened, and I 
trust Lindsay. I trust my eyes, although they're not as good as 
they used to be. But, I guess what is extraordinary to me is--
If somebody didn't know--If they were incompetent, and yet, put 
their name to this, that's not my fault, is it? It's an error 
and omission on her end, because she had the right to ask. You 
had the right to go ask. I had the right to go ask BLM, and get 
an answer. The bottom line is: If Harland's camp was that big 
of a problem, how come nobody knew about it?
    Mr. Davies. I've got to say something.
    [Laughter.]
    I can't stand not to. Two reasons: No. 1, it's scaring me 
to death that we're having this debate, because another hotly 
contested issue is the aircraft. Aircraft are critical for 
wildlife and livestock management in the area, and we did not 
address it in the legislation either, for the same reason, 
either. We had an e-mail just like that.
    Mr. Walden. From whom?
    Mr. Davies. From Jill, unfortunately.
    Mr. Walden. As chairman of the Steens-Alvord Coalition?
    Mr. Davies. Yeah. And so, we did--And the contentiousness 
over whether to isolate the running camp, as an exception in 
the wilderness area--It was contentious only because we did not 
want to micromanage through legislation, and highlight 
individual items and things, legislatively. We did it with 
language that was encompassing and, we felt, clear-cut.
    Mr. Walden. And you were in those discussions, weren't you?
    Mr. Davies. Yes. And so, if we put Harland's running camp 
in there, then we had to put all eight of the original 
permittees in there. So, then that sets a precedent. So, then 
you list all the grazing permittees, and you list every 
individual activity, and the documents would be 5000 pages 
long.
    Mr. Walden. So, these e-mails played a major role in your 
decisionmaking process?
    Mr. Davies. We dealt with it in a--Yes, they did. Rather 
than go item by item by item, and putting exemptions in and 
making fickle legislative deals, we dealt with it with 
``historical use,'' ``reasonable use''--that type of language. 
I'm not an attorney, and it's getting me in trouble, but I'm a 
reasonable person and I can read and understand the Webster 
dictionary. So, that's the reason that the language was used, 
instead of specific examples.
    Mr. Walden. Well, maybe we ought to get on the record right 
now, the issue of the aircraft.
    Mr. Davies. Well, I don't know if I want to.
    [Laughter.]
    Mr. Walden. All right. Let's not go there today. We may get 
a different answer.
    Mr. Davies. But, I guess I bring it up as another example 
of items that were left out of the legislation as exemptions, 
as detailed information, and we dealt with, with broad scope 
information. And that's the whole context of that.
    Mr. Walden. Let me move to an issue, and then I've got to 
wrap this up, but an issue that, hopefully, we can all agree 
on, and that is this issue of resolving some boundary 
questions. Would it be this panel's agreement that we might use 
a GPS system to come in and try and identify precisely where 
those boundaries are, Stacy?
    Mr. Davies. Its primarily the livestock-free boundary, and 
actually, as Jerry--And there's some boundary adjustments on 
the table, currently, that--as a Coalition--that we have 
collaboratively agreed to. It's not a comprehensive list. So, I 
would suggest that we instruct the BLM to do that, especially 
in the livestock-free boundary--Use a GPS. I expect that net 
acreage to be zero change.
    Mr. Walden. Right. But you just want to make sure it's 
accurate.
    Mr. Davies. Well, the literal interpretation of the Act, 
and some of some other things that are going on, there's little 
areas of cow-free--or, livestock-free that are going to be 
grazed. And we don't want to build miles and miles of fence, in 
the future, for no reason. And so, it's an issue--It's a 
speculative issue, to a certain extent. But we need--there's a 
number of boundary adjustments that we know need to be made, 
and I think we ought to do it all at once. Just use a GPS and 
get an accurate line. I think the net acreage will probably end 
up being zero. We'll add and subtract as we go around. It's 
something that does need to be done.
    Mr. Walden. Jerry, do you have problem with that concept?
    Mr. Sutherland. No. Everybody has been pretty much on the 
same page, as far as boundary adjustments.
    Mr. Walden. Fred, do you have any comment on that?
    Mr. Otley. No. Would you put that in writing, Jerry?
    [Laughter.]
    Mr. Sutherland. No, and you can't have it.
    Mr. Walden. All right. Let's stop fighting.
    [Laughter.]
     Is that something you think we can work out, from the 
BLM's perspective?
    Mr. Brown. Yeah.
    Mr. Walden. I'm seeing nodding heads. OK. I've got to cut 
it off. I really appreciate all of the people who have 
testified today. I think it's been most enlightening, in every 
case. I want to invite all the people to stay for the barbecue, 
and I want to thank, again, the communities for providing that. 
I also want to especially recognize the contributions of the 
Burns Paiute Tribe, among others. We also invited them to 
testify today, but they chose not to, as did the County. But we 
do appreciate their role in crafting this legislation. We 
appreciate their representation here, and I want to thank 
everybody for attending.
    Again, the public record will stay open for 30 days. All of 
you, and anyone else out there, has the opportunity to comment 
and your comments will be included in what is, obviously, a 
very important public record.
    Again, I want to thank our Committee staff, and our other 
staff, and my colleagues in the Oregon Delegation, especially 
Senator Wyden and Senator Smith, and Congressman DeFazio, for 
their continuing interest and activity in this area. With that, 
Mr. Chairman, we are adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

    The following information was submitted for the record:
    <bullet> Burns Paiute Tribe, Burns, Oregon, Statement 
submitted for the record
    <bullet> Ekker, TinaMarie, Policy Director, Wilderness 
Watch, Missoula, Montana, Statement submitted for the record
    <bullet> Finlayson, Stephen and Stephanie, Burns, Oregon, 
Letter submitted for the record
    <bullet> Newspaper article ``Running school unlikely to 
present any danger to Steens environment'' submitted for the 
record
    <bullet> Runnels, Pete, Burns, Oregon, Letter submitted 
for the record
    <bullet> Workman, Jill M., Chair, Steens-Alvord Coalition, 
Statement submitted for the record by The Honorable Greg Walden

    [The statement submitted for the record by the Burns Paiute 
Tribe, Burns, Oregon, follows:]

                  Statement of the Burns Paiute Tribe

    By the creation of the Steens Mountain (Tse Tse Ede or ``Cold, Cold 
Mountain'') Wilderness Area, an area of traditional aboriginal use by 
the Burns Paiute Tribe, the people of the Burns Paiute Tribe choose 
neither to have abridged nor to abdicate any of the Traditional 
Practices of their people. Further, they do not choose to disavow any 
areas of sacred significance within or immediately adjacent to the area 
of the Steens Mountains by acceding to the demands of outside interest 
groups.
    The area of Tse Tse Ede, while it has not been as accessible to 
Tribal members over the last 100 years as it was previous to white 
contact, Tse Tse Ede over the last 100 year has at least not been 
inundated by large numbers of non-Tribal peoples. This has allowed for 
some preservation of both the Traditional secular and sacred Values and 
Practices important to the lives of the Burns Paiute people and to the 
preservation of Tse Tse Ede from acts of desecration.
    These concerns were well elaborated by addressing safeguards during 
the creation of H.R. 4828, most specifically:
    ``Sec 4: VALID EXISTING RIGHTS. Nothing in this Act shall effect 
any valid existing right.''
    ``Sec 5: PROTECTION OF TRIBAL RIGHTS. Nothing in this Act shall be 
construed to diminish the rights of any Indian tribe. Nothing in this 
Act shall be construed to diminish tribal rights, including those of 
the Burns Paiute Tribe regarding access to Federal lands for tribal 
activities, including spiritual, cultural, and traditional food 
gathering activities.''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle A--Designation and Purposes. Sec 102. PURPOSE AND 
OBJECTIVES OF COOPERATIVE MANAGEMENT AND PROTECTION AREA (b) OBJECTIVES 
(1) to maintain and enhance cooperative and innovative management 
projects, programs and agreements between tribal, public, and private 
interests in the Cooperative Management and Protection Area;''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle A--Designation and Purposes. Sec 102. PURPOSE AND 
OBJECTIVES OF COOPERATIVE MANAGEMENT AND PROTECTION AREA (b) OBJECTIVES 
(3) to conserve, protect and to ensure traditional access to cultural, 
gathering, religious, and archaeological sites by the Burns Paiute 
Tribe on Federal lands and to promote cooperation with private 
landowners;''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle A--Designation and Purposes. Sec 102. PURPOSE AND 
OBJECTIVES OF COOPERATIVE MANAGEMENT AND PROTECTION AREA (b) OBJECTIVES 
(5) to promote and foster cooperation, communication, and understanding 
and to reduce conflict between Steens Mountain users and interests.''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle B--Management of Federal Lands. Sec 111 MANAGEMENT 
AUTHORITIES AND PURPOSES. (a) IN GENERAL.--The Secretary shall manage 
all Federal lands....in a manner that--(1) ensures the conservation, 
protection and improved management of the ecological, social and 
economic environment of the Cooperative Management and Protection area, 
including geological, biological, wildlife, riparian, and scenic 
resources, North American Indian tribal and cultural and archaeological 
resource sites, and additional cultural and historic sites; and (2) 
recognizes and allows current and historic recreational use.''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle B--Management of Federal Lands. Sec 111 MANAGEMENT 
AUTHORITIES AND PURPOSES. (b) MANAGEMENT PLAN (3) provide for 
coordination with State, county, and private landowners and the Burns 
Paiute Tribe; and (4) determine measurable and achievable management 
objectives, consistent with the management objectives in section 102, 
to ensure the ecological integrity of the area.''
    During the intervening months since the passage of H.R. 4828, a 
constant oversight and review of the work of both the Steens Mountain 
Advisory Committee (S.M.A.C.) and the Bureau of Land Management (BLM), 
has shown clearly that the Traditional Practices of the Burns Paiute 
Tribe and the Burns Paiute people individually are of less concern in 
the wording and intent of the Steens Wilderness Management Plan than 
the potential for litigation from ``interested parties.''
    First, the Burns Paiute Tribe has brought forward numerous issues 
of concern that range from respect and acknowledgement of the Burns 
Paiute Tribal Values to those Traditional Tribal Practices vital for 
the continuation of their culture. Within the range of issues brought 
forward, the only issues not immediately challenged either by the 
S.M.A.C. or the BLM's interdisciplinary team charged with the creation 
of a management plan, are those small issues that could be described as 
politically expedient and appear at first blush to be politically 
correct (i.e., signage in Paiute within the Wilderness area), but in 
reality are politically and legally innocuous. All other issues brought 
forward by the Burns Paiute Tribe to the S.M.A.C. and the BLM have 
elicited argument without discussion or cooperation, comments of a 
derisive nature, or excuses that implementation of those issues would 
bring on potential future litigation. All issues of this nature are met 
with a less that cooperative tone: discussion of options or creative 
management while maintaining legal compliance is not considered.
    The Burns Paiute Tribe asserts that this is neither within the 
letter nor the intent of the legislation. It is not within the charge 
or the intent of the S.M.A.C. and the BLM's charge to create a 
management plan specific to the Steens Wilderness. As examples and 
specificity were requested, example issues are elaborated upon below:
    1. Lack of understanding and respect for Burns Paiute Tribal 
citizenship, sovereignty, and importance as a community within the 
larger Harney and Malheur Counties communities.
    (a) Use of the generic ``tribe'', ``tribes'', ``Native American 
groups'' by the BLM in all documentation rather than ``Burns Paiute 
Tribe'' as is used in the legislation:
    When questioned about the constant use of ``tribes'' and ``native 
American concerns'' in all recent public documents concerning the 
Steens Wilderness and the Steens/Andrews Resource Area, the BLM and the 
BLM members of the S.M.A.C. consistently harkens back to phrases 
quoting BLM generated ``scientific reports'' written by university 
scholars, which state several tribes as traditionally interested in the 
Steens area. If there is an issue of multiple aboriginal use and 
claims, the issue would be resolved between the various tribes of this 
area. The issue would not be a subject of debate amongst ``expert 
scholars'' nor should it ever be an issue created by Federal agencies 
in an attempt to set management policy. We can not find any 
documentation that this is an issue, nor have we been contacted by any 
other Tribe to state our claim of traditional use as not exclusive.
    Regardless, the Burns Paiute Tribal people are not willing to 
accede to the BLM's insistence in all documentation and conversation 
concerning Tse Tse Ede to the terminologically generic ``tribe'' or 
``tribes'' when discussing ``Native American Interests''. The constant 
reference by BLM staff to potential litigation at the questioning of 
this issue seems to be the common response to ``uncomfortable'' issues 
or those that are outside BLM standard practice.
    The use of the terminology of the generic ``tribes'' is 
disrespectful to the Burns Paiute Tribal people, denying them regard as 
a sovereign nation of people. This generic ``tribes'' creates a 
nameless, faceless, cultureless, history-less group or groups and 
relegates the Burns Paiute Tribe to ``special interest'' status rather 
than a major stakeholder.
    If the BLM and the S.M.A.C. does require legal precedence in 
understanding of aboriginal use areas of the Northern Paiute peoples 
(the ancestors of the Burns Paiute), they have only to refer to the 
1951 Congressional hearings concerning land use already supplied to 
them.
    (b) The importance of the Burns Paiute Tribe currently and as a 
major stakeholder in the
    health of Tse Tse Ede.
    ``The Burns Paiute Tribe has a small reservation in Harney County, 
located near Burns. The tribe was established by Executive Order 
instead of by treaty and has no reserved treaty rights (Hanes 1999)'' 
(Summary of the Analysis of the Management Situation, Andrews 
Management Unit/Steens Mountain Cooperative Management and Protective 
Area Resource Management Plan, April 2002, page 2-8) This is the 
totality of the importance that the BLM documents for the multiple 
millennia of lives and history of the Burns Paiute Tribe, and their 
importance in the fabric of the current Harney and Malheur county 
areas.
    Perhaps this BLM viewpoint is explained further by their statement 
``The area was first permanently settled in the 1870's.'' (Summary of 
the Analysis of the Management Situation, Andrews Management Unit/
Steens Mountain Cooperative Management and Protective Area Resource 
Management Plan, April 2002, page 2-9). The Burns Paiute Tribe's 
multiple millennia of living in and maintaining a healthy ecosystem 
within this now fragile environment is wiped out in one sentence. 
Perhaps the BLM would be better served by the Paiute point of view: The 
multiple millennia of settlement, extensive land-use, and balanced 
ecological stability of the Steens area was disrupted by the ingress of 
non-Paiute foreign European-American agriculturists, miners, and 
trappers in the 1870's.
    The Burns Paiute People are the descendents of the Northern Paiute, 
or Wadatika people. The Wadatika's homeland encompasses a territory 
from the Cascades east past what is now Boise, and from the Columbia 
south well into Nevada. Their traditional visiting territory extends 
well beyond those limits. The presumption by the BLM and other agencies 
that the Burns Paiute Tribes' sole interest and legal viability is 
restricted to the small reservation currently located adjacent to Burns 
Oregon is ludicrous. To relegate the Burns Paiute Tribe to 
inconsequentiality and ``special interest groups'' status based on the 
size of the current Reservation and numbers of souls who live on that 
Reservation is insulting.
    2. Access to Tse Tse Ede for Traditional Practices
    A great number of Traditional Practices are conducted at Tse Tse 
Ede: subsistence gathering, secular and sacred Traditional Practices to 
name a few. While a number of these Traditional Practices are singular 
or are participated in by small groups, numerous are also participated 
in by larger numbers of individuals and individuals of limited mobility 
due to advanced age. The Burns Paiute Tribe is not willing to leave out 
participating Tribal members due to an arbitrary numeric limit to group 
size in the wilderness. The Burns Paiute Tribe is not willing to leave 
at home to most valued members of their community from any Traditional 
Practice because those individuals are of limited mobility due to age 
solely to accommodate the limited interpretation of the Wilderness Act 
by environmental ``evangelists''. The Burns Paiute Tribe is not willing 
to alter, accommodate, or dismantle Traditional sacred practices and 
religion to accommodate the Wilderness Act and those individuals within 
the S.M.A.C. and BLM who represent a singular agenda and detrimental 
ethnocentric view.
    (a) Native American People throughout the north and south American 
continents have a multi-millennial tradition of stable and ecologically 
sound ``land use''. The management planning of ``Wilderness Areas'' is 
almost always stated within Federal documents as a return of the land 
to its ``pre-settlement'' ecology. While Native American tribes deplore 
this phrase as a disavowal of their having been living on the land in 
question for multiple millennia prior to the influx of the Euro-
American pioneers, the simple fact that the Wilderness Act wishes to 
return the land to the ecosystem of time when Native Americans 
``stewarded'' the lands in itself is proof that our Traditional 
Practices, inclusive, are within the letter and the intent of the 
Wilderness Act.
    (b) For both the BLM and members of the S.M.A.C. this issue of 
continuation of Traditional Practices is stated as a non-issue. 
Wilderness is stated to be exclusively non-motorized in any manner and 
for any purpose. Group limits must be maintained for fear that ``a New 
Yorker looking for the wilderness experience'' is not inconvenienced. 
For the Burns Paiute People to be able to continue with Traditional 
Practices, they all must be able to have access to Tse Tse Ede. This is 
not a matter of having ``a wilderness experience'', but the survival of 
a culture.
    (c) There are numerous exceptions (a quick review of the literature 
shows 46 to date) to the strictest interpretation of the Wilderness Act 
(see Attachment 1). Most of these exceptions are for the purpose of 
access for maintenance of power lines, maintenance of electric 
facilities, maintenance of sanitary facilities, wild animal management, 
mining claims, etc. While the Burns Paiute Tribe acknowledges the 
importance of such exclusions from the Wilderness Act, they do not 
consider their right and need to continue Traditional Practices as less 
vital that the management of Big Horn Sheep and the maintenance of 
outhouses.
    4. H.R. 4828 gives both the BLM and the S.M.A.C. Clear direction as 
to setting management designations for access:
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle B--Management of Federal Lands. Sec 112 ROADS AND TRAVEL 
ACCESS (a) TRANSPORTATION PLAN--The management plan shall include, as 
an integral part, a comprehensive transportation plan for the Federal 
lands included in the Cooperative Management and Protection Area, which 
shall address the maintenance, improvement, and closure of roads and 
trails as well as travel access.''
    ``TITLE 1--STEENS MOUNTAIN COOPERATIVE MANAGEMENT AND PROTECTION 
AREA, Subtitle B--Management of Federal Lands. Sec 111 MANAGEMENT 
AUTHORITIES AND PURPOSES. (b) (1) (B) is limited to such roads and 
trails as may be designated for their use as part of the management 
plan.''
    The Federal Register also addresses this issue:

    Federal Register Vol 65, No 241, Section 6301.5 Definitions: access 
means the physical ability of property owners and their successors in 
interest to have ingress to and egress from State or private in 
holdings, valid mining claims, or other valid occupancies.
    Federal Register Vol 65, No 241, Section 6302.18 HOW MAY AMERICAN 
INDIANS USE WILDERNESS AREAS FOR TRADITIONAL RELIGOUS PURPOSES? In 
accordance with the American Indian Religious freedom Act (42 U.S.C. 
1996), American Indians may use wilderness areas for traditional 
religious purposes, subject to the provisions of the Wilderness Act, 
the prohibitions in Sect 6302.20 and other applicable law.
    Although mining is abhorred anywhere in and around Tse Tse Ede by 
the Burns Paiute Tribal people (especially egregious in an area of such 
secular and sacred regard), the Minerals Act is a prime example of 
allowable access within the Wilderness. When mentioned that mining is 
neither as vital as Traditional Practices and is infinitely more 
environmentally more damaging, the classic (for the BLM) refrain of 
``but the Materials Act precedes the other laws'' is used as a ``valid 
reason'' to deny Traditional Practices. The Burns Paiute Tribe's multi 
millennial use and occupation of Tse Tse Ede surely precedes a law 
created a paltry 130 years ago. This time span of multiple millennia 
would also be ``valid occupancy'' as defined within the Federal 
Register (above)
    5. The differing views of Cultural Heritage between the BLM and the 
Burns Paiute Tribe.
    When assessing issues of importance to be addressed in the scoping 
for the management of the Steens Wilderness for the Steens/Andrews 
Resource Area, the BLM continues to utilize the most restrictive 
definitions of ``Cultural Resources'' and ``Cultural Heritage'' as 
those items of archaeological significance. The Burns Paiute Tribe can 
not and will not accept this definition: to accept this definition is 
to deny the continuum of rich and vibrant Tradition and Culture of the 
Burns Paiute people from the past, in the present, and into the future.
    When a dominant culture puts its historic importance and sense of 
historic value on buildings and books, on monuments and markers, how is 
culture to protect the Traditional Values that are can not assessed 
under the same restrictive guidelines? When a Native American area of 
historic, social, cultural, religious, and ancestral value comes under 
imminent destruction, alteration, or (as in this case) change in 
availability is the Native American Culture in question to be held to 
the standards of a culture so divergent in value and assessment? The 
Burns Paiute Tribe were hopeful that the wording, so carefully crafted 
within this Bill, would allow the Values and the Traditions to be 
maintained without being held to the determination standards of 
buildings and monuments. Apparently we were mistaken.
    Second, the charge given to the BLM within the legislation states 
clearly that the S.M.A.C.
    ``Wilderness Act (PL 88-577, 78 Stat. 890; U.S.C. 1 1 21, 1 1 31-
1136) USE OF THE WILDERNESS AREAS, Sec. 4. (b) Except as otherwise 
provided in this chapter, each agency administering any area designated 
as wilderness shall be responsible for preserving the wilderness 
character of the area and shall so administer such area for such other 
purposes for which it may have been established as also to preserve its 
wilderness character. Except as otherwise provided in this chapter, 
wilderness areas shall be devoted to the public purposes of 
recreational, scenic, scientific, educational, conservation, and 
historical use.
    The Burns Paiute Tribe's question to the BLM, the S.M.A.C., and the 
Congressional Subcommittee: is there any group more vested in the 
conservation of Tse Tse Ede? More interested in the education of their 
children at Tse Tse Ede? Have a more valid claim to Historic use?
    The people of the Burns Paiute Tribe choose neither to have 
abridged nor to abdicate any of the Traditional Practices of their 
people. The people of the Burns Paiute Tribe choose not to disavow any 
areas of sacred significance within or immediately adjacent to the area 
of the Steens Mountains.
                             Attachment 1:
             Wilderness Laws: Prohibited and Permitted Uses
                       Wilderness Act Provisions
    Sec. 4(d)(1) allows ``the use of aircraft or motorboats, where 
these uses have already become established,'' subject to ``desirable'' 
restrictions;
    Sec. 4(d)(1) also allows ``such measures... as may be necessary in 
the control of fire, insects, and diseases,'' subject to ''desirable'' 
conditions;
    Sec. 4(d)(2) allows mineral prospecting conducted ``in a manner 
compatible with the preservation of the wilderness environment'';
    Sec. 4(d)(3) provides for establishing and developing valid mineral 
rights, ``subject, however, to such reasonable regulations governing 
ingress and egress as may be prescribed'' consistent with using the 
land for mineral development, and with leases, permits, and licenses 
containing ``such stipulations as may be prescribed ... for the 
protection of the wilderness character of the land consistent with the 
use of the land
    Sec. 4(d)(4) allows the President to authorize water project 
development, including road construction and use;
    Sec. 4(d)(4) also allows livestock grazing, ``where established 
prior to the effective date of this Act... subject to such reasonable 
regulations as are deemed necessary''; and
    Sec. 4(d)(6) allows commercial services ``which are proper for 
realizing the recreational or other wilderness purposes of the areas.
Subsequently Enacted Provisions
Motorized Access-Land
    P.L. 95-237, Endangered American Wilderness Act of 1978: Sec. 2(i) 
allows local government access for maintaining current and future 
watershed facilities in one area in Utah.
    P.L. 95-249, Absaroka-Beartooth Wilderness Act: Sec. 4 preserves a 
right-of-way claim in one area being litigated at that time.
    P.L. 95-495, Boundary Waters Canoe Area Wilderness Act: Sec. 4(e) 
allows snow-mobile use in certain areas; Sec. 4(d) and Sec. 4(g) allow 
mechanized portages in certain areas; Sec. 4(h) allows continued 
motorized uses only; and Sec. 4(i) allows motorized access for 
emergencies and administrative purposes.
    P.L. 96-487, Maska National Interest Lands Conservation Act of 
1980: Sec. 703 (b) allows mechanized portage equipment in a specific 
area.
    P.L. 96-560, Colorado Wilderness Act of 1980: Sec. 102(a)(17) 
allows motorized access for maintenance of water resource facilities in 
one area.
    P.L. 98-425, California Wilderness Act of 1984: Sec. 101(a)(2) and 
(25) allow continued access for livestock facilities in two specific 
areas; Sec. 101(a)(6) allows motorized administrative use of a fire 
road between contiguous wilderness areas; and Sec. 101(a)(24) allows a 
right-of-way for construction.
    P.L. 98-428, Utah Wilderness Act of 1984: Sec. 302(b) allows local 
government access for maintaining current and future watershed 
facilities in 9 of the 12 areas designated. P.L. 98-550, Wyoming 
Wilderness Act of 1984: Sec. 201(a)(11) allows motorized Federal access 
for bighorn sheep management in one designated area.
    P.L. 101-628, Arizona Desert Wilderness Act of 1990: Sec. 101(a)(3) 
allows access for operating and maintaining a pipeline in one area; 
Sec. 101(a)(20) provides access and use of a powerline right-of-way in 
one area; and Sec. 101(k) allows continued use and maintenance of a 
particular road.
    P.L. 102-301, Los Padres Condor Range and River Protection Act: 
Sec. 2(5) allows continued use of a road corridor in one area until a 
bypass is completed.
    P.L. 103-77, Colorado Wilderness Act of 1993: Sec. 8(d) allows 
motorized access for use, operation, maintenance, repair, and 
replacement in all designated areas.
    P.L. 103-433, California Desert Protection Act of 1994: Sec. 102(1) 
and (13) provide rightsof-way for military access across two designated 
areas; Sec. 103 (f) allows state motorized access for wildlife 
management; and Sec. 708 guarantees access to non-federal lands within 
all designated areas.
Motorized Access-Water
    P.L. 93-429, Okefenokee National Wildlife Refuge Wilderness Act: 
Sec. 2(1) allows powered watercraft of 10 horsepower or less within the 
area.
    P.L. 95-495, Boundary Waters Canoe Area Wilderness Act: Sec. 4(c) 
identifies horsepower limits and duration (some access is temporary) 
for motorboats in specific counties and or lakes within the area; and 
Sec. 4(f) limits motorboat use to historic levels, except for 
homeowners.
    P.L. 98-430, Florida Wilderness Act of 1984: Sec. 1(4) allows 
continued motorboat use in one area.
Motorized Access-Ai
    P.L. 95-237, Endangered American Wilderness Act of 1978: Sec. 2(i) 
allows helicopter access for sanitary facilities in one area in Utah.
    P.L. 96-312, Central Idaho Wilderness Act of 1980: Sec. 7(a)(1) 
allows continued landing of aircraft within a designated area.
    P.L. 98-428, Utah Wilderness Act of 1984: Sec. 302(b) allows 
helicopter access for sanitary facilities in 10 of the 12 designated 
areas.
Water Infrastructure
    P.L. 95-237, Endangered American Wilderness Act of 1978: Sec. 2(e) 
protects rights for water diversion and use, including operations, 
maintenance, repair, and replacement in one area in Colorado.
    P.L. 96-550, New Mexico Wilderness Act of 1980: Sec. 102(a)(9) 
retains existing management, rules, and regulations for a municipal 
watershed in one area.
    P.L. 96-560, Colorado Wilderness Act of 1980: Sec. 102(a)(5) 
protects rights for water diversion and use, including operation, 
construction, maintenance, and repair in one area.
    P.L. 98-425, California Wilderness Act of 1984: Sec. 101(a)(25) 
protects rights for water diversion and use, including construction, 
operation, maintenance, and repair in one area.
    P.L. 98-550, Wyoming Wilderness Act of 1984: Sec. 201(c) protects 
rights for water diversion and use, including construction, operation, 
maintenance, and modification in four areas.
    P.L. 101-628, Arizona Desert Wilderness Act of 1990: Sec. 101(1) 
protects flood control dam operations in one area; and Sec. 301(e) and 
Sec. 302 direct that the two areas abutting the Colorado River have no 
effect on upstream dams or on water management in the Upper Colorado 
River Basin, respectively.
    P.L. 103-77, Colorado Wilderness Act of 1993: Sec. 2(a)(13) 
protects rights for water diversion and use, including construction, 
operation, use, maintenance, and repair in one area.
    P.L. 103-433, California Desert Protection Act of 1994: Sec. 202 
and Sec. 203 direct that the two areas abutting the Colorado River have 
no effect on upstream dams or on water management in the Upper Colorado 
River Basin, respectively.
Other Infrastructure and Activities
    P.L. 95-237, Endangered American Wilderness Act of 1978: Sec. 2(c) 
and Sec. 2(d) allow fire prevention and watershed protection activities 
in two areas.
    P.L. 96-312, Central Idaho Wilderness Act of 1980: Sec. 5(d)(1) 
allows prospecting and exploration for and development of cobalt within 
part of one area.
    P.L. 96-550, New Mexico Wilderness Act of 1980: Sec. 102(a)(5) 
allows construction of additional fencing for livestock grazing in one 
area.
    P.L. 97-384, Charles C. Deam Wilderness Act: Sec. 3 allows access 
to and maintenance of a cemetery in one area in Indiana.
    P.L. 98-322, Vermont Wilderness Act of 1984: Sec. 104(c) allows 
maintenance of trails and associated facilities in all designated 
areas.
    P.L. 98-406, Arizona Wilderness Act of 1984: Sec. 101(a)(13) allows 
installation and maintenance of hydrological, meteorological, and 
telecommunication equipment in one area.
    P.L. 98-428, Utah Wilderness Act of 1984: Sec. 305 allows 
installation and maintenance of hydrological, meteorological, 
climatological, and communication equipment in 9 of 12 designated 
areas.
    P.L. 100-668, Washington Park Wilderness Act of 1988: Sec. 102 
allows the maintenance, repair, and replacement of an underground 
powerline through one area.
    P.L. 101-195, Nevada Wilderness Act of 1990: Sec. 10 allows 
installation and maintenance of hydrological, meteorological, and 
climatological equipment in all designated areas.
    P.L. 101-628, Arizona Desert Wilderness Act of 1990: Sec. 301(g) 
allows continued border enforcement activities within one designated 
area.
    P.L. 101-633, Illinois Wilderness Act of 1990: Sec. 9 allows access 
to and maintenance of a cemetery in one area.
    P.L. 102-301, Los Padres Condor Range and River Protection Act: 
Sec. 3(b) allows fire prevention and watershed protection activities in 
one area.
    P.L. 103-433, California Desert Protection Act of 1994: Sec. 103(g) 
allows motorized law enforcement activities within all designated 
areas; and Sec. 705(a) provides for Native American access for cultural 
and religious purposes.
                                 ______
                                 
    [The statement submitted for the record by TinaMarie Ekker, 
Policy Director, Wilderness Watch, Missoula, Montana, follows:]

    Statement of TinaMarie Ekker, Policy Director, Wilderness Watch

    Wilderness Watch appreciates this opportunity to provide written 
testimony into the hearing record regarding management of the Steens 
Mountain Wilderness in Oregon.
    Wilderness Watch is a national conservation organization focused on 
the stewardship of areas within the National Wilderness Preservation 
System and Wild and Scenic Rivers System. We strive to monitor the 
stewardship of every wilderness and wild river in the system. Our 
purpose is to ensure that the wilderness character of these special 
places is protected and preserved.
    When Congress designated the Steens Mountain Wilderness in October 
2000 making it part of the National Wilderness Preservation System 
(NWPS) it gave a new charge to the stewards of the area. That charge or 
mandate is clearly spelled out in the Wilderness Act: ``...each agency 
administering any area designated as wilderness shall be responsible 
for preserving the wilderness character of the area and shall so 
administer such area for such other purposes for which it may have been 
established as also to preserve its wilderness character.'' (Wilderness 
Act, Section 4(b)). Wilderness character includes among many other 
things both measurable and immeasurable, the absence of roads, 
commercial enterprise, motor vehicles and human-built structures and 
installations. In being designated as Wilderness, Steens became part of 
an extraordinary system of national preserves, ``where the earth and 
its community of life are untrammeled by man, where man is a visitor 
who does not remain...an area retaining its primeval character and 
influence...which is protected and managed so as to preserve its 
natural conditions'' and which ``has outstanding opportunities for 
solitude...'' (Wilderness Act, Section 2(c)).
    As part of the National Wilderness Preservation System what happens 
in the Steens affects more than just this one area. It affects the 
quality and integrity of the entire system. If activities are allowed 
to occur that degrade wilderness qualities in the Steens Mountain 
Wilderness, those same activities are likely to soon begin occurring 
elsewhere, resulting in eventual degradation of the system overall, and 
essentially the disappearance of wilderness in America as we have known 
it up until now.
    We are deeply concerned about several management issues that have 
emerged regarding the implementation of the Steens Mountain Cooperative 
Management and Protection Act (P.L. 106-399). These issues include 
BLM's failure to regulate the use of motor vehicles within the 
Wilderness by grazing permittees and private landowners, and the 
agencies failure to regulate activities of certain commercial 
operations inside the Wilderness. I will address each of these concerns 
individually.
Motor Vehicle Use by Grazing Permittees
    The Steens Mountain Act allows grazing to continue on some Federal 
lands in the area. Within the wilderness, the Act directs that grazing 
shall be managed according to what are commonly referred to as the 
Congressional Grazing Guidelines (Appendices A and B of House Report 
101-405 of the 101st Congress). These guidelines do not allow for 
routine and unlimited use of motor vehicles by permittees in 
wilderness. The grazing guidelines state:
    Where practical alternatives do not exist, maintenance or other 
activities may be accomplished through the occasional use of motorized 
equipment'' The use of motorized equipment should be expressly 
authorized in the grazing permits for the area involved. The use of 
motorized equipment should be based on a rule of practical necessity 
and reasonableness. For example, motorized equipment need not be 
allowed for the placement of small quantities of salt or other 
activities where such activities can reasonably and practically be 
accomplished on horseback or foot. On the other hand, it may be 
appropriate to permit the occasional use of motorized equipment to haul 
large quantities of salt to distribution points. Moreover, under the 
rule of reasonableness, occasional use of motorized equipment should be 
permitted where practical alternatives are not available and such use 
would not have a significant adverse impact on the natural environment.
    BLM is currently working on an environmental assessment (EA) to 
evaluate the motorized access needs of grazing permittees. As part of 
this assessment the BLM has requested information from the permittees 
regarding their past use of motor vehicles in the area. There is 
concern that the number of annual motor vehicle trips being reported by 
the permittees are highly inflated and cannot be verified by agency 
staff. Our worry is that future permitted motorized use should not be 
based on past use without an independent evaluation of whether other 
reasonable alternatives are available. Now that the area is designated 
wilderness, the Congressional Grazing Guidelines should be stringently 
applied to protect the area's wilderness character while also 
accommodating valid access needs of the grazing permittees.
    While access permits are in the preparation process, we are 
dismayed that the BLM is currently allowing the grazing permittees to 
drive motor vehicles inside the wilderness whenever they wish. I 
confirmed that this is happening in a conversation with Miles Brown, 
Area Manager for the Steens Mountain Wilderness. When I asked how many 
motorized trips had been conducted so far this year by grazing 
permittees, he said that BLM doesn't know. He said he knows some 
permittees have been driving into the wilderness to drop of salt 
blocks. The Congressional Grazing Guidelines specifically discourage 
motorized access for this activity. We feel this is indicative of the 
way BLM is failing to meet its legislative mandate to preserve 
wilderness character while still allowing for reasonable grazing 
management practices.
Commercial Activities
    Both the Wilderness Act and the Steens Mountain Act allow 
commercial services in wilderness. Both Acts restrict such services to 
allow only those that are compatible with wilderness. The Wilderness 
Act stipulates that commercial services may only be allowed ``to the 
extent necessary'' for realizing a wilderness purpose.
    To operate in the Steens Mountain Wilderness an outfitter or guide 
must obtain a special use permit from the BLM. These permits describe 
terms and conditions that the outfitter must adhere to while conducting 
their commercial operation. The agency must apply the NEPA process 
during its review of all applications for special use permits.
    Wilderness Watch is concerned that BLM has been allowing some 
commercial entities to operate within the Steens Mountain Wilderness 
with no NEPA review and therefore without a valid special use permit. 
Furthermore, we are concerned that BLM is allowing some commercial 
operators to conduct activities that are incompatible with wilderness.
    For example, BLM has allowed one outfitter to drive motor vehicles 
through the Wilderness for purposes of transporting gear to set up 
their commercial base camp on a private inholding that they've leased 
since the Wilderness was designated in October 2000. Allowing a 
commercial outfitter to drive a motor vehicle in the wilderness 
violates Section 115 of the Steens Mountain Act. This section 
stipulates that BLM can only issue a special use permit for a 
commercial service if the activities associated with that commercial 
operation are consistent with the Wilderness Act. Driving in wilderness 
as part of a commercial outfitting operation is clearly inconsistent 
with the intent of the Wilderness Act.
    Similarly, Wilderness Watch is also concerned that BLM continues to 
allow the Steens Mountain Running Camp to operate inside the 
wilderness. Wilderness Watch does not object to the camp's operating on 
public lands in the Steens region provided BLM completes the necessary 
environmental analyses and incorporates appropriate safeguards into the 
permit'something BLM has thus far failed to do. But Wilderness Watch 
does believe that the running camp's operation violates well-
established principles of Wilderness stewardship and BLM regulations.
    The camp claims that it has a right to continue its commercial 
operation inside the wilderness because it is a ``historic use.'' The 
Steens Mountain Wilderness is part of the larger Cooperative Management 
and Protection Area (CMPA). One of the general objectives of the CMPA 
is to ``promote grazing, recreation, historic, and other uses that are 
sustainable.'' However, this general objective does not imply that all 
past historic uses can occur in an unregulated manner anywhere and 
everywhere throughout the CMPA. If the Act had intended that, then even 
snowmobiling might be allowed in the Steens Mountain Wilderness! This 
general objective referring to ``historic use'' in the CMPA does not 
override the clear legislative stipulations in Title II that govern 
management of the wilderness.
    Ever since the Wilderness Act of 1964 established our national 
Wilderness system, the type of event proposed by the running camp, 
which includes running groups of 150-180 clients and staff through the 
Wilderness at one time, has been prohibited by managing agencies. 
Management plans for Wilderness nearly always place a limit on the 
number of people in any one group and the limit is usually 15 or less. 
Not a single plan approaches anything near the 180 people per group 
that the running camp desires. Moreover, these limits apply to 
everyone: church groups, girl scouts, boy scouts, family groups, school 
groups, Sierra Club outings and all other users. The issue really comes 
down to whether the running camp should be exempt from 40 years of 
Wilderness stewardship principles and the rules that apply to all other 
Americans who wish to visit Wilderness. Wilderness Watch does not 
believe it should. Instead, we believe that the rules that have been in 
place for nearly 40 years and that apply to all other visitors should 
also apply to the private running camp.
Motorized Access to Inholdings
    Within the Steens Mountain Wilderness, as in many other 
wildernesses, are several parcels of private land that are completely 
surrounded by the wilderness. Both Title II of the Steens Act and the 
Wilderness Act provide for non-motorized access to inholdings. Neither 
Act, however, requires motorized access. Title II states that 
``reasonable access'' shall be allowed in order to provide the owner of 
the land or interest in land reasonable use of their property. This 
reasonable access for reasonable use principle governs access to those 
inholdings in the Steens Mountain Wilderness which do not have a legal 
right of access such as an easement or a right-of-way. It falls to the 
BLM to make an independent determination of what constitutes reasonable 
access for a particular inholder if they apply for a special use permit 
requesting motorized access.
    At the present time none of the inholders have applied for a 
special use permit for access although there is rumor that some may be 
threatening to drive in without a permit. Wilderness Watch verified 
through BLM that last year a realtor was driving whenever he wished 
inside the wilderness to show clients one of the inholdings that is for 
sale. To our knowledge BLM did nothing to regulate this use or to take 
action that would safeguard the Wilderness. Again, this demonstrates an 
unwillingness on the part of the agency to meet its legal mandate to 
preserve the Wilderness character of the Steens Mountain Wilderness.
    Wilderness inholdings are situated in remote locations. Many have 
never had road or even trail access. The managing agencies commonly 
deny requests for motorized access when other means of access are 
available such as foot, horseback, or aircraft. For example, in a 
recent court decision the Forest Service was upheld in its denial of 
motorized access to an inholding located nine miles within the 
Absaroka-Beartooth Wilderness in Montana. The judge ruled that for such 
remotely situated wilderness property foot or horseback access was 
reasonable.
    The Wilderness Act clearly articulates that motor vehicles, roads, 
and mechanized equipment are incompatible with an area's wilderness 
character, which is why such things are prohibited in wilderness with 
only very narrow exceptions. Section 112 of the Steens Mountain Act 
addresses roads and general use of motor vehicles. It states that the 
use of motorized or mechanized vehicles on Federal lands included in 
the Cooperative Management and Protection Area (which includes the 
wilderness) are not prohibited if the Secretary determines that such 
use--
        ``...is appropriate for the construction or maintenance of 
        agricultural facilities, fish and wildlife management, or 
        ecological restoration projects, except in areas designated as 
        wilderness...''
    Clearly, in the Steens Mountain Act Congress did not intend to 
allow routine or unlimited use of motor vehicles inside the wilderness, 
regardless of whether some people were accustomed to using motor 
vehicles in the past. Wilderness designation created a new purpose for 
the area, and regular use of motor vehicles is incompatible with the 
purpose of preserving wilderness character.
    It is our understanding that BLM has notified all inholders that 
each landowner has the opportunity to apply for a special use permit 
for mechanized access to his or her property. If any of the inholders 
choose to apply for such a permit BLM is then required to analyze the 
proposal using the process required by the National Environmental 
Policy Act and agency regulations. Utilizing that process while 
incorporating the special protections and restrictions imposed by the 
Steens Mountain Wilderness will allow the agency to make a case by case 
determination on the appropriate type and amount of access for each 
private inholding. Until permits are requested and the agency completes 
the required analysis and makes a determination on the request there is 
no legal authority to allow for motor vehicle use by private parties in 
the Steens Mountain Wilderness. That BLM is currently allowing private 
landowners and / or their representatives to drive through the Steens 
Mountain Wilderness is an abrogation of the agency's Wilderness 
stewardship responsibilities and the legal requirements imposed by 
Congress.
Conclusion
    The Steens Mountain area is a local, regional and national treasure 
that can provide myriad benefits to present and future generations of 
American citizens. As part of the National Wilderness Preservation 
System, the Steens Mountain Wilderness must be administered--first and 
foremost--to preserve its Wilderness character. The issues facing the 
Steens Mountain Wilderness are not unique to this particular 
wilderness. The same types of issues are being dealt with throughout 
the National Wilderness Preservation System by all four wilderness 
managing agencies. If extensive motorized incursions and incompatible 
commercial uses are allowed at Steens Mountain it will undermine the 
integrity of our wilderness system and hamper the efforts of wilderness 
managers elsewhere to protect wilderness from degradation related to 
incompatible uses. Conversely, management decisions at Steens that 
protect the wilderness resource can enhance wilderness stewardship 
everywhere. We look forward to continuing to work with BLM officials 
and interested Members of Congress toward improving the stewardship of 
the Steens Mountain Wilderness.
                                 ______
                                 
    [A letter submitted for the record by Stephen and Stephanie 
Finlayson, Burns, Oregon, follows:]


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    [A newspaper article submitted for the record follows:]



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    [A letter submitted for the record by Pete Runnels, Burns, Oregon, 
follows:]



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    [A statement submitted for the record by Jill M. Workman, 
Chair, Steens-Alvord Coalition, follows:]

      Statement of Jill M. Workman, Chair, Steens-Alvord Coalition

    I understand that you have received inquiries from your colleagues 
regarding the Steens Mountain legislation's impact on the running camp 
that takes place on Steens Mountain each summer. As chair of the 
Steens-Alvord Coalition, I am writing to let you know that the 
coalition views the running camp as relatively benign. We do not take 
issue with its continued existence nor do we intend to attempt to 
incorporate into the legislation any language that would limit or force 
the running camp to change its operation. We do not know which portion 
of the legislation is causing such concern to the camp's owner.
    It seems apparent that the potential legislation was discussed with 
the campers both last and this summer. Last year the Southeast Oregon 
RAC received numerous letters from campers asking us (I represent 
environmental interests on the RAC) to not close the camp, to keep the 
Steens Mountain Road open and to continue to allow people to recreate 
on the mountain--we had not considered closing the camp, the Steens 
Mountain Road or the mountain to recreation use. This summer's pack of 
letter's (Harlan, the camp's owner/operator, had about 60 with him at 
the Steens Mountain Forum in Bend two weeks ago) were destined for the 
representatives and senators for the states where the campers live.
    As you may know, this running camp houses its campers in tents on 
private land and the campers spend the majority of their days running 
through the gorges of Steens Mountain, much of which is public land. I 
doubt that most visitors to the mountain realize that the camp is 
there. The camp has a special use permit from BLM and we have not 
purposed any changes to that permit.
    I am hopeful that addressing this matter now will keep the running 
camp from becoming an issue as we attempt to move forward with 
consensus legislation. Please call me if you have any questions about 
the coalition's position on the running camp or if you believe it would 
be helpful for a coalition member to discuss this matter with the 
camp's owner or a person receiving a letter from a camper.
    We appreciate your time and attention to working towards consensus 
legislation for Steens Mountain and Alvord Basin, and we hope to meet 
with you during our visit to Washington, DC the first week of 
September.
    Have a great day!

                                   - 

</pre></body></html>
